Department of
       Veterans Affairs
Office of Inspector General




   Semiannual Report to Congress
   Issue 68 | April 1 – September 30, 2012
Online Availability
This report is provided with our compliments. It is also available on our web site:
http://www.va.gov/oig/publications/semiannual-reports.asp

To access other OIG reports, visit: http://www.va.gov/oig/publications/




Additional Copies
Copies of this report are available to the public. Written requests should be sent to:

                                     Office of Inspector General (53B)
                                     Department of Veterans Affairs
                                        810 Vermont Avenue, NW
                                          Washington, DC 20420




Automatic Notifications
OIG offers a free subscription service that provides automatic notifications by e-mail when new reports
or other information is posted to the OIG web site. You may specify that you would like to receive
notification of all OIG reports or only certain types of OIG reports. In addition, you may change your
preferences or unsubscribe at any time. To receive e-mail notifications of additions to the OIG web site,
go to: http://www.va.gov/oig/email-alerts.asp and click on “Sign up to receive e-mail updates.”

You can also sign up to receive OIG’s RSS feeds by visiting: http://www.va.gov/oig/rss/
                           Me s s a g e f rom th e
                                                   Inspector General
                                              I am pleased to submit this issue of the Semiannual Report to
                                              the Congress. Pursuant to the Inspector General Act of 1978, as
                                              amended, this report presents the results of our accomplishments
                                              during the reporting period April 1 – September 30, 2012. I
                                              would like to take this opportunity to highlight just a few of the
                                              chief findings and conclusions that came to fruition during this
                                              reporting period.

                                              The Office of Inspector General (OIG) issued 159 reports on
                                              VA programs and operations. OIG investigations, inspections,
                                              audits, evaluations, and other reviews identified nearly $2 billion
                                              in monetary benefits, for a return on investment of $40 for every
                                              dollar expended on OIG oversight. OIG investigators closed
                                              556 investigations and made 270 arrests for a variety of crimes
                                              including fraud, bribery, embezzlement, identity theft, drug
                                              diversion and illegal distribution, computer crimes, and personal
                                              and property crimes. OIG investigative work also resulted in
                                              336 administrative sanctions and corrective actions.

OIG opened an administrative investigation after receiving allegations involving wasteful expenditures related
to two 2011 Office of Human Resources and Administration (HRA) conferences held in Orlando, FL. Planning
and execution of these conferences suffered from a broad scope of mismanagement and wasteful spending at the
hands of HRA senior leadership, conference planners, and other employees. We questioned over $762,000 as
unauthorized, unnecessary, and/or wasteful expenses and further identified 11 VA employees who improperly
accepted gifts from contractors seeking to do business or already doing business with VA. As a result of our
findings, the Assistant Secretary for HRA resigned from his position. VA’s Secretary agreed to take action on
our findings, and we will monitor the Department’s progress on implementing all proposed corrective actions.

Our Office of Investigations prioritizes investigations of fiduciaries who embezzle VA benefits from incompetent
Veterans. During the last 5 years, they conducted 203 investigations resulting in 97 arrests, $6.7 million in fines
and restitution, and $1.4 million in monetary recoveries and cost avoidance. One such case involved an attorney
who formerly served as a court-appointed guardian and Federal fiduciary for 54 Veterans. He recently pled
guilty to conspiracy and filing a false tax return as a direct result of OIG investigative work, which determined
that he stole approximately $2.3 million from the Veterans’ bank accounts and subsequently failed to report the
stolen funds to the Internal Revenue Service. The defendant’s wife, who worked as his legal assistant, previously
pled guilty to similar charges.

Additionally, the Office of Investigations’ efforts to combat fraud in VA’s Service-Disabled Veteran-Owned Small
Business (SDVOSB) Program continue to yield judicial and administrative results. During this reporting period,
eight individuals were arrested after being charged with Federal crimes related to SDVOSB fraud. Convictions
resulted in more than $1.7 million in court-ordered payment of fines, restitution, and penalties. Additionally,
four individuals and one company were debarred from being awarded Federal contracts, and five additional
referrals submitted to the Suspension and Debarment Committee are pending action.



Semiannual Report to Congress                                                                                  |    1
Issue 68 | April 1 – September 30, 2012
Message from the
            Inspector General


OIG continues to pioneer groundbreaking research initiatives to advance our understanding of the needs and
challenges facing today’s Veteran. In the first ever study of its kind, OIG’s Office of Healthcare Inspections
followed more than 300,000 Veterans to determine the incidence and risk factors for becoming homeless after
military service. OIG found that at 5 years after separation, 3.7 percent of those studied had experienced
homelessness, with Operation Enduring Freedom/Operation Iraqi Freedom and women Veterans experiencing
higher incidences of homelessness. Veterans who experienced homelessness were also younger, enlisted with
lower pay grades, and were more likely to be diagnosed with mental disorders and/or traumatic brain injury
at the time of separation from active duty. OIG found that the presence of mental disorders (substance-related
disorders and/or mental illness) is the strongest predictor of becoming homeless. Military sexual trauma is
also a risk factor for becoming homeless, especially in women Veterans. Based on the study’s findings, OIG
recommended that the Veterans Health Administration (VHA) consider the risk factors identified in our report
and adjust current Veteran homelessness preventive strategies as necessary.

The Office of Audits and Evaluations determined that opportunities still exist to improve VHA’s Medical Care
Collections Fund program. A 2011 OIG audit determined VA had missed opportunities to increase third-party
revenue by $110.4 million annually or $552 million over 5 years. Although VHA reported improvements in
collections by 43 percent between FYs 2007 and 2011, OIG’s 2012 follow-up audit estimated that VHA missed
further opportunities to increase third-party revenue by at least $152 million annually. Without actions to
improve billing processes, VHA could miss opportunities to collect an estimated $760 million in third-party
revenue over the next 5 years.

I want to express my sincere appreciation to our OIG employees for their steadfast commitment to
accomplishing OIG’s mission and identifying opportunities for improvement within VA. I also thank the
Secretary, Deputy Secretary, and other senior Department officials and their staffs for their continued support of
our work and receptiveness to our recommendations. We look forward to continuing our partnership with the
Department and Congress in the months ahead to meet the many challenges facing VA as it works to ensure our
Nation’s heroes receive the care, support, and recognition they have earned in service to our country. Most of
all, we thank our Veterans who have sacrificed generously and selflessly to protect our freedom.




GEORGE J. OPFER
Inspector General




2   |                                                                           VA Office of Inspector General
                                                                                Issue 68 | April 1 –
 September 30, 2012
                                            Statistical
                                                              Highlights
                                             6-Month        Fiscal                                           6-Month       Fiscal
    Monetary Impact (in Millions)                                           Investigative Activities
                                               Total         Year                                              Total        Year
 Better Use of Funds                           $502.5        $550.3     Arrests5                                241         484
 Fines, Penalties, Restitutions, and                                    Fugitive Felon Arrests                  29           54
                                              $1,156.6 $1,618.4
 Civil Judgments                                                        Fugitive Felon Arrests made
 Fugitive Felon Program                        $101.6   $205.0          by Other Agencies with OIG                4          20
 Savings and Cost Avoidance                    $148.8 $1,074.0          Assistance
 Questioned Costs                                $2.1     $7.0          Indictments                             174         337
 Dollar Recoveries                              $15.7    $21.8          Criminal Complaints                      86         184
 Total Dollar Impact                         $1,927.3 $3,476.5          Convictions                             172         369
 Cost of OIG Operations1                       $48.15    $96.3          Pretrial Diversions and
                                                                                                                 21          47
 Return on Investment2                           40:1     36:1          Deferred Prosecutions
 1 Beginning in 2009, the 6-month and fiscal year operating costs for   Administrative Investigations
                                                                                                                  7          22
 the Office of Healthcare Inspections ($10 million and $20 million,     Opened
 respectively), whose oversight mission results in improving the
                                                                        Administrative Investigations
 health care provided to Veterans rather than saving dollars, is not                                             14          32
 included in the return on investment calculation.                      Closed
 2 Calculated by dividing Total Dollar Impact by Cost of OIG            Advisory Memos Issued                     6          12
 Operations.
                                                                        Administrative Memos Issued               6          19
                                             6-Month        Fiscal      Administrative Sanctions and
             Reports Issued                                                                                     336         628
                                               Total         Year       Corrective Actions
                                                                        Cases Opened6                           549        1,088
 Audits and Evaluations                             12            29
                                                                        Cases Closed7                           556        1,127
 Benefits Inspections                               10            21
 Joint Reviews                                       2             2        Healthcare Inspections           6-Month       Fiscal
                                                                                  Activities                   Total        Year
 Peer Reviews of Other OIGs                          1             1
                                                                        Clinical Consultations                    1           3
 National Healthcare Reviews                         7            10
                                                                        Administrative Case Closures             11          18
 Hotline Healthcare Inspections                     35            56
 Combined Assessment Program                                                                                 6-Month       Fiscal
                                                     26           50           Hotline Activities
 Reviews                                                                                                       Total        Year
 Community Based Outpatient                                             Contacts                               13,406     27,509
                                                    143          243    Cases Opened                            693       1,219
 Clinic Reviews
 Administrative Investigations                      44           84     Cases Closed                            554       1,104
 Preaward Contract Reviews                          31           66     Administrative Sanctions and
                                                                                                                353         580
 Postaward Contract Reviews                         14           27     Corrective Actions
 Claim Reviews                                       3            5     Substantiation Percentage
                                                                                                                 44          40
                                                                        Rate
 Total Reports Issued                              159          299
                                                                        5 Figure does not include Fugitive Felon arrests by OIG or
 3 Encompassing 55 and 104 facilities for the 6-month and fiscal year
                                                                        other agencies.
 periods, respectively.
                                                                        6 & 7 Figures include administrative investigations opened/
 4 Does not include one joint administrative investigation already
                                                                        closed.
 counted under Joint Reviews.


Semiannual Report to Congress                                                                                                  |    3
Issue 68 | April 1 – September 30, 2012
                                  Ta b l e o f
                                                   Contents
        Message from the Inspector General                                                          1
        Statistical Highlights                                                                      3
        Table of Contents                                                                           4
        Reporting Requirements                                                                      6
        VA and OIG Mission, Organization, and Resources                                             8
           Department of Veterans Affairs
                                                          8
           VA Office of Inspector General
                                                          8
           OIG Field Offices Map
                                                                   9
           OIG Organizational Chart
                                                               10
        Office of Healthcare Inspections                                                           11
           Combined Assessment Program Reviews
                                                    11
           Community Based Outpatient Clinic Reviews
                                              13
           National Healthcare Reviews
                                                            14
           Hotline Healthcare Inspections
                                                         15
        Office of Audits and Evaluations                                                           26
           Veterans Health Administration Audits and Evaluations                                   26
           Veterans Benefits Administration Audits and Evaluations                                 27
           Veterans Benefits Administration Benefits Inspections                                   27
           National Cemetery Administration Audit                                                  28
           Other Audits and Evaluations                                                            29
           Federal Information Security Management Act Compliance                                  31
           Federal Financial Management Improvement Act of 1996 Compliance                         31
        Joint Reviews and Settlements                                                              32
        Office of Investigations                                                                   33
           Veterans Health Administration Investigations
                                          33
           Veterans Benefits Administration Investigations
                                        38
           Other Investigations
                                                                   44
           Administrative Investigations
                                                          47
           Assaults and Threats Made Against VA Employees
                                         48
           Fugitive Felons Arrested with OIG Assistance
                                           50
        Office of Management and Administration                                                    51
           Operations Division
                                                                    51
           Information Technology and Data Analysis Division
                                      51
           Administrative and Financial Operations Division
                                       51
           Budget Division
                                                                        51
           Hotline Division
                                                                       51
        Office of Contract Review                                                                  54
           Preaward Reviews
                                                                       54
           Postaward Reviews
                                                                      54
           Claim Reviews
                                                                          55
        Other Significant OIG Activities                                                           56
           Congressional Testimony                                                                 56

                                                                                       (continued on next page)

4   |                                                                        VA Office of Inspector General
                                                                             Issue 68 | April 1 – September 30, 2012
                                                                                  Ta b l e o f
                                                                                         Contents

                    American Recovery and Reinvestment Act Oversight Activities        58

                    Peer and Qualitative Assessment Reviews                            59

                    Government Contractor Audit Findings                               59

                    IG Act Reporting Requirements Not Elsewhere Reported               59

                    Employee Recognition                                               60

                Appendix A: List of Reports Issued                                     62
                Appendix B: Unimplemented Reports and Recommendations                  71




Semiannual Report to Congress                                                                    |   5
Issue 68 | April 1 –
 September 30, 2012
                                  Reporting
                                                  Requirements
The table below identifies the sections of this report that address each of the reporting requirements prescribed
by the Inspector General Act of 1978, as amended.

              Inspector General Act of 1978, as amended,
                                                                                      Section(s)
                       Reporting Requirements
 § 4 (a) (2) to review existing and proposed legislation and       •   Other Significant OIG Activities
 regulations and to make recommendations concerning the
 impact of such legislation or regulations on the economy,
 efficiency, or the prevention and detection of fraud and
 abuse in the administration of programs and operations
 administered or financed by VA
 § 5 (a) (1) a description of significant problems, abuses, and    •   Office of Healthcare Inspections
 deficiencies relating to the administration of VA programs and    •   Office of Audits and Evaluations
 operations disclosed during the reporting period                  •   Joint Reviews and Settlements
                                                                   •   Office of Investigations
                                                                   •   Office Of Management and Administration
                                                                   •   Office of Contract Review
                                                                   •   Other Significant OIG Activities
 § 5 (a) (2) a description of the recommendations for corrective •   Office of Healthcare Inspections
 action made during the reporting period                           •   Office of Audits and Evaluations
                                                                   •   Joint Reviews and Settlements
                                                                   •   Office of Investigations
                                                                   •   Office of Contract Review
 § 5 (a) (3) an identification of each significant recommendation •   Appendix B
 described in previous semiannual reports on which corrective
 action has not been completed
 § 5 (a) (4) a summary of matters referred to prosecutive          •   Office of Investigations
 authorities and the prosecutions and convictions which have
 resulted
 § 5 (a) (5) a summary of instances where information or           •   Other Significant OIG Activities
 assistance requested is refused or not provided
 § 5 (a) (6) a listing, subdivided according to subject matter, of •   Appendix A
 each audit report issued during the reporting period, including
 the total dollar value of questioned costs and the dollar value
 of recommendations that funds be put to better use
 § 5 (a) (7) a summary of each particularly significant report     •   Office of Healthcare Inspections
                                                                   •   Office of Audits and Evaluations
                                                                   •   Joint Reviews and Settlements
                                                                   •   Office of Investigations
                                                                   •   Office of Contract Review


                                                                                           (continued on next page)

6   |                                                                            VA Office of Inspector General
                                                                                 Issue 68 | April 1 – September 30, 2012
                                                                                            Reporting
                                                                                                   Requirements




              Inspector General Act of 1978, as amended,
                                                                                     Section(s)
                         Reporting Requirements
 § 5 (a) (8) and (9) Statistical tables showing the total number   •   Appendix A
 of reports and the total dollar value of both questioned costs
 and recommendations that funds be put to better use by
 management
 § 5 (a) (10) a summary of each audit report issued before         •   Appendix A
 the commencement of the reporting period for which no
 management decision has been made by the end of the
 reporting period
 § 5 (a) (11) a description and explanation of the reasons for     •   Appendix A
 any significant revised management decision made during the
 reporting period
 § 5 (a) (12) information concerning any significant               •   Appendix A
 management decision with which the Inspector General is in
 disagreement
 § 5 (a) (13) the information described under section 05(b) of     •   Office of Audits and Evaluations
 the Federal Financial Management Improvement Act of 1996
 § 5 (a) (14) an appendix containing the results of any peer       •   Other Significant OIG Activities
 review conducted by another OIG during the reporting period
 or a statement identifying the date of the last peer review
 conducted by another OIG
 § 5 (a) (15) a list of any outstanding recommendations from       •   Other Significant OIG Activities
 any peer review conducted by another OIG that have not been
 fully implemented
 § 5 (a) (16) a list of any peer reviews conducted by the VA OIG   •   Other Significant OIG Activities
 of another OIG during the reporting period and a list of any
 recommendations made from any previous peer review that
 remain outstanding or have not been fully implemented




Semiannual Report to Congress                                                                              |   7
Issue 68 | April 1 – September 30, 2012
                   VA a n d O I G M i s s i o n ,
                           Organization, and Resources
Department of Veterans Affairs
The Department’s mission is to serve America’s Veterans and their families with dignity and compassion and to
be their principal advocate in ensuring that they receive the care, support, and recognition earned in service to
the Nation. The VA motto comes from Abraham Lincoln’s second inaugural address, given March 4, 1865, “to
care for him who shall have borne the battle and for his widow and his orphan.”

While most Americans recognize VA as a Government agency, few realize that it is the second largest Federal
employer. For fiscal year (FY) 2012, VA is operating under a $124.2 billion budget, with over 318,000 employees
serving an estimated 22.2 million living Veterans. To serve the Nation’s Veterans, VA maintains facilities in
every state, the District of Columbia, the Commonwealth of Puerto Rico, Guam, the Republic of the Philippines,
and the U.S. Virgin Islands.

VA has three administrations that serve Veterans: the Veterans Health Administration (VHA) provides health
care, the Veterans Benefits Administration (VBA) provides monetary  and readjustment benefits, and the
National Cemetery Administration (NCA) provides interment and memorial benefits. For more information,
please visit the VA Internet home page at www.va.gov.


VA Office of Inspector General
The Office of Inspector General (OIG) was administratively established on January 1, 1978, to consolidate audits
and investigations into a cohesive, independent organization. In October 1978, the Inspector General Act, Public
Law (P.L.) 95-452, was enacted, establishing a statutory Inspector General (IG) in VA. It states that the IG is
responsible for: (1) conducting and supervising audits and investigations; (2) recommending policies designed
to promote economy and efficiency in the administration of, and to prevent and detect criminal activity, waste,
abuse, and mismanagement in VA programs and operations; and (3) keeping the Secretary and Congress fully
informed about problems and deficiencies in VA programs and operations and the need for corrective action.
The IG has authority to inquire into all VA programs and activities as well as the related activities of persons or
parties performing under grants, contracts, or other agreements. Inherent in every OIG effort are the principles
of quality management and a desire to improve the way VA operates by helping it become more customer-driven
and results-oriented.

OIG, with 614 employees from appropriations, is organized into three line elements: the Offices of
Investigations, Audits and Evaluations, and Healthcare Inspections, plus a contract review office and a support
element. FY 2012 funding for OIG operations provided $112.4 million from ongoing appropriations. The
Office of Contract Review, with 25 employees, received $3.9 million through a reimbursable agreement with VA
for contract review services including preaward and postaward contract reviews and other pricing reviews of
Federal Supply Schedule, construction, and health care provider contracts. In addition to the Washington, DC,
headquarters, OIG has field offices located throughout the country.

OIG keeps the Secretary and Congress fully and currently informed about issues affecting VA programs and the
opportunities for improvement. In doing so, OIG staff strive to be leaders and innovators, and to perform their
duties fairly, honestly, and with the highest professional integrity. For more information, please visit the OIG
Internet home page at www.va.gov/oig.



8   |                                                                            VA Office of Inspector General
                                                                                 Issue 68 | April 1 –
 September 30, 2012
                                          VA a n d O I G M i s s i o n ,
                                                   Organization, and Resources
OIG Field Offices Map




Semiannual Report to Congress                                              |   9
Issue 68 | April 1 – September 30, 2012
                10
                |
                                                                                                                                                                                                                                                                                                                  Office of Contract Review
                                                                                                                                                                                                          Inspector General
                                                                                     Congressional                                     Special Assistant to the                                           ______________                                           Counselor to the
                                                                                       Relations                                         Inspector General                                                                                                        Inspector General
                                                                                                                                                                                                       Deputy Inspector General
                                                                                                                                                                                                                                                                                                                 Information Release Office




                                                                                           Assistant Inspector General                                            Assistant Inspector General
                                                                                                  Investigations                                                    Audits and Evaluations                                             Assistant Inspector General                                   Assistant Inspector General
                                                                                                                                                                                                                                     Management and Administration                                     Healthcare Inspections
                                                                                                                                                                                                                                    ____________________________                                ________________________________
                                                                               Deputy Assistant                 Deputy Assistant                        Deputy Assistant                 Deputy Assistant
                                                                              Inspector General                Inspector General                       Inspector General                Inspector General                           Deputy Assistant Inspector General                            Deputy Assistant Inspector General
                                                                                Investigations                   Investigations                      Audits and Evaluations           Audits and Evaluations
                                                                               (HQ Operations)                 (Field Operations)                       (HQ Operations)                 (Field Operations)
                                                                                                                                                                                                                                                                                                                                                                                                        VA a n d O I G M i s s i o n ,




                                                                                                 Criminal                      Northeast Field Office                          Operations Divisions
                                                                                                                                    Newark, NJ                                                               Operations Divisions
                                                                    Analysis and              Investigations                                                                       Dallas, TX
                                                                                                                                                                                                                                                                                                                                                       OIG Organizational Chart




                                                                                                                                                                                                                Atlanta, GA                                                                                                 Program Administration
                                                                    Oversight                                                (Bedford, MA; Buffalo, NY;                                                                                             Operations                        Consultation and Medical
                                                                                                                                                                                Washington, DC                 Bay Pines, FL                                                                                                        and
                                                                                                                         Manchester, NH; New York City, NY)                                                                                                                                   Review
                                                                                                                                                                                                                Bedford, MA                                                                                                    Special Projects
                                                                                                                                                                                                                Chicago, IL
                                                                                                                                                                                                                                                                                                                                                                                  Organization, and Resources




                                                                                                                                                                                                              Kansas City, MO
                                                                                                                               Mid-Atlantic Field Office                                                      Los Angeles, CA
                                                                                                 Benefits                                                                       Benefits Inspection
                                                                                                                                  Washington, DC                                                                Seattle, WA
                                                                                                  Fraud                                                                        (Bay Pines, FL; San                                            Information Technology
                                                                                                                                   (Columbia, SC;                                  Diego, CA)                                                    and Data Analysis                          Healthcare
                                                                                                                                  Fayetteville, NC;                                                                                                                                                                                 Biostatistics
                                                                                                                                                                                                                                                                                         Financial Analysis
                                                                    Administrative                                                 Pittsburgh, PA)
                                                                    Investigations

                                                                                            Computer Crimes                     Southeast Field Office                        Information Technology
                                                                                             and Forensics                          Bay Pines, FL                               and Security Audits                                             Administrative and
                                                                                                                                                                                    (Austin, TX;                                               Financial Operations                                                              Community Based
                                                                                                                             (Atlanta, GA; Nashville, TN;                                                                                                                              Combined Assessment
                                                                                                                                                                                  Washington, DC)                                                                                                                                Outpatient Clinics/
                                                                                                                                   Tallahassee, FL;                                                                                                                                          Program
                                                                                                                                                                                                                                                                                                                                   Vet Centers
                                                                                                                               West Palm Beach, FL)

                                                                                               Health Care                       Central Field Office                                Financial
                                                                                                 Fraud                               Chicago, IL
                                                                  Investigative Data                                                                                                  Audits                                                          Hotline
                                                                                                                            (Cleveland, OH; Denver, CO;
                                                                    Systems and                                                                                                                                                                                                                               Regional Offices
                                                                                                                                 Kansas City, MO)
                                                                      Analysis                                                                                                                                                                                                                                  Atlanta, GA
                                                                                                                                                                                                                                                                                                               Baltimore, MD
                                                                                                                              South Central Field Office                         Special Projects                                                                                                              Bay Pines, FL
                                                                                              Fugitive Felon                         Dallas, TX                                                                                                                                                                 Bedford, MA
                                                                                                Program                      (Houston, TX; Jackson, MS;                                                                                                                                                         Chicago, IL
                                                                                                                                  Little Rock, AR)                                                                                                    Budget                                                     Dallas, TX
                                                                                                                                                                                   Management                                                                                                                   Denver, CO
                                                                                                                                                                                    Operations                                                                                                                Kansas City, MO
                                                                                                                                Northwest Field Office                                                                                                                                                        Los Angeles, CA
                                                                        Legal                   Forensic                         San Francisco, CA                                                                                                                                                             San Diego, CA
                                                                       Counsel                 Document
                                                                                               Laboratory                           (Seattle, WA;                                                                                                                                                               Seattle, WA
                                                                                                                                                                                       Audit
                                                                                                                                   Spokane, WA)                                                                                                                                                               Washington, DC
                                                                                                                                                                                     Planning


                                                                                                                                    Western Field Office
                                                                                                                                     Los Angeles, CA                                 Quality
                                                                                                                                     (Las Vegas, NV;                                Assurance
                                                                                                                                       Phoenix, AZ;
                                                                                                                                      San Diego, CA)

                                                                                                                                                                              Statistical Operations




                                                                                                                                                                                                                                                                                                         INSPECTOR GENERAL
                                                                                                                                                                                                                                                                                                       Department of Veterans Affairs


                                                                10/17/2012




                               VA Office of Inspector General
Issue 68 | April 1 – September 30, 2012
                               Office of
                                           Healthcare Inspections
The health care that VHA provides Veterans is ranked consistently among the best in the Nation, whether
those Veterans are recently returned from Operations Enduring Freedom, Iraqi Freedom, or New Dawn
(OEF/OIF/OND), or are Veterans of other periods of service with different patterns of health care needs. OIG
oversight helps VHA maintain a fully functional program that ensures high-quality patient care and safety,
and safeguards against the occurrence of adverse events. The OIG Office of Healthcare Inspections focuses on
quality of care issues in VHA and assesses medical outcomes. During this reporting period, OIG published
7 national healthcare reviews; 35 Hotline healthcare inspections; 26 Combined Assessment Program (CAP)
reviews; and 14 Community Based Outpatient Clinic (CBOC) reviews, covering 55 facilities, to evaluate the
quality of care. All reports issued this reporting period are listed in Appendix A.


Combined Assessment Program Reviews                                               CAP Topics Reviewed

CAP reviews are part of OIG’s efforts to ensure that quality                      This Reporting Period 

health care services are provided to Veterans. CAP reviews
provide cyclical oversight of VHA health care facilities. Their         •   Colorectal Cancer Screening
purpose is to review selected clinical and administrative               •   Environment of Care
operations and to conduct crime awareness briefings. OIG also           •   Heart Failure
administers an employee survey prior to each CAP visit, which           •   Mental Health Treatment Continuity
provides employees the opportunity to confidentially share              •   Moderate Sedation
safety and quality concerns. During this reporting period,              •   Nurse Staffing
OIG issued 26 CAP reports. Topics reviewed in a facility CAP            •   Opiod Dependence Treatment
may vary based on the facility’s mission and generally run for          •   Point-of-Care Testing (Blood Glucose)
6–12 months. When findings warrant more global attention,               •   Poly Trauma
summary or “roll up” reports are prepared at the conclusion of a        •   Quality Management
topic’s use. During this reporting period, OIG issued four CAP
summary reports.

Improvements Needed in Competency Assessments of VA Registered Nurses
OIG completed an evaluation of registered nurse (RN) competency processes in VHA facilities. The purposes
of the evaluation were to determine whether facilities: (1) established policy/process requirements for initial and
ongoing RN competency assessment and validation, (2) addressed key components in competency assessment
and validation documentation, (3) completed RN competency assessment and validation in accordance with
local policy, and (4) identified actions to be taken when an individual cannot demonstrate competency. OIG
conducted this review at 29 facilities during CAP reviews performed from April 1 – September 30, 2011, and
identified three areas where RN competency processes needed improvement. OIG recommended that specific
RN competency assessment and validation requirements be established to ensure consistency among facilities,
that competency validation documentation include all elements required by Joint Commission standards and
local policy, that all competency documentation be present in competency folders and be current and validated,
and that appropriate actions be taken when competency expectations are not met.




Semiannual Report to Congress                                                                                 |   11
Issue 68 | April 1 –
 September 30, 2012
Office of
          Healthcare Inspections
IG Makes Five Recommendations To Improve Management of Enteral Nutrition Safety Across VA
Medical System
OIG completed an evaluation of the management of enteral nutrition (EN) safety in VHA facilities. The
purposes of the evaluation were to determine whether facilities complied with Joint Commission standards and
VHA requirements to: (1) establish and implement EN policies and practices, (2) manage and document EN
care in the electronic health record (EHR), and (3) provide continuity of care for patients receiving EN. OIG
also determined whether facilities incorporated selected safe EN practices as recommended by the American
Society for Parenteral and Enteral Nutrition. OIG conducted this review at 27 facilities during CAP reviews
performed from April 1 – September 30, 2011, and identified five areas with opportunities for improvement.
OIG recommended that current VHA requirements be evaluated and revised to include applicable industry
recommendations regarding EN safety practices and documentation. OIG also recommended that: (1) facility
policies and practices address all VHA-required EN elements, (2) EHR documentation consistently include all
VHA-required EN elements, (3) clinicians provide EN education for patients discharged on EN and/or their
caregivers, and (4) facilities strengthen continuity of care processes for follow-up and monitoring of patients
discharged on EN.

IG Issues Annual Summary on VHA’s Quality Management Programs, Recommends Six Areas for
Improvement
OIG completed an evaluation of the management of VHA medical facilities’ quality management (QM)
programs. The purposes of the evaluation were to determine whether VHA facilities had comprehensive,
effective QM programs designed to monitor patient care activities and coordinate improvement efforts and
whether VHA facility senior managers actively supported QM efforts and appropriately responded to QM
results. OIG conducted this review at 54 facilities during CAP reviews performed from October 1, 2010 –
September 30, 2011, and identified six areas with opportunities for improvement. OIG recommended that VHA
reinforce requirements for: (1) facility senior managers to actively participate in the review of well-integrated
QM/performance improvement results, (2) Peer Review Committees to submit quarterly reports to their
Medical Executive Committees, (3) completed corrective actions related to peer review to be reported to the Peer
Review Committee, (4) EHR committees to provide oversight and analyze EHR quality and unauthenticated
documentation at least quarterly and to include all services in EHR quality reviews, (5) routine monitoring of
EHR entries for inappropriate copy and paste use and quarterly reporting to the EHR committee, and (6) all
facilities with acute inpatient beds to have documented plans addressing patients who must be held in temporary
beds and overflow locations.

OIG Makes Six Recommendations To Improve Management of Workplace Violence at VHA
Facilities
OIG completed an evaluation of the management of workplace violence (WPV) in VHA facilities. The
purpose of the evaluation was to determine the extent to which VHA facilities managed violent incidents. OIG
conducted this review at 29 facilities during CAP reviews performed from April 1 – September 30, 2011, and
identified six areas where VHA needed to strengthen requirements and facilities needed to improve compliance.
OIG recommended that VHA’s comprehensive national guidance for managing WPV be formalized in a
directive or a handbook and that policy development include formalizing comprehensive national guidance
for managing WPV that establishes procedures for managing disruptive or violent behavior by employees and
others. OIG also recommended that facility managers monitor compliance with VHA policy related to WPV
programs and management of disruptive behavior; that facilities periodically assess all work areas for risk of
violence; and that facilities provide specialized WPV prevention training to all supervisors and employees who
work in high-risk areas, assess competence annually, and provide refresher training as necessary.

12   |                                                                         VA Office of Inspector General
                                                                               Issue 68 | April 1 –
 September 30, 2012
                                                                              Office of
                                                                                         Healthcare Inspections
Community Based Outpatient Clinic Reviews
As requested in House Report 110-775, to accompany House Resolution 6599, Military Construction, Veterans
Affairs, and Related Agencies Appropriation Bill, FY 2009, OIG initiated a systematic review of VHA CBOCs.
The purpose of the cyclical reviews is to assess whether CBOCs are operated in a manner that provides Veterans
with consistent, safe, high-quality health care in accordance with VA policies and procedures. The CBOC
inspection process consists of four components: CBOC site-specific information gathering and review, medical
record reviews for determining compliance with VHA performance measures, onsite inspections, and CBOC
contract review.

During this reporting period, OIG performed 55 CBOC reviews throughout 16 Veterans Integrated Service
Networks (VISNs). These reviews were captured in 14 reports, which are listed in Appendix A. The topics
reviewed this reporting period included Coordination of Care (Heart Failure), Credentialing and Privileging,
                                                      Environmental Safety and Emergency Planning,
     CBOC Facilities Reviewed This Reporting Period
                                                      Mammography Services for Women Veterans,
 VISN 3   Pine Plains, NY       Port Jervis, NY       Management of Diabetes Mellitus-Lower Limb
 VISN 4   Allentown, PA         Tobyhanna, PA         Peripheral Vascular Disease, Management of Mental
 VISN 6   Wilmington, NC        Virginia Beach, VA    Health (MH) Emergencies, Management of Traveling
 VISN 7   Columbus, GA          Goose Creek, SC       Veterans, Primary Care and MH services at contracted
          Savannah, GA                                CBOCs, and Short-Term Fee Basis for Selected Radiology
 VISN 8   Fort Pierce, FL       Key West, FL          consults.
            Homestead, FL          Sebring, FL
                                                          IG Releases Annual Report on VA CBOCs, Makes
 VISN 9     Hopkinsville, KY       Dyersburg, TN
            Smithville, MS         McMinnville, TN        13 Recommendations To Improve Operations
 VISN 10    Bellevue, KY           Hamilton, OH
                                                          The purpose was to evaluate selected activities, assessing
                                                          whether CBOCs are operated in a manner that provides
 VISN 11    Mattoon, IL            Yale, MI
                                                          Veterans with consistent, safe, high-quality health
            Springfield, IL        Toledo, OH
            Flint, MI                                     care. CBOCs overall appear to be providing a quality
                                                          of care that is not substantially different from parent
 VISN 12    Appleton, WI           Wausau, WI
            La Crosse, WI          Wisconsin Rapids, WI   VA Medical Centers (VAMCs). The CBOCs generally
            Union Grove, WI                               met VHA directives and guidelines. OIG made
 VISN 15    Emporia, KS            Lawrence, KS
                                                          recommendations affecting Women’s Health Liaisons,
            Fort Dodge, KS         O’Fallon, MO           Computerized Patient Record System, Short-Term Fee
            Hutchinson, KS         St. Joseph, MO         Basis local policy, urban CBOCs’ outsourcing services,
 VISN 16    Fort Smith, AR         Lafayette, LA          MH emergency plans, competency assessments, auditory
                                                          privacy, security of patients’ personal information,
 VISN 17    Denton, TX             Tyler, TX
                                                          security vulnerabilities in the allocated Information
 VISN 18    Payson, AZ             Show Low, AZ
                                                          Technology (IT) network space, validation of invoices,
 VISN 20    Klamath Falls, OR      Bellevue, WA           contract provisions and acquisition planning, and
            La Grande, OR          Mount Vernon, WA
                                                          contractors’ awareness of VA standards for coordination
            North Bend, OR
                                                          of care for MH services. To improve operations, OIG
 VISN 22    Laguna Hills, CA       Long Beach, CA
                                                          made 13 recommendations to the Under Secretary for
 VISN 23    Montevideo, MN         Rapid City, SD         Health (USH).
            St. James, MN          Chippewa Valley, WI
            Mission, SD            Hayward, WI
            Pierre, SD



Semiannual Report to Congress                                                                                 |   13
Issue 68 | April 1 – September 30, 2012
Office of
          Healthcare Inspections
National Healthcare Reviews
In addition to the reviews discussed below, the Office of Healthcare Inspections also issued a joint review, in
conjunction with the Office of Audits and Evaluations, concerning Veterans’ access to MH care. The summary
for this report can be found under the Joint Reviews and Settlements section.

IG Publishes First-Ever Longitudinal Study on Incidence and Risk Factors of Becoming Homeless
After Military Service
Using integrated data from VA and the Department of Defense (DoD), OIG conducted this first ever population-
based longitudinal study to determine the incidence of becoming homeless (the newly homeless) after military
separation, identify risk factors for Veterans becoming homeless, and describe utilization of VA specific
homeless services by homeless Veterans. The study population consists of 310,685 Veterans who separated from
the military from July 1, 2005, to September 30, 2006, and who had not experienced any homeless episodes
before separation from DoD. OIG found that 3.7 percent of these Veterans had experienced their first episode
of homelessness at 5 years after separation. Veterans of OEF/OIF and women Veterans experienced higher
incidences of homelessness. Veterans who experienced homelessness were younger, enlisted with lower pay
grades, and were more likely to be diagnosed with mental disorders and/or traumatic brain injury (TBI) at
the time of separation from active duty. OIG found that the presence of mental disorders (substance-related
disorders and/or mental illness) is the strongest predictor of becoming homeless. Military sexual trauma is
also a risk factor for becoming homeless, especially in women Veterans. OIG noted that the percent of mental
disorder diagnoses among newly homeless OEF/OIF Veterans was higher than those of their non-OEF/OIF
counterparts prior to becoming homeless, although the percent of OEF/OIF Veterans diagnosed with mental
disorders before discharge from DoD was generally lower than their non-OEF/OIF counterparts. The USH
concurred with our findings and recommendation and provided acceptable action plans.

Review Supports Denial of Liver Transplant, But Policy Should Be Reconsidered
At the request of Congressman John Kline, OIG reviewed why a Veteran patient was “unable to receive a [liver]
transplant through the VA system.” The patient in question had chronic hepatitis C that had progressed to the
point that without a liver transplant it would almost certainly be fatal. OIG found that the patient was indeed
“unsuccessful in obtaining approval for a VA transplant.” Two VA Transplant Centers (VATCs) did not accept
the patient as a candidate for further evaluation, and on appeal, a third VATC also did not accept him as a
candidate for further evaluation. Ultimately, the patient had a liver transplant at a non-VA facility. OIG found
that each of the three reviewing VATCs made a decision based upon the clinical data presented and in a manner
consistent with VHA policy. Nevertheless, OIG was concerned that while the VATC listed the presence of a
cardiac stent (which this patient had) as an absolute contraindication to liver transplantation for the appeal,
other VATCs do consider patients with cardiac stents. OIG concluded that when a patient has a condition
regarded as an absolute contraindication at some but not all VATCs, the patient’s case should be evaluated
by VATCs that do not view that condition as an absolute contraindication. OIG recommended that VHA
consider whether or not changes to their review process should be made to address facility specific absolute
contraindications to transplants. In response, VHA reconsidered its policy but decided to continue its referral
process as it is currently designed.




14   |                                                                         VA Office of Inspector General
                                                                               Issue 68 | April 1 –
 September 30, 2012
                                                                           Office of
                                                                                      Healthcare Inspections
Hotline Healthcare Inspections
OIG Urges Greater Oversight, More Training To Correct Continuing Issues Cleaning Medical
Equipment at St. Louis, Missouri, VAMC
OIG conducted a review to follow-up on our March 2011 report, Reprocessing of Dental Instruments, John
Cochran Division of the St. Louis VA Medical Center, St. Louis, Missouri (Report No. 10-03346-112, March 7,
2011). The purpose was to determine whether the adverse conditions identified have been resolved and whether
OIG’s recommendations were implemented. In the past 18 months, facility managers have taken corrective
actions and some conditions identified in the 2011 OIG report have been resolved. However, recommendations
1 and 2 from our 2011 report will remain open until all action plans outlined by the facility are effectively
implemented. These recommendations include: (1) monitoring for compliance of all appropriate elements of
reusable medical equipment (RME) reprocessing, standard operating procedures (SOPs), staff training, and staff
competencies; and (2) monitoring by the VISN Supply, Processing, and Distribution (SPD) Management Board
to ensure that SOPs are in place and staff training and competencies are current. Recommendation 3 related to
administrative actions was addressed and resolved. OIG made a new recommendation that the VISN Director
require comprehensive baseline environment of care inspections of all SPD areas, and that identified deficiencies
are promptly corrected and monitored for ongoing compliance. The VISN and Facility Directors concurred with
our recommendations. OIG will follow up on planned corrective actions until they are completed.

IG Notes Vast Improvements in Dental Instrument Cleaning at St. Louis VAMC
OIG conducted a review to follow-up on our report, Follow-Up Evaluation of Dental Instrument Reprocessing
Deficiencies, St. Louis VAMC, St. Louis, Missouri (Report No. 10-03346-152, April 5, 2012). The purpose was to
determine whether the adverse conditions identified have been resolved and whether OIG’s recommendations
were implemented. In the past several months, VISN and facility managers have taken multiple corrective
actions and many of the conditions identified in the April 2012 OIG report have been resolved. Supply
Processing Service (SPS) leadership positions have been filled, SPS has moved into its fully-renovated state­
of-the-art space, and communication and oversight processes are improving. The facility has made vast
improvements in its RME related policies and practices over the past 6 months and the central issue of patient
safety during dental procedures has been addressed. While OIG identified some additional improvement
opportunities, facility and VISN managers have verbalized their commitment to ongoing compliance with VHA
requirements. Therefore, OIG considers the recommendations from the April 2012 report closed.

Closer Oversight Needed in HUD-VA Supported Housing Program for Homeless Veterans in Bay
Pines, Florida
OIG reviewed allegations that a Veteran living in Housing and Urban Development (HUD)–VA Supported
Housing (VASH) committed suicide; that he was considered high risk for suicide; that he did not have contact
with a VA case manager (CM) for months prior to his death; that the CM supervisor only visited the Port
Charlotte clinic once since being assigned to the position; and that the supervisor told a CM to “audit himself
and get his charts straight” after learning of the suicide. OIG substantiated that the Veteran committed suicide,
but not that he had been identified as high risk for suicide, or that the Veteran did not see or speak to a CM
during 9 of 18 months in the program. OIG substantiated that a supervisor visited the Port Charlotte clinic only
once, but not that this was inappropriate. OIG could neither substantiate nor refute that a CM was told by the
supervisor to “audit himself and get his charts straight” after learning of the suicide. OIG found that network
and system level oversight of the HUD–VASH program needed improvement and that 23 of 25 other Veterans
in the program did not receive required case management services. We recommended that the System Director


Semiannual Report to Congress                                                                               |   15
Issue 68 | April 1 –
 September 30, 2012
Office of
           Healthcare Inspections
ensure HUD–VASH program case management services are provided as required and that Network and System
Directors implement measures to strengthen management controls and oversight.

Los Angeles, California, Healthcare System Cited for Transparency, Compliance with VA Policy in
Response to Medication Errors
OIG conducted an oversight inspection to review actions taken to address and respond to adverse drug
events (ADEs) that led to blindness in the treated eye of five patients at the VA Greater Los Angeles, CA,
Healthcare System (HCS). OIG determined that VISN and facility leadership complied with VHA policy in
taking immediate actions in response to these ADEs. They appropriately notified the patients and contacted
the Food and Drug Administration (FDA) and VHA leaders while ascertaining the cause of the ADEs.
The facility’s action of disclosing to the patients that a medication error occurred is consistent with VA’s
commitment to transparency. In addition, the facility convened an administrative board of inquiry (ABI) to
address other administrative and patient safety issues. OIG recommended that the Facility Director ensure
that the recommendations from the local and external reviews are implemented and monitored, that the ABI
is completed in a timely manner, and that corrective actions in response to the ABI are taken if indicated.
Management agreed with the findings and recommendation and provided an acceptable action plan.

Improvements Needed in Quality of Care, Medical Record Completeness, and Peer Reviews at
Sheridan, Wyoming, VAMC
OIG conducted an evaluation to determine the validity of allegations regarding poor quality of care and
administrative issues at the Sheridan, WY, VAMC. OIG did not substantiate that the patient’s care for his
lung condition resulted in a terminal illness and permanent confinement in a hospice unit or that the level of
care caused the patient’s clinical deterioration, subsequent non-VA hospitalization, and need for prolonged
inpatient care and rehabilitation. OIG substantiated that medical record documentation did not consistently
include current clinical assessment of the respiratory problem, lung examinations, or follow-up information
regarding the patient’s response to antibiotic therapy. OIG substantiated that the treatment for the patient’s
elbow bursa infection was inadequate and the physician’s documentation did not meet VHA standards. OIG did
not substantiate that facility managers responded unprofessionally to the patient’s or brother’s concerns. OIG
found that the cessation of prednisone did not meet the accepted practice in the management of long term, daily
corticosteroid therapy and the facility did not conduct Peer Review for the lung and elbow issues. OIG made
three recommendations. The VISN and Facility Directors concurred with our recommendations and provided
acceptable action plans.

OIG Identifies Deficiencies in Hearing Aid Repair Processes at Atlanta, Georgia, VAMC
OIG conducted a review to determine the validity of allegations from a complainant regarding efficiency and
timeliness of the hearing aid repair process at the Atlanta, GA, VAMC. The complainant alleged that:
(1) Audiology Clinic staff mismanaged the process used to track and monitor hearing aid repairs, resulting in
delayed repairs and the possible loss of hearing aids; (2) Audiology Clinic staff did not keep an accurate log
reflecting the status of the complainant’s hearing aid repairs resulting in delays; (3) Audiology Clinic staff and
VAMC leaders were difficult to contact; and (4) VAMC leaders did not adequately respond to written complaints.
OIG recommended that the VAMC Director ensure that staff: (1) monitor the status of outstanding repairs and
assess the timeliness of vendor completed repairs, and (2) document reasons for lost and damaged hearing aids
and develop risk mitigation strategies. The VISN and VAMC Directors concurred with our recommendations
and provided an acceptable action plan.




16   |                                                                          VA Office of Inspector General
                                                                                Issue 68 | April 1 –
 September 30, 2012
                                                                             Office of
                                                                                        Healthcare Inspections
Improvements Needed to Ensure Timely Access to MH Residential Programs at VA Eastern
Colorado HCS
OIG assessed the merit of allegations concerning the quality of MH care at the VA Eastern Colorado HCS,
Denver, CO. OIG did not substantiate the allegation that the patient was not provided or offered other treatment
options in conjunction with medications. HCS providers, as well as providers at the other VHA facilities where
the patient received services, offered the patient a variety of therapies in both outpatient and inpatient settings.
OIG did not substantiate the allegation that VHA providers improperly managed the patient’s psychiatric
medications. The patient’s medications were appropriate in terms of his diagnoses of bipolar disorder and
post-traumatic stress disorder (PTSD), and the medications were managed appropriately. However, OIG found
that the patient’s admission to a MH residential rehabilitation treatment program was delayed for reasons
that were not supported by VHA policy. OIG made one recommendation to ensure timely access to MH
residential rehabilitation treatment programs. The VISN and Facility Directors agreed with the finding and
recommendation and provided an acceptable action plan.

Marion, Illinois, VAMC Faulted for Privileging, Peer Review, and Lack of Qualified Staff Available
24/7 for Airway Emergencies
OHI received four complaints between October 2011 and January 2012 regarding the clinical practice of two
physicians of the Marion, IL, VAMC. In February 2012, Senator Richard J. Durbin forwarded additional
allegations concerning one of the physicians. In the care of one patient, the risk of complications requiring
urgent intervention should have been discussed with the patient as part of the informed consent process prior
to a procedure, at which time the patient’s therapeutic preferences could have been clarified. OIG identified
no deficiencies in quality of care for two other patients. OIG also found that a physician who was hired after
not being in clinical practice for many years was granted clinical privileges with the understanding that his
competence would be confirmed by direct observation. However, competence was never documented for
invasive procedures that he subsequently performed. OIG recommended that the Facility Director ensure
that VHA and local policies are followed when initial clinical privileges are granted, peer review processes
comply with VHA policy, staff with demonstrated competence in airway management are available 24 hours a
day, 7 days a week, an Intensive Care Unit (ICU) Director is appointed, and the facility adheres to local policy
regarding the use of ICU beds. The Acting VISN Director and Facility Director agreed with our findings and
recommendations and provided acceptable action plans.

Unauthorized Practice of Medicine at a VAMC Unsubstantiated
OIG conducted an oversight inspection to determine the validity of allegations of the unauthorized practice of
medicine. A complainant alleged that a non-physician staff (subject staff) at a VAMC Emergency Department
(ED) engaged in the unauthorized practice of medicine by representing himself as a doctor, and that the ED
nurse manager was aware of this behavior but did not take action to correct it. The complainant also alleged that
the subject staff intubated a patient during an emergency resuscitation causing the patient’s death and that, in
another instance, the subject staff pronounced a patient dead. The facility conducted an internal investigation
and took corrective actions. The investigation found that the subject staff acted outside the scope of his duties by
responding to and participating in a “code blue” event. The facility did not find that the subject staff engaged in
the unauthorized practice of medicine. OIG reviewed all documents produced during the facility’s investigation,
pertinent medical records, and other administrative records, and interviewed facility staff. OIG concurred with
the findings of the facility and found the corrective actions to be appropriate. OIG made no recommendations.




Semiannual Report to Congress                                                                                 |    17
Issue 68 | April 1 –
 September 30, 2012
Office of
           Healthcare Inspections
Northport, New York, VAMC Needs To Strengthen Pain Management and Clinical Disclosure
Policies
OIG reviewed five allegations regarding a patient’s fall at the Northport VAMC. Due to insufficient
documentation, we were unable to confirm or refute the allegation that the staff member assigned to monitor
the patient was not present when the patient fell. OIG also did not substantiate the allegations that the facility
did not perform adequate tests after the patient’s fall and that a surgical stapling procedure was performed at the
patient’s bedside. OIG substantiated that the patient did not receive effective and timely pain management and
that the facility did not appropriately disclose clinical information and respond to the family’s complaints. OIG
recommended that the Medical Center Director strengthen processes to ensure that documentation for one-to­
one monitoring of patients is accurate, the facility reassess the incident reporting process for effectiveness, the
facility implement procedures to ensure that facility staff comply with VHA pain management policies and VHA
and local clinical disclosure policies, and that facility responses to patient and family complaints are timely and
facilitate resolution. The VISN and Medical Center Directors agreed with the findings and recommendations
and provided acceptable improvement plans.

Allegations of Telemetry Equipment Deficiencies Unsubstantiated, But Improvements Needed in
Patient Response Timeliness
OIG conducted an inspection to assess the merit of an allegation made by a complainant concerning quality
of care of a patient on a telemetry unit at the Manhattan Campus, New York Harbor HCS. OIG did not
substantiate that a telemetry equipment malfunction contributed to the patient’s death. OIG found that
the telemetry equipment was functioning properly and that biomedical engineering personnel conducted
preventive maintenance in accordance with the manufacturer’s specifications. OIG substantiated that staff on
the telemetry unit failed to respond to a patient’s disconnected telemetry lead in a timely manner; as a result,
the patient’s telemetry status was not effectively monitored at the time of his death. During the inspection, OIG
reviewed progress on corrective actions taken to address deficiencies related to a prior incident addressed by
OIG in an October 2011 report. Regarding both incidents, facility management had developed and initiated a
comprehensive corrective action plan to address all deficiencies identified by internal review and the previous
OIG inspection. OIG concluded that managers have made significant progress in all elements of the corrective
action plan. OIG made no recommendations.

Improvements Needed in Patient Assessment at the William Jennings Bryan Dorn Columbia, South
Carolina, VAMC
OIG evaluated allegations of inadequate patient care, poor communications with family, poor coordination of
care, and inappropriate infection control practices. While OIG confirmed that some of the alleged conditions
existed during a Veteran’s hospitalization, in many cases, facility leaders had already taken actions to improve
care and service delivery. OIG did not substantiate other allegations related to quality of care and environmental
deficiencies. OIG recommended that patients assessed to be at nutritional risk are promptly evaluated by
appropriate dietary staff, that nursing personnel are trained on the steps required to initiate consult requests
through the electronic nursing assessment package, and that actions are taken to evaluate and revise the Do Not
Attempt Resuscitation template note, as appropriate, to be more patient-specific and patient-centered. The VISN
and Facility Directors concurred with our findings and recommendations and provided acceptable improvement
plans.




18   |                                                                          VA Office of Inspector General
                                                                                Issue 68 | April 1 –
 September 30, 2012
                                                                           Office of
                                                                                      Healthcare Inspections
Deficiencies Regarding the Surgery Program Are Reviewed at the Grand Junction, Colorado, VAMC
OIG conducted an oversight review to assess actions taken by VISN 19 and Grand Junction VAMC leadership
regarding the VAMC’s surgical program. Between May and September 2011, VHA surgery and Quality
Management (QM) teams made onsite visits to the Grand Junction VAMC. They identified concerns related to
the surgery program and other issues. After the October CAP review and Employee Assessment Review survey,
OIG received allegations from facility staff. The allegations related to an increase in surgical infections and
perforations, documentation, ED triage and surgical referral, resources, QM program, scheduling, RME, and
safety. Because the VHA teams had previously reviewed most of the allegations, OIG conducted an oversight
review to determine if the facility and VISN adequately addressed the concerns and allegations. OIG found that
action plans had been developed to address these allegations and concerns. OIG recommended that the VISN
Director continue to monitor facility action plans to ensure effective and complete follow up.

Nursing Care, Leadership Found Lacking at St. Louis Dialysis Unit
OIG conducted an inspection to determine the validity of allegations regarding the provision of nursing care in
the hemodialysis (HD) unit of the John Cochran Division of the St. Louis VAMC. Specifically, a complainant
alleged that a licensed practical nurse (LPN) did not provide appropriate care to two HD patients, resulting
in their subsequent need for emergency care, and that the HD unit had nursing leadership issues that affected
patient care. OIG substantiated that the subject LPN did not recognize and report changes in the condition of
Patient 1 during HD but did not substantiate the LPN provided less than standard care for Patient 2. OIG did
not substantiate the allegation that the HD nurse manager favored the subject LPN or that nursing practice
changes unfairly affected HD nursing staff. The HD unit had multiple problems that required improvement.
The unit was lacking a strong leadership presence in the nurse manager and charge nurse roles. It was difficult
to differentiate between the role of the RNs and the LPNs. There was no defined responsibility for the charge
nurse and no policy for reporting events to the charge nurse or a physician. OIG made six recommendations.

Allegations of Poor Surgical Care Not Substantiated at the West Palm Beach, Florida, VAMC
OIG conducted an inspection in response to an anonymous survey respondent’s allegations of poor surgical
care and inadequate follow-up of adverse outcomes at the West Palm Beach VAMC. OIG did not substantiate
that three patients experienced adverse outcomes because an Ear, Nose, and Throat (ENT) surgeon did not
possess the necessary qualifications or competence to care for otolaryngology patients. OIG also did not
substantiate that the surgeon exercised poor judgment. The ENT surgeon met competency expectations,
he was appropriately privileged to perform the surgeries in question, and his performance was periodically
reviewed as part of the reprivileging process. OIG found that reporting and evaluation of adverse events needed
improvement. Surgical staff did not appear to understand the requirement to report serious adverse events or to
use the correct disclosure template. OIG made two recommendations related to staff training and disclosure of
adverse events.

Allegations of Quality of Care Issues and Lack of Management Responsiveness Not Substantiated at
the VA Caribbean HCS, San Juan, Puerto Rico
OIG reviewed allegations regarding quality of care issues and management responsiveness at the VA Caribbean
HCS, San Juan, PR. OIG did not substantiate that improper technique during a cystoscopy caused an infection.
OIG also could neither confirm nor refute that the resident who performed the procedure ignored the patient’s
complaints of pain. OIG did not substantiate that management was unresponsive to the patient’s concerns.
While not one of the complainant’s allegations, OIG found that the informed consent process was not completed
according to policy regarding the change in practitioner prior to the procedure. OIG recommended the System
Director implement measures to ensure the informed consent process complies with VHA requirements.

Semiannual Report to Congress                                                                              |   19
Issue 68 | April 1 –
 September 30, 2012
Office of
           Healthcare Inspections
Allegations Surrounding Surgical Care at Martinsburg, West Virginia, VAMC, Not Founded, but
Improvements Needed in Management of Response Teams
OIG evaluated allegations regarding oversight and perioperative patient safety at the Martinsburg, WV,
VAMC. OIG did not substantiate lack of facility action after observing discolored surgical instruments or
intraoperative microfibers, a surgeon’s responsibility for high or underreported blood loss, or facility failure to
provide oversight of surgical events. Although OIG substantiated that a surgeon remained on duty following
a sentinel event, no requirement was found for removal. OIG recommended conducting a risk assessment
regarding temporary relief from duty. OIG did not substantiate delays in diagnosis or surgical mismanagement
but did identify a lack of documentation and recommended that practitioners record treatment decision-making
processes. OIG substantiated deficiencies in patient flow and recommended training for staff in perioperative
locations on equipment and reporting near-miss patient safety incidents. OIG did not substantiate that the
facility added surgery services without planning for support. While OIG substantiated canceled or delayed
surgeries due to lack of beds, the facility acted to ensure bed availability. OIG also substantiated allegations
of poorly managed Rapid Response Team (RRT) and Cardiac Arrest Team (CAT) activity, although lack of
oversight of patient deaths was not confirmed. OIG recommended strengthening and monitoring adherence
to local policies regarding response to changing clinical conditions, complying with VHA standards for ED
physicians, and designating one committee with responsibility for reviewing CAT and RRT processes.

Minneapolis, Minnesota, VA HCS Criticized for Suicide Prevention, Monitoring, and Follow-Up
Activities for High Risk Patient
OIG conducted a review at the request of Congressman Tim Walz regarding alleged improper medication
management and discharge planning practices for a patient under the care of the Minneapolis, MN, VA HCS
who ultimately committed suicide. OIG did not substantiate the complainant’s allegations but did find that the
facility did not complete suicide prevention activities as required. As a result, the patient in question did not
receive the prescribed level of monitoring and follow-up. OIG found that the facility’s review of the patient’s
death did not address the overall suicide risk management issues central to the case, and the facility did not
adequately follow up on systems issues identified by the review. Further, facility policy lacked several important
provisions for managing patients at high risk for suicide, and some staff were unaware of administrative
requirements related to managing these high-risk patients. OIG made eight recommendations to improve
quality of care and administrative processes related to suicide prevention.

Fayetteville, North Carolina, VA Physician with Prior Performance Deficiencies Misdiagnosed ED
Patient, Privileging Process Also Faulted
OIG evaluated allegations of misdiagnosis and courtesy lapses in the Fayetteville, NC, VAMC ED. OIG’s
review substantiated that the patient did not receive an accurate diagnosis during his ED visit. Further, the
ED physician did not complete a comprehensive evaluation and did not review the medical record or ask the
patient about his current medications. The Service Chief did not adequately address the ED physician’s history
of performance deficiencies related to medication reconciliation, and responsible managers did not follow policy
when they renewed the ED physician’s clinical privileges. The medical center conducted quality of care reviews,
but those reviews did not address the deficiencies identified in this report. OIG could not confirm or refute the
allegation that the ED physician was rude during the patient’s ED visit. OIG made three recommendations to
improve care and processes.




20   |                                                                           VA Office of Inspector General
                                                                                 Issue 68 | April 1 –
 September 30, 2012
                                                                           Office of
                                                                                      Healthcare Inspections
Gainesville, Florida, Nurse Failed To Monitor and Adjust Patient’s Insulin Dosage, Falsified
Documentation
OIG reviewed allegations regarding a nurse’s practice on a critical care unit at the Malcom Randall VAMC in
Gainesville, FL. OIG substantiated the allegations that the RN falsified documentation and did not administer
insulin as ordered for a patient. OIG did not substantiate the allegation that the RN was practicing medicine
without a license or that patient care was not documented until the end of a shift. OIG did not substantiate the
allegation that the RN failed to provide pain medication for a patient; however, the RN did not provide pain
medication as ordered nor did she adhere to local policy for pain management. OIG substantiated the allegation
that previous concerns about the RN were reported to the Nurse Manager (NM), but not that nothing was done.
The review found that there was a pattern of quality of care issues associated with the RN and that the NM did
not address the issues following appropriate managerial protocol. OIG recommended that the VAMC Director
follow through with Administrative Investigative Board (AIB) recommendations and request that Regional
Counsel evaluate relevant documents to determine if the RN’s actions meet criteria to report them to State
licensure governing boards. The VISN and VAMC Directors agreed with the findings and recommendation and
provided an acceptable action plan.

Allegations Unfounded Surrounding Supervision of Dayton, Ohio, VAMC Nurse Anesthetists
An OIG inspection did not substantiate an allegation that the Anesthesia Section Chief at the Dayton, OH,
VAMC did not provide oversight to Certified Registered Nurse Anesthetists (CRNAs). OIG found that all
CRNAs were properly credentialed and privileged to perform their assigned duties within the scope of their
licenses. In addition, the Anesthesia Section Chief assigned a preceptor anesthesiologist to assess each CRNA
twice each month through observation and chart review of specific anesthesia procedures. OIG made no
recommendations.

IG Finds Professional Staff Frustrated by Ineffectiveness of Senior Leadership at Iowa City HCS
OIG conducted a comprehensive review of the Iowa City VA HCS in response to a request from Senator
Charles E. Grassley. OIG assessed the merit of allegations about quality of care and that concerns expressed
by staff “have been largely ignored.” OIG found that high quality medical care has been maintained. However,
a pervasive lack of support for staff problem-solving is a potential threat to patient safety, and that several
process deficiencies were identified. During a prolonged period when key leadership positions were held by
individuals on a temporary basis, decisions were delayed or never made and a highly competent professional
staff was frustrated by the persistent ineffectiveness of senior leadership. OIG recommended that the VISN
Director ensure that system leaders take appropriate action in response to identified problems and communicate
action plans to staff. OIG also recommended that system leaders clarify organizational lines of authority and
responsibility and improve components of Environment of Care and Pharmacy management.

Probe Uncovers Lax Prescribing of Opiates at Calais VA Clinic
OIG conducted a review to determine the validity of allegations regarding management of chronic opioid
therapy and opioid prescribing practices at the VA Maine HCS CBOC in Calais, ME. OIG substantiated the
allegations that providers did not adequately assess patients who were prescribed opioids for chronic pain and
did not adequately monitor patients for misuse or diversion of the opioid medications. OIG substantiated
that managers asked providers to prescribe opioids for patients whom they had not assessed. OIG found
that a chronic shortage in provider staffing at the clinic impacted the management of chronic opioid
therapy. OIG made one recommendation to address these issues. Management agreed with the findings and
recommendations and provided an acceptable improvement plan.



Semiannual Report to Congress                                                                              |     21
Issue 68 | April 1 –
 September 30, 2012
Office of
           Healthcare Inspections
Lebanon VA Management React Quickly to Staff’s Inadvertent Overexposure to Ultraviolet Light
During Surgical Procedure
OIG conducted an inspection to determine the validity of allegations that a surgical patient and 10 Lebanon
VAMC employees suffered injury due to Ultraviolet Germicidal Irradiation (UVGI) light overexposure.
OIG substantiated the allegation that Operating Room staff were harmed on January 17, 2012, as a result of
inadvertent UVGI light overexposure, but the patient was not because he was protected from ultraviolet light
exposure by surgical drapes. Affected facility staff suffered temporary blindness, eye irritation, or skin burns.
The extent of the overexposure was not known until the following morning when the staff noticed symptoms
of overexposure from the UVGI lights. OIG found that facility leadership acted promptly by reporting the
incident, notifying and referring employees for care, and disabling the UVGI light switch. OIG did not
substantiate the allegation that facility management was previously warned about potential safety hazards from
UVGI light overexposure. OIG substantiated the allegation that there were no warning labels on the UVGI light
switch. Facility leaders took immediate action to disconnect UVGI lights the same day exposures were reported.
OIG made no recommendations.

IG Inspection Finds That Veterans Experience Excessive Wait Times at Memphis VA ED
OIG reviewed allegations that census in the ED at the Memphis VAMC, Memphis, TN, exceeds bed capacity
on a regular basis, compromising patient safety; that ED equipment and supplies were inadequate; and that
management was unresponsive to these concerns. OIG substantiated that there were significant delays in the
ED, but did not find that patients experienced negative outcomes as a result of excessive ED length of stay
(LOS). OIG found that the facility’s sustained performance for ED LOS is far below the VHA standard. With
the exception of availability of ultrasound services, OIG found that ED resources were adequate. OIG found
that Emergency Department Integrated Software and Veterans Health Information Systems and Technology
Architecture data related to ED LOS times were unreliable. OIG substantiated that management was aware
of these issues but had not taken adequate action for resolution. OIG recommended that the Facility Director
ensure that actions are taken to reduce ED LOS, increase the availability of ultrasound services for ED patients,
and improve the accuracy of ED flow data. The VISN and Facility Directors agreed with the findings and
recommendations and provided an acceptable action plan.

Alleged Inadequate Airway Management Unsubstantiated at Muskogee, Oklahoma, VAMC
OIG evaluated allegations of inadequate airway management. OIG did not substantiate the allegation that
providers were not competent in airway management. The facility’s medical officer of the day (MOD) is
responsible for airway management during non-administrative hours. All MODs had documented competence
in airway management. OIG did not substantiate the allegation that RNs intubated outside their scopes of
practice. VHA and local policy permit RNs with appropriate training and demonstrated competence to
intubate patients in emergent situations outside of the operating room. OIG did not determine that intubation
by an RN contributed to a patient’s death. An RN intubated a patient at the request and under the supervision
of the MOD, and the MOD checked placement of the endotracheal (ET) tube. Although autopsy revealed
misplacement of the ET tube, OIG concluded that clinicians exercised appropriate diligence when they
attempted intubation as part of resuscitative efforts and were unable to explain the autopsy finding. OIG did not
substantiate the allegation that subsequent to the patient’s death, the facility created a policy permitting RNs to
intubate. The facility has had an emergency airway management policy in place since November 2005. The local
policy, which is consistent with VHA policy, does not preclude RNs from performing ET intubation and airway
management in a non-operating room setting. OIG made no recommendations.




22   |                                                                           VA Office of Inspector General
                                                                                Issue 68 | April 1 –
 September 30, 2012
                                                                             Office of
                                                                                        Healthcare Inspections
Improvement Needed for Access and Coordination of Care at VA Texas Valley Coastal Bend HCS
OIG conducted an inspection to determine the validity of allegations made by a complainant related to access
and coordination of care issues at the VA Texas Valley Coastal Bend HCS and the CBOC, both located in
Harlingen, Texas. OIG substantiated that patients go to the CBOC for urgent and emergent medical care; cannot
be seen in the time frame requested by the patient or their provider; have difficulty getting medications filled,
refilled, or renewed; and that patients experience long wait times at the CBOC. OIG did not substantiate that
providers were pressured into prescribing pain medications to drug-seeking patients. The VISN and Facility
Directors agreed with our findings and four recommendations and provided acceptable improvement plans.

Staffing Ratio Adjustments Needed in Bronx, New York, VAMC
OIG evaluated allegations regarding the Dental Service at the James J. Peters VAMC in Bronx, NY. Specifically,
the complainant alleged issues with infection control, oral surgery student oversight, and Dental Service
leadership. OIG did not substantiate the allegations of inadequate infection control practices, that the dental
clinic had not been thoroughly inspected for years, or that inspections were scripted. OIG did not substantiate
or refute that students worked independently in the Oral Surgery Clinic. OIG did not substantiate the
allegations of poor or indifferent Dental Service leadership. OIG found that the ratio of dental assistants to
practitioners fell short of VHA’s recommendations and impacted the work flow and patient volume handled
by the clinic. Further, the low dental assistant staffing levels contributed to problems with availability,
accountability, supervision, and morale. Therefore, OIG recommended that facility managers assess and adjust
staffing ratios for dental assistants to practitioners to bring them into compliance with VHA recommendations.

OIG Determined Appropriate Medication Management at Lincoln, Nebraska, CBOC
OIG conducted a review of the medication management provided for a patient who received health care and
prescriptions at the Lincoln CBOC of the VA Nebraska-Western Iowa HCS. The patient died unexpectedly, and
a medical examiner determined that the patient’s cause of death was accidental multidrug toxicity. The purpose
of this review was to determine if the patient received appropriate medication management. The medication
management was appropriate. The patient had a complex medical and MH history, which included acute and
chronic pain. Providers documented appropriate assessments and evaluations, and considered the risks of
medication, dependency, and side effects. Providers performed medication reconciliations, which included
routine reviews of active VA and non-VA medications and the patient’s compliance with his medication regimen.
Providers monitored the patient for identified potential adverse medication interactions and performed annual
blood chemistries, drug levels, and electrocardiograms. OIG made no recommendations.

IG Recommends Reevaluation of Inpatient Nurse Staffing and Overtime at Hot Springs, South
Dakota, HCS
At the request of Senators Tim Johnson and John Thune and Representative Kristi Noem, OIG performed an
inspection at the VA Black Hills HCS, Hot Springs, SD, to determine the validity of allegations they received
regarding staffing, quality of care, and safety concerns. The complainants expressed concerns that only
temporary staff were hired for critical clinical positions and that staffing issues may lead to quality of care
issues and patient/staff safety concerns. While onsite, OIG also received allegations that the pharmacy and
an inpatient unit (1E) were understaffed and 1E nursing staff were working excessive amounts of mandatory
overtime. OIG did not substantiate that only temporary staff were hired for critical clinical positions, hiring
temporary staff led to quality of care or safety issues, or 1E was understaffed with nursing staff working excessive
amounts of mandatory overtime. OIG did not review pharmacy staffing due to unavailability of workload data.
OIG recommended that the HCS Director reevaluate Hot Springs division 1E staffing and overtime and obtain a
VA Pharmacy external review of the pharmacy workload and staffing needs.

Semiannual Report to Congress                                                                                 |   23
Issue 68 | April 1 –
 September 30, 2012
Office of
           Healthcare Inspections
IG Makes Six Recommendations To Improve Hampton VAMC ICU Operations
At the request of Senator Jim Webb, OIG conducted a review to determine the validity of 13 allegations
regarding nurse orientation and training, medication integrity and security, security over patient information,
availability of medical supplies, patient monitoring and staff response to patient care needs, and environment
of care issues at the Hampton VAMC, Hampton, VA. The allegations largely focused on the ICU. OIG
substantiated five of the allegations: (1) ICU medication refrigerator temperatures are frequently outside the
appropriate range, (2) ICU medication carts do not always lock properly, (3) medical supplies are not adequately
stocked in the ICU, (4) negative air pressure is not maintained in patient isolation rooms in the ICU and Step
Down Unit, and (5) the ICU physician call schedule is not clear to nurses on the night shift. OIG did not
substantiate six of the allegations and could neither confirm nor refute two of the allegations. In addition, OIG
identified two issues related to telemetry monitoring. OIG made six recommendations that the VISN and Acting
Facility Directors agreed with and provided acceptable improvement plans.

IG Recommends Reassessment of Nurse Staffing in Surgical Intensive Care Unit at Houston Facility
OIG conducted an inspection in response to anonymous complainants’ allegations of unsafe patient care and
delivery of services in the Surgical Intensive Care Unit (SICU) at the Michael E. DeBakey VAMC in Houston,
TX. OIG found that the facility’s average actual SICU nursing hours per patient day (NHPPD) staffing levels
were below the unit’s target NHPPD. OIG determined that the facility assigned nurses to units without proper
training, tolerated disruptive behavior, and did not properly use nurse staffing methodology. OIG substantiated
that the SICU cardiac monitors were outdated and in need of replacement, and that equipment was in short
supply. OIG substantiated that the pharmacy placed SICU patients’ medications in a bin in the medication room
and was slow to fill requests for urgent medications. OIG recommended that the Facility Director ensure that:
(1) SICU nursing management reassess the nursing methodology to ensure the target NHPPD is appropriate,
(2) nursing staff receive unit-specific training for each unit they are assigned, (3) outdated monitors are replaced
and equipment is in sufficient supply, (4) disruptive behaviors are addressed, and (5) medications are dispensed
in a safe manner. The VISN and Facility Directors agreed with our findings and five recommendations and
provided acceptable improvement plans.

IG Makes Four Recommendations at the VA Illiana HCS, Danville, Illinois
OIG conducted an inspection to determine the validity of allegations regarding pharmacy response, surgical
and MH consultant response times, nurse staffing, deep dives (a process to assess and improve patient care), and
inadequate leadership communication regarding proposed changes at the VA Illiana HCS in Danville, IL. OIG
substantiated that the MH Service did not respond to “emergency,” “within one hour,” and “within 24 hour”
consults for patients diagnosed with suicidal ideation within facility policy timeframes. Patients, however, are
kept on a one-to-one observation basis until evaluated and cleared by a psychiatrist. OIG also substantiated that
registered nurses were assigned to units without the required competencies validated as required by The Joint
Commission. OIG did not substantiate that Surgical and Pharmacy Services are not providing timely services
as required by VHA directives and facility policy, or that nursing leadership was deficient in its staffing plans.
However, OIG did substantiate that nurse staffing on two units did not comply with unit staffing plans. OIG also
did not substantiate that punitive action was taken against an employee based on results of a deep dive facility
review, or that facility leadership has not communicated with staff proposed changes. The VISN and Facility
Directors agreed with our findings and four recommendations and provided acceptable improvement plans.




24   |                                                                           VA Office of Inspector General
                                                                                 Issue 68 | April 1 –
 September 30, 2012
                                                                           Office of
                                                                                      Healthcare Inspections
St. Louis VAMC Takes Appropriate Action to Correct Medication Errors
OIG evaluated allegations regarding the quality of care provided by a nurse at the John Cochran Division,
St. Louis VAMC, St. Louis, MO. A complainant alleged that a RN was involved in serious medication errors,
and that management did not respond when complaints were brought to their attention. The facility took
appropriate actions in response to the allegations by removing the subject RN from patient care and initiating
an AIB to review the alleged medication errors. The AIB substantiated the allegation of substandard care
and OIG concurred with their findings and recommendations. OIG did not substantiate the allegation that
management did not respond to prior complaints. OIG also reviewed the facility’s RN competencies, medication
administration system, and quality and safety programs; OIG made no recommendations.

IG Notes Areas of Improvement at the Spokane VAMC, Spokane, Washington
OIG reviewed allegations of inappropriate consultation cancellation causing delays in care and potential harm
to patients, poor communication between consultants and primary care providers (PCPs) and patients, and
inappropriate requests for PCPs to order tests for consultants at the Spokane VAMC, Spokane, WA. OIG
substantiated that requests for consultations were inappropriately cancelled or discontinued, and that patients
consequently had unnecessary delays in the amelioration of symptoms. OIG substantiated that there was poor
communication between consultants and PCPs that resulted in requests for consultations being discontinued
or cancelled. OIG did not substantiate that consultants inappropriately asked PCPs to order tests. However,
OIG noted opportunities for improvement, such as the use of service agreements to define workflow processes
and expedite efficient patient care. OIG recommended that the Medical Center Director: (1) ensure that
there is a comprehensive consultation process in place and that staff are educated on the process; (2) ensure
that all requests for consultations be appropriately generated, tracked to completion, and that consultation
completion data is shared with clinical staff; and (3) ensure that persistent staff conflicts and communication
issues are appropriately addressed and resolved. The VISN and System Directors agreed with the findings and
recommendations and provided acceptable action plans.




Semiannual Report to Congress                                                                              |      25
Issue 68 | April 1 –
 September 30, 2012
                          Office of
                                Audits and Evaluations
The Office of Audits and Evaluations provides independent evaluations of VA’s activities to ensure the integrity
of its programs and operations. Staff perform audits, evaluations, and inspections of VA programs, functions,
and facilities. Our highly diversified reviews encompass the areas of program results, economy and efficiency,
finance, fraud detection, and compliance. We report on current performance and accountability to foster good
program management, ensuring effective government operations. Office of Audits and Evaluations staff are
involved in reviews of such diverse areas as the delivery of medical care, Veterans’ eligibility for benefits and
benefits administration, resource utilization, financial management, forensic auditing, fraud, and computer
security.


Veterans Health Administration Audits and Evaluations
OIG audits and evaluations of VHA programs focus on the effectiveness of health care delivery for Veterans.
These audits and evaluations identify opportunities for enhancing management of program operations and
provide VA with constructive recommendations to improve health care delivery.

In addition to the reports described below, the Office of Audits and Evaluations issued a joint review, in
conjunction with the Office of Healthcare Inspections, concerning Veterans’ access to MH care. The summary
for this report can be found under the Joint Reviews and Settlements section.

Audit Estimates VHA Could Increase Third-Party Revenue by at Least $152 Million Annually
OIG conducted this audit to determine the extent to which VHA’s Medical Care Collections Fund program
identified third-party billing opportunities for VA-provided medical care. Our previous audit on Non-VA­
provided medical care determined VA missed opportunities to increase third-party revenue by $110.4 million
annually or $552 million over 5 years. VHA advised it improved its collections by 43 percent, from $1.3 billion
in FY 2007 to $1.8 billion in FY 2011. However, our review of VA-provided care identified further opportunities
to improve. Specifically, VHA lacked an effective review policy on unbilled care, did not adequately monitor
insurance identification procedures, and needed increased training for staff. OIG estimated VHA missed
opportunities to increase third-party revenue by at least $152 million annually. Without actions to improve
billing processes, VHA could miss an estimated $760 million over the next 5 years. The USH agreed with our
finding, recommendations, and monetary benefits.

Staff and Nuclear Medicine Machine Underutilized at VA Clinic in Marion County, Florida
A hotline complainant alleged the North Florida/South Georgia Veterans Health System of the VA Sunshine
Healthcare Network underutilized The Villages Outpatient Clinic in Florida. OIG assessed the allegation that
four operating rooms intended for minor surgeries and three procedure rooms had not been used since the clinic
opened in October 2010. OIG substantiated the allegation that The Villages Outpatient Clinic was underutilized
during the first 18 months of operation. OIG found primary care, MH, and specialty care were not being
provided as planned. The surgical suite had not been used since the facility opened and the nuclear medicine
suite was underutilized. As a result, VHA spent $1.9 million on this underutilized facility and equipment
costs as well as on staff salaries and benefits. These funds represent a lost opportunity to provide Veterans with
additional access to medical care in an underserved area of need. OIG recommended VHA conduct a utilization
review to ensure facility resources efficiently meet the medical needs of the most underserved Veterans. VHA
agreed with our finding and recommendations.




26   |                                                                          VA Office of Inspector General
                                                                                Issue 68 | April 1 –
 September 30, 2012
                                                                            Office of
                                                                                     Audits and Evaluations
Veterans Benefits Administration Audits and Evaluations
OIG performs audits and evaluations of Veterans’ benefits programs focusing on the effectiveness of benefits
delivery to Veterans, dependents, and survivors. These audits and evaluations identify opportunities for
enhancing the management of program operations and provide VA with constructive recommendations to
improve the delivery of benefits.

Opportunities Exist for VBA To Improve Processing of Rating Decision Appeals at VAROs
OIG determined whether opportunities exist to improve VA Regional Office (VARO) timeliness in processing
appeals of rating decisions. The nationwide inventory of appeals increased over 30 percent to about 209,000
in FY 2010 and the inventory of compensation rating claims also increased by 40 percent to 532,000 claims.
Opportunities exist to improve appeals processing at regional offices. Regional office managers did not assign
enough staff to process appeals, diverted staff from appeals processing, and did not ensure appeals staff acted on
appeals promptly because compensation claims processing was their highest priority. OIG found the de novo
review process results in quicker decisions on Veterans’ appeals because decision review officers can render new
decisions without awaiting new evidence as required with traditional reviews. VARO staff did not properly
record 145 appeals in the Veterans Appeal Control and Locator System that delayed processing for an average of
444 days. The Under Secretary for Benefits generally agreed opportunities exist to improve appeals processing
and stated VBA was conducting a pilot program to assess the feasibility of implementing most of our
recommendations. OIG will follow up on the implementation of the corrective actions.

IG Visit Prompts VBA To Take Immediate Action To Fix Inadequate Claims Folder Storage at
Winston-Salem VARO
During the onsite benefit inspection of the Winston-Salem VARO, OIG observed an excessive number of claims
folders stored on the top of, and around, filing cabinets. Based on our concerns, OIG issued a Management
Advisory Memorandum to the Under Secretary for Benefits to ensure the VARO addressed management of
Veterans’ files and employee safety concerns immediately. The inadequate storage created an unsafe workspace
for VARO employees and appeared to have the potential to compromise the integrity of the building. The Under
Secretary for Benefits directed VARO leadership to take immediate action to find alternate temporary storage
areas, obtain additional storage cabinets, and relocate excess cabinets and exposed folders to other floors. VARO
management complied and submitted a long-range proposal to improve claim folder access and security.


Veterans Benefits Administration Benefits Inspections
The Benefits Inspection Program is part of OIG’s efforts to ensure our Nation’s Veterans receive timely and
accurate benefits and services. These independent inspections provide recurring oversight of VAROs, focusing
on disability compensation claims processing and performance of Veterans Service Center operations. Our
objectives are to evaluate how well VAROs are accomplishing their mission of providing Veterans with
convenient access to high quality benefits services and report systemic trends in VARO operations. We
also determine whether management controls ensure compliance with VA regulations and policies, assist
management in achieving program goals, and minimize the risk of fraud, waste, and other abuses. Benefits
inspections may also examine issues or allegations referred by VA employees, members of Congress, or other
stakeholders. The Benefits Inspection Divisions issued 10 reports during this reporting period, which are listed
in Appendix A.

The inspection results of the three California VAROs showed the Los Angeles VARO to be one of the poorest
performers, with an error rate of 97 percent in processing temporary 100 percent disability evaluations. The

Semiannual Report to Congress                                                                                |   27
Issue 68 | April 1 –
 September 30, 2012
Office of
         Audits and Evaluations
San Diego VARO ranked near the middle of all VAROs inspected, with an error rate of 77 percent. Oakland’s
error rate was also high at 53 percent. Collectively, overpayments for these errors in the three California
VAROs totaled over $1.5 million, while underpayments were about $21,000. Further, the San Diego VARO
completed its review of VBA’s temporary 100 percent disability evaluations, but did not take appropriate actions
in 17 (22 percent) of 78 claims involving prostate cancer. VARO management erroneously reported to VBA’s
Western Area Officials that staff had requested VA medical reexaminations to determine whether the Veterans’
disabilities warranted the continued evaluations. Evidence in the Veterans’ claims folders revealed VARO staff
had neither requested the medical reexaminations, nor put controls in place to manage these cases. Without
appropriate action to justify the need for continued payments, these claims have the potential to cost just over
$400,000 annually.
                                                                                     VAROs Inspected This
Other key findings included:                                                           Reporting Period
     •	   Claims Processing: 36 percent of benefit claims we reviewed         Eastern Area   Cleveland, OH
          requiring a rating decision were processed in error. These          Southern Area Winston-Salem, NC
          errors involved claims related to TBI, herbicide exposure-related                 Lincoln, NE
          disabilities, and temporary 100 percent disability evaluations.                   Little Rock, AR
                                                                              Central Area
                                                                                            Sioux Falls, SD
     •	   Systematic Analysis of Operations (SAOs): 38 percent of SAOs                      Wichita, KS
          were not completed timely and/or were incomplete.
                                                                                            Los Angeles, CA
     •	   Homeless Veterans Outreach: for 10 percent of the VAROs                           Oakland, CA
                                                                              Western Area
          inspected, there was no assurance the VARO was providing                          Phoenix, AZ
          adequate outreach to homeless shelters and service providers.                     San Diego, CA


National Cemetery Administration Audit
OIG performs audits and evaluations on Veterans’ memorial benefits programs focusing on the delivery of these
benefits and how NCA manages and administers a nationwide network of National Cemeteries. These audits
and evaluations identify opportunities for enhancing the processes and improving management of program
operations. We provide VA with constructive recommendations to improve the delivery of benefits to deceased
Veterans and their families.

Audit Shows Effective Planning, Use of National Cemetery Administration’s FYs 2010/2011
Operations and Maintenance Budget
OIG determined NCA effectively budgeted and used operations and maintenance funds as intended. For
FYs 2010 and 2011, the budget authority increased 38 percent from the FY 2009 budget for operations and
maintenance. NCA effectively planned its FY 2010 budgetary process using appropriated operations and
maintenance funds. In addition, the controls over budget implementation were adequate. OIG identified
minor conditions that needed correction to improve equipment accountability. However, these issues were not
considered significant or systemic. OIG discussed these minor conditions with NCA’s local management on a
site-specific basis, and NCA took actions to address OIG’s concerns. OIG made no recommendations in this
report and did not require a written response.




28   |                                                                           VA Office of Inspector General
                                                                                Issue 68 | April 1 – September 30, 2012
                                                                           Office of
                                                                                    Audits and Evaluations
Other Audits and Evaluations
OIG performs audits of financial management operations, focusing on adequacy of VA financial management
systems in providing managers information needed to efficiently and effectively manage and safeguard VA
assets and resources. OIG oversight work satisfies the Chief Financial Officers Act of 1990, P.L. 101-576, audit
requirements for Federal financial statements and provides timely, independent, and constructive evaluations of
financial information, programs, and activities.

To improve VA acquisition programs and activities, OIG identified opportunities to achieve economy, efficiency,
and effectiveness for VA national and local acquisitions and supply chain management. In addition, OIG
examines how well major acquisitions are achieving objectives and desired outcomes. OIG efforts focus
on determining whether the Department is taking advantage of its full purchasing power when in acquires
goods and services. Auditors examine how well VA is managing and safeguarding resources and inventories,
obtaining economies of scale, and identifying opportunities to employ best practices.

OIG performs audits of IT and security operations and policies, focusing on the adequacy of VA’s IT and security
policies and procedures for managing and safeguarding Veterans and VA employees, facilities, and information.
OIG’s audit reports present VA with constructive recommendations needed to improve IT management and
security. OIG oversight in this area also includes meeting its statutory requirement to review VA’s compliance
with the Federal Information Security Management Act of 2002, P.L. 107-347, as well as IT security evaluations
conducted as part of the Consolidated Financial Statements audit. These evaluations have led OIG to report
information security and security of data and data systems as a major management challenge for VA.

In addition to the reports described below, the Office of Audits and Evaluations issued a joint administrative
investigation, in conjunction with the Office of Investigations, concerning wasteful expenditures related to two
2011 Office of Human Resources and Administration (HRA) conferences held in Orlando, FL. The summary for
this report can be found under the Joint Reviews and Settlements section.

Audit Shows No Systemic Problem in Assignment of Duty Stations in VA Personnel Actions
At the request of Senator Charles Grassley, Ranking Member, Committee on the Judiciary, United States Senate,
OIG conducted a VA-wide audit to determine whether VA has a systemic problem assigning incorrect duty
stations and locality pay to employees. The Chairman and Ranking Member of the Committee on Veterans
Affairs, United States Senate, also requested notification of our audit results. OIG determined VA does not have
a systemic problem assigning incorrect duty stations and locality pay to employees across all VA organizations.
OIG nonetheless identified 6 of 99 statistically sampled cases where VA assigned incorrect duty stations due
to inadequately trained human resources personnel and lack of notification to supervisors of employee duty
assignments. Consequently, VA overpaid a total of about $106,000 in locality pay from the time the errors first
occurred. If problems assigning incorrect duty stations are not fixed, we project a total of approximately
$1.4 million in potential incorrect payments over the next 5 years.

Better Oversight of Costs and Broader Impact Measures Can Improve VA’s Corporate Workforce
Development Program
The Chairman of the Senate Committee on Veterans’ Affairs requested OIG assess how effectively VA manages
its ADVANCE human capital program. OIG found VA achieved many of its human capital program goals with
ADVANCE and its Corporate Senior Executive Management Office. Since FY 2010, VA met its annual goal
by training over 135,000 employees. However, VA needs to strengthen management of its Office of Personnel
Management (OPM) interagency agreements and better assess program impact. With the rapid deployment of

Semiannual Report to Congress                                                                              |   29
Issue 68 | April 1 –
 September 30, 2012
Office of
         Audits and Evaluations
ADVANCE, VA did not establish adequate controls over interagency agreement costs and terms. OIG estimated,
although data was limited, the standardized service fee applied during FY 2011 cost VA an additional
$2.5 million. OIG recommended VA assess whether its relationship with OPM is in VA’s best interest, take steps
to improve management over ADVANCE interagency agreement costs and terms, and improve program impact
measures. The Assistant Secretary concurred with the recommendations and provided acceptable corrective
plans.

VA’s Fast Pay System for Drugs Purchased from Prime Vendor Is Effective, But Quicker Fix of
Pricing Differences Needed
At the request of the VA Secretary and the Chairman of the House Committee on Veterans’ Affairs, OIG
reviewed VA’s Fast Pay system. This system processed $4.3 billion of pharmaceutical prime vendor purchases
in FY 2011. OIG found Fast Pay consistently provided payments within 48 hours and VA paid accurate contract
prices for purchased supplies. However, the National Acquisition Center had not resolved pricing differences of
about $46.4 million for pharmaceutical prime vendor purchases from December 2009 through April 2011. In
addition, inadequate segregation of ordering and receiving duties makes VA vulnerable to fraudulent activity.
OIG recommended VA timely resolve and recover purchase pricing errors and timely completion of price
analyses, as well as proper segregation of supply ordering and receiving duties, and adequate verification of
supply receipts. The Department concurred with our findings.

VA Overstated $710 Million in Savings Under Office of Management and Budget’s Acquisition
Savings Initiative
OIG conducted this audit to determine if VHA reported accurate and supportable savings as part of Office of
Management and Budget’s (OMB’s) acquisition savings initiative for FYs 2010 and 2011. VA set a 2-year savings
goal of approximately $1.5 billion for FYs 2010 and 2011, which included a $721 million goal for VHA. OIG
found VHA inaccurately reported $710 million (65 percent) of the approximately $1.1 billion in savings reported
under the OMB acquisition savings initiative. Reported savings included errors like unreportable savings,
duplicate transactions, and a lack of sufficient documentation. The overstatement occurred due to incomplete
guidance or inadequate oversight. OIG recommended improved policy and controls to ensure more effective
responses to future savings reforms and initiatives.

Ineffective Management by the Office of Operations, Security, and Preparedness at VA Security &
Investigation Center Leads to Backlog in Contractor Background Investigations
OIG evaluated the merits of a Hotline complaint alleging VA had a backlog of contractor background
investigations; was inappropriately requiring completion of contractors’ background investigations before
the contractors could begin work; and was not meeting its 20-day standard for starting investigations. OIG
substantiated all three allegations. The Office of Operations, Security, and Preparedness (OSP) is the lead agent
in VA’s identity management and personnel suitability program. OSP is primarily responsible for managing
the agency-wide process of ensuring that personnel (including contractors) who access VA systems are verified,
trusted, and credentialed at the appropriate levels to carry out assigned work. Despite process improvements
and a recent reduction in pending cases, VA had a backlog of 3,000 contractor background investigations,
inappropriately prohibited contractors from working on contracts, and was not meeting its 20-day standard for
starting background investigations with OPM. Delays were due to ineffective VA management within OSP’s
Security and Investigative Center; staff misunderstanding VA’s personnel security requirements and investigative
process; and the lack of a central system to monitor progress in addressing the backlog. OIG recommended
VA implement improved policies and procedures and implement a central case management system to monitor
contractor status and costs associated with the background investigation process.


30   |                                                                         VA Office of Inspector General
                                                                               Issue 68 | April 1 –
 September 30, 2012
                                                                           Office of
                                                                                    Audits and Evaluations
VA’s Measures to Protect Sensitive Data on Mobile Devices Meet Federal Security Standards, But
Better Inventory Needed
In response to a confidential hotline allegation, OIG evaluated whether VA’s approach for information system
certification and storing sensitive data on Apple mobile devices circumvents information security requirements.
Senator Kyl also requested OIG evaluate whether VA’s approach for only storing sensitive data on encrypted
mobile device applications meets Federal Information Security Management Act (FISMA) requirements. OIG
determined VA was not circumventing FISMA certification and accreditation requirements by suspending
security control testing and granting operational waivers for existing information systems. OIG also determined
that VA’s approach for allowing only certified applications to access sensitive data or storing encrypted data on
the mobile device met FISMA information security requirements for data protection. However, OIG noted that
VA could improve management controls by ensuring an accurate inventory and consistent configuration of
mobile devices deployed enterprise-wide. The Assistant Secretary for Information and Technology concurred
with our findings and recommendations.


Federal Information Security Management Act Compliance
In compliance with FISMA, this assessment determined the extent VA’s information security program complied
with FISMA requirements and applicable National Institute for Standards and Technology guidelines. We
found VA has made progress developing policies and procedures, but still faces challenges implementing
components of its agency-wide information security risk management program to meet FISMA requirements.
We continued to identify significant deficiencies related to controls in system access, configuration management,
continuous monitoring, as well as service continuity practices designed to protect mission-critical systems
from unauthorized access, alteration, or destruction. This report provides 31 recommendations for improving
VA’s information security program. The Assistant Secretary for Information and Technology agreed with our
findings and recommendations.


Federal Financial Management Improvement Act of 1996 Compliance
The Federal Financial Management Improvement Act of 1996 (FFMIA) requires OIG to report instances and
reasons when VA has not met the intermediate target dates established in the VA remediation plan to bring VA’s
financial management system into substantial compliance with FFMIA. The audit of VA’s FY 2011 consolidated
financial statements reported that VA did not substantially comply with the Federal financial management
systems requirements of FFMIA. This condition was due to a material weakness in information technology
security controls and two significant deficiencies concerning accrued operating expenses and loan guaranty
reporting. Also, the audit noted that VA’s underlying financial systems were complex and disjointed legacy
applications and operating platforms that sometimes did not readily support financial amounts or sometimes
required manual processing and reconciliation.




Semiannual Report to Congress                                                                              |   31
Issue 68 | April 1 –
 September 30, 2012
                          Joint

                                 Reviews and Settlements

Veterans Not Receiving Timely MH Evaluations and Treatment, Better Performance Metrics
Needed
Congress and the VA Secretary requested OIG determine how accurately VHA records wait times for MH
services for both new and established patient visits and if the wait time data VHA collects is an accurate
depiction of the Veterans’ ability to access those services. VHA policy requires all first-time patients referred to
or requesting MH services receive an initial evaluation within 24 hours and a more comprehensive diagnostic
and treatment planning evaluation within 14 days. The review found VHA does not have a reliable and accurate
method of determining whether they are providing patients timely access to MH care services. VHA did not
provide first-time patients with timely MH evaluations and existing patients often waited more than 14 days past
their desired date of care for their treatment appointment. As a result, performance measures used to report
patient’s access to MH care do not depict the true picture of a patient’s waiting time to see a MH provider. The
USH concurred with OIG’s findings and recommendations.

IG Faults VA Senior Human Resource Leadership for Lax Financial Oversight of Multimillion
Dollar Conferences
OIG opened an administrative investigation upon receiving allegations of wasteful expenditures related to
Human Resource conferences held in Orlando, FL, in July and August 2011. While VA reported lower estimates
of conference costs to Congress, OIG reconstructed the costs of the two conference events to be approximately
$6.1 million, but could not gain reasonable assurance that this figure represents a complete accounting for these
conferences. In our opinion, VA held these conferences to fulfill valid training needs. However, VA’s processes
and the oversight were too weak, ineffective, and in some instances, nonexistent. Thus, many conference costs
were not sufficiently documented, which made them difficult to clearly justify, or
identify whether they were accurate, appropriate, necessary, or even reasonably
priced. In fact, OIG questioned about $762,000 as unauthorized, unnecessary,
and/or wasteful expenses. Further, OIG found that 11 VA employees, tasked
with conference management responsibilities, improperly accepted gifts from
contractors seeking to do business or already doing business with VA. The
VA Secretary agreed to take action on our findings and OIG will monitor the
Department’s progress on implementing all proposed corrective actions.

False Claims Act Settlements
During this reporting period, OIG’s False Claims Act work resulted in five
settlements totaling more than $103 million in recoveries paid to VA; the total
collected by the Department of Justice on behalf of the Government in these
five cases, including damages, fines, and penalties, was more than $2.3 billion.
Two of the cases, one of which involved off-label marketing and anti-kickback
violations and the other which involved safety and anti-kickback violations,
were the result of qui tam filings. A third qui tam action involved a company’s
failure to comply with warranty guarantees for a medical device. The fourth
settlement was the result of both a qui tam, which involved off-label violations
for multiple drugs, and an affirmative civil claim under the False Claims Act for
making false and misleading misrepresentations about a drug’s safety profile.
The fifth settlement was an affirmative action under the False Claims Act for
medical device safety violations.


32   |                                                                           VA Office of Inspector General
                                                                                 Issue 68 | April 1 –
 September 30, 2012
                                           Office of
                                                  Investigations
Veterans Health Administration Investigations
The Office of Investigations conducts criminal investigations into allegations of patient abuse, drug diversion,
theft of VA pharmaceuticals or medical equipment, false claims for health care benefits, and other frauds
relating to the delivery of health care to millions of Veterans. In the area of health care delivery, OIG opened
199 cases; made 152 arrests; obtained over $353.3 million in fines, restitution, penalties, and civil judgments; and
achieved over $2 million in savings, efficiencies, cost avoidance, and recoveries. The monetary impact includes
settlements in an investigative case brought under the False Claims Act, P.L. 111-148, which resulted in recoveries
totaling $351,455,830.

During this reporting period, OIG opened 47 investigations regarding diversion of controlled substances.
Subjects of these investigations included VA employees, Veterans, and private citizens. Fifty-six defendants
were charged with various crimes relating to drug diversion. These investigations resulted in $423,830 in
fines, restitution, penalties, and civil judgments as well as $275,397 in savings, efficiencies, cost avoidance,
and recoveries. OIG also initiated 14 investigations related to the fraudulent receipt of health benefits, which
resulted in 26 defendants being charged with various related crimes. These investigations resulted in $558,669
in fines, restitution, penalties, and civil judgments as well as $243,000 in savings, efficiencies, cost avoidance,
and recoveries. OIG opened 21 beneficiary travel fraud investigations involving VA patients who grossly inflate
their mileage to and from VA facilities to increase their reimbursement for travel expenses. These investigations
resulted in 24 arrests, $287,838 in fines, restitution, penalties, and civil judgments along with $53,598 in savings,
efficiencies, cost avoidance, and recoveries. The following entries provide a representative sample of the type of
VHA investigations conducted during this reporting period.

Former West Los Angeles, California, VAMC Chief Accountant Pleads Guilty to Theft of
Government Funds
A former West Los Angeles, CA, VAMC chief accountant pled guilty to theft of Government funds. An OIG
investigation determined that the accountant embezzled $681,087 of VA funds. To date, $229,191 of the stolen
funds are still missing.

Former St. Louis, Missouri, VAMC Employee and Coconspirators Sentenced For Accepting Illegal
Gratuities
A former VA employee received a sentence of 15 months’ incarceration for accepting illegal gratuities from
Government contractors from 2007 to 2010 while employed at the St. Louis, MO, VAMC. The defendant
admitted to accepting approximately $20,000 in cash, luxury baseball tickets, meals, and entertainment at a local
club from two Government contractors while he was steering $3.4 million in Service-Disabled Veteran-Owned
Small Business (SDVOSB) set-aside contracts to their companies. The contractors established a front company,
purportedly owned and operated by a service-disabled Veteran, when in actuality, it was controlled and
managed by the contractors. Both contractors previously pled guilty to charges in this case. The first defendant,
who was the leader of the scheme, was sentenced to 2 years’ incarceration, 1 year of probation, and a $50,000
fine. The other defendant was sentenced to 3 years’ probation, a $60,000 fine, and ordered to pay VA $1,550,000
in restitution.

Former Cleveland, Ohio, VAMC Purchasing Agent Charged with Conspiracy
A former Cleveland, OH, VAMC purchasing agent working in the prosthetics department and the owner of a
durable medical equipment provider were each charged by a criminal information with conspiracy to commit

Semiannual Report to Congress                                                                                   |   33
Issue 68 | April 1 –
 September 30, 2012
Office of
             Investigations

health care fraud. The former VA employee used her position to provide competitor’s bid information to the
medical equipment provider and allowed for inflated payments for services provided. Also, in some instances
the equipment was not installed by the provider, either because the Veteran refused delivery or because the
Veteran died prior to delivery. The provider then charged VA as if the equipment had been installed. The loss to
VA is $110,581.

Former Union President Indicted for Theft of Union Funds
A former New York, NY, VAMC employee and union president of an American Federation of Government
Employee’s local was indicted for theft of union funds while on U.S. Government property. An OIG and
Department of Labor (DOL), Office of Labor Management Standards, investigation revealed that the defendant
embezzled approximately $112,500 by writing 187 checks to himself from the union’s checking account.

Miami, Florida, VAMC Employee Sentenced for Identity Theft
A Miami, FL, VAMC employee was sentenced to 26 months’ incarceration and 48 months’ supervised release
after pleading guilty to aggravated identity fraud and access device fraud. An OIG, U.S. Secret Service, and
U.S. Postal Inspection Service investigation revealed that the defendant sold 22 Veterans’ identities in two
separate undercover operations at the medical center. The defendant further admitted to selling 3,000 Veterans’
identities over the past 5 years that were linked to a larger conspiracy to use stolen VA and non-VA identities in
furtherance of a credit card fraud scheme.

Former Detroit, Michigan, VAMC Nursing Assistant Sentenced for Sexual Assault
A former Detroit, MI, VAMC nursing assistant was sentenced to 6 months’ incarceration, followed by 12
months’ electronic monitoring, and 3 years’ probation. The defendant must also register as a sex offender, have
no contact with the victim, and pay an administrative fee of $1,453. The former employee provided a signed
sworn statement during an OIG investigation in which he admitted to sexually assaulting a job corps student
while working together at the medical center.

Former Columbia, South Carolina, VAMC Employee Sentenced for Assault of VA Patient
A former Columbia, SC, VAMC employee was sentenced to 36 months’ probation with the first 6 months
consisting of home confinement. The defendant pled guilty to assault after he admitted fondling an amputee
patient at the medical center, while reportedly checking the patient’s diaper for wetness. The defendant’s
employment was terminated approximately 6 months following his indictment.

Topeka, Kansas, VAMC Physician Arrested for Sexual Assault
A Topeka, KS, VAMC physician was arrested for aggravated sexual battery and sexual battery. An OIG, VA
Police Service, and local police investigation revealed that the defendant sexually assaulted multiple patients
while working at the medical center. The defendant was placed on administrative leave in September 2011
pending the outcome of the investigation.

Daytona Beach, Florida, Outpatient Clinic Social Worker Arrested for Sexual Misconduct
A Daytona Beach, FL, outpatient clinic licensed social worker was arrested for sexual misconduct by a
psychotherapist. An OIG and VA Police Service investigation revealed that the defendant engaged in an
inappropriate relationship with a patient that resulted in at least one instance of sexual contact during a therapy
session.




34   |                                                                           VA Office of Inspector General
                                                                                 Issue 68 | April 1 –
 September 30, 2012
                                                                                    Office of
                                                                                                 Investigations
Roseburg, Oregon, VAMC Pharmacy Technician Charged with Theft of Government Property
A Roseburg, OR, VAMC pharmacy technician was charged with theft of Government property. An OIG
investigation revealed that for 18 months the defendant diverted over 6,000 tablets of Schedule II narcotics
from the VA pharmacy. As part of the scheme, the defendant used her position and access to a VA computer to
remove Schedule II narcotics from the pharmacy inventory and avoided audit detection by designating that the
narcotics were being transferred to an automated drug dispenser located elsewhere in the medical center. The
defendant also manipulated other security protocols in order to divert the drugs. It is estimated that the stolen
drugs had a “street value” of $250,000. The actual loss to VA is approximately $26,000. In February 2012, OIG
forwarded a Management Implication Notification to VHA informing them of weaknesses in VA’s control of
narcotics located within controlled areas of the pharmacy.

Jackson, Mississippi, VAMC Associate Director Arrested for Fraudulently Obtaining Controlled
Substances
An Associate Director at the Jackson, MS, VAMC was arrested for fraudulently obtaining controlled substances.
An OIG and Drug Enforcement Administration (DEA) investigation revealed that the VA employee was
receiving overlapping prescriptions for the same controlled substance from VA and non-VA prescribers.

San Diego, California, VAMC Employee Charged with Illegally Obtaining Narcotics
A San Diego, CA, VAMC employee, who is also a Veteran, was charged with illegally obtaining narcotics from
the VA pharmacy and burglary. An OIG and drug task force investigation determined that for over 3 years
the defendant forged a VA physician’s signature on prescriptions in order to obtain oxycodone. In addition to
obtaining narcotics, the defendant also received non-controlled medications which he mailed to his residence.
At the deferndant’s residence, agents seized drugs and VA medical records belonging to another Veteran.

Subjects Indicted for Drug Distribution at Richmond, Virginia, VAMC
An OIG, VA Police Service, and local police investigation resulted in the indictment of one VA employee,
two Veterans, and two non-Veterans for the distribution of a controlled substance. To date, four of the five
defendants have been arrested. The investigation revealed that the defendants were selling narcotics to other VA
employees and Veterans in and around the Richmond, VA, VAMC. Also, one Veteran was allowing his nearby
residence to be used to consume these drugs by employees and patients during working hours.

Multiple Subjects Prosecuted for Drug Distribution at Bedford, Massachusetts, VAMC
A subject was arrested for distribution of heroin. During the course of an OIG, DEA, VA Police Service, and
local police investigation, the defendant sold heroin to an OIG informant on five different occasions, with
four of the sales occurring at the Bedford, MA, VAMC. During one undercover operation, the defendant sold
approximately 7.5 grams of heroin. In another investigation, three Veterans also pled guilty to distributing
controlled substances after having previously been charged with selling buprenorphine and oxycodone and
conspiring to distribute oxycodone on the grounds of the Bedford, MA, VAMC, a facility that has multiple
services for substance abuse rehabilitation. In some of the cases, the defendants were selling drugs that had been
provided to them by the VAMC.

West Palm Beach, Florida, Pharmacy Technician and Other Defendants Sentenced for Drug
Possession
A VA pharmacy technician pled guilty to possession of oxycodone and was sentenced to 3 years’ probation,
100 hours’ community service, and forfeiture of $180,920. The pharmacy technician’s son pled guilty to
conspiracy and trafficking oxycodone and was sentenced to 5 years’ incarceration with a 3-year mandatory


Semiannual Report to Congress                                                                                |   35
Issue 68 | April 1 –
 September 30, 2012
Office of
             Investigations
minimum and a $53,068 fine. Three other defendants were also sentenced to lesser incarceration times
and fines. These sentences stemmed from a 7-month OIG and local drug diversion task force investigation.
Operation Tango Vax focused on combating the sale and distribution of illicit and controlled prescription
pharmaceutical drugs at the West Palm Beach, FL, VAMC and the surrounding community. The investigation
determined that the majority of criminal activity occurred at the VAMC and resulted in the seizure of over
6,000 oxycodone pills and $180,920.

Former Lyons, New Jersey, VAMC Patient Arrested for Overdose Death of Veteran
A former Lyons, NJ, VAMC patient was arrested for administering a lethal dose of heroin to a fellow Veteran and
obstructing the investigation into the Veteran’s death. An OIG investigation revealed that the defendant and
victim purchased heroin outside the medical center and returned to the VAMC, along with a third patient, to
take the heroin in the victim’s room. The Veteran collapsed while using the drug, and the defendant and third
patient departed the room without notifying staff. The victim’s body was discovered the next morning. Based
on the body’s positioning, OIG initially investigated the death as an apparent accidental suicide; however, a
confidential source subsequently revealed that the defendant actually administered the heroin to the victim and
propped the body to appear as though the victim had taken the heroin and overdosed on his own.

Defendants Charged with Passing Forged Prescriptions
Four defendants were charged with altering and passing forged VA oxycodone prescriptions. An OIG
investigation revealed that one of the defendants, a Veteran receiving VA medical care, obtained and then
forged VA prescriptions using the signature and Drug Enforcement Administration number of a VA contract
nurse working at a local CBOC. The defendant then conspired with the other defendants to fabricate additional
prescription orders using various fictitious names and addresses and then passed them at retail drug stores in
several adjoining counties.

Veteran Sentenced for Setting Fire to Jacksonville, North Carolina, Clinic
A Veteran was sentenced to 10 to 12 months’ incarceration and ordered to pay $2,494 in court costs after
pleading guilty to felonious burning of a public building. An OIG, VA Police Service, and local police
investigation revealed that the defendant broke into the Jacksonville, NC, CBOC in the early morning and set
fire to an office in the facility. There were no injuries; however, the entire clinic has smoke and water damage.
The defendant claimed to have set the fire because of dissatisfaction with his VA services.

Former Tampa, Florida, VAMC Employee Sentenced for Theft
A former Tampa, FL, VAMC employee was sentenced to 8 months’ home detention, 60 months’ probation, and
ordered to pay VA $88,879 in restitution. An OIG investigation determined that the defendant ordered low
vision-enhancing equipment in the form of iPads and Apple laptops, claiming that they were needed by vision-
impaired Veterans. The defendant subsequently sold the equipment on Craigslist for his own personal gain.

VA Employee Charged with Theft of Government Property
The Information Security Officer at the Southern Oregon Rehabilitation Center (SORC) in White City, OR,
was charged with theft of Government property. An OIG and VA Police Service investigation revealed that the
defendant stole VA computers that were stored at the facility and were later reported missing. A report of survey
conducted by the SORC failed to account for at least four computers and they were subsequently removed from
the property book. Three years later, information was received by VA Police describing how the defendant had
stolen the computers. Local county detectives working on an unrelated case had discovered two computers
at the employee’s home during a search warrant. The serial numbers on the seized computers matched those
missing from a VA report of survey.


36   |                                                                            VA Office of Inspector General
                                                                                  Issue 68 | April 1 –
 September 30, 2012
                                                                                    Office of
                                                                                                 Investigations
Former Reno, Nevada, VAMC Canteen Service Manager Sentenced for Theft
A former VA canteen service manager was sentenced to 5 years’ probation, 100 hours’ community service, and
ordered to pay $40,567 in restitution to VA. An OIG investigation revealed that for approximately 18 months
the defendant embezzled money from 13 vending machines located at the Reno, NV, VAMC. The defendant
consistently under-reported the vending machine sales to conceal the embezzled funds used for gambling.

Patients Arrested for Theft of Government Property
Two Hines, IL, VAMC patients were arrested for theft of Government property. A VA OIG and VA Police
Service investigation revealed that the two defendants stole computers, monitors, video cameras, and various
items from the area of a patient lab room after having sexual intercourse in the room. Both defendants admitted
to the theft and most of the equipment was recovered. The stolen items were valued at $37,066.

Former Fayetteville, North Carolina, Compensated Work Therapy Employee Indicted For Theft
A former Fayetteville, NC, compensated work therapy employee was indicted for theft-related violations. An
OIG, VA Police Service, and local police investigation revealed that while working in the VAMC’s information
technology section, the defendant stole several new laptop computers. At least six of the computers were pawned
in the local area, and three of those were recovered; however, nine of the stolen computers are still missing. The
investigation also revealed that the defendant had an extensive criminal history, including burglary, fleeing
custody, and fraud-related charges.

Bay Pines, Florida, VAMC Employee Arrested for Theft of Government Funds
A Bay Pines, FL, VAMC employee was arrested for theft of Government funds and access device fraud. An OIG
investigation revealed that the employee used a GSA fuel card, issued to a VA vehicle, for personal profit. The
approximate loss to VA is $33,000.

Miami, Florida, Employee Arrested for Credit Card Fraud
A Miami, FL, VAMC employee was indicted and arrested for use or attempted use of unauthorized access device
and aggravated identity theft. An OIG and U.S. Secret Service investigation revealed that the defendant used
stolen credit card numbers and identities to make online purchases from various retailers using the VA network
and computers. The credit card loss is approximately $9,000.

Veteran Pleads Guilty to Falsifying a Military Discharge Certificate
A Veteran waived indictment and pled guilty to falsifying a military discharge certificate. An OIG investigation
revealed that the defendant falsely claimed to have been awarded a Purple Heart Medal and submitted to VA,
in relation to a claim for benefits, a fraudulent Purple Heart certificate, medical notes, and fraudulent military
forms to include a DD-214.

Non-Veteran Charged with VA Health Care Fraud
A non-Veteran was charged in a criminal information with theft of Government funds. An OIG investigation
determined that the defendant falsely represented himself as a Veteran in order to receive VA health care
services. The defendant subsequently received approximately $32,500 in VA health care benefits.

Former Dallas, Texas, VAMC Employee Sentenced for Fraudulent Overtime Claims
A former Dallas, TX, VAMC employee was sentenced to 3 years’ probation and ordered to pay VA restitution of
$68,861. An OIG investigation revealed that from February 2007 to March 2010 the defendant submitted and
was paid for numerous fraudulent overtime claims.



Semiannual Report to Congress                                                                                |   37
Issue 68 | April 1 –
 September 30, 2012
Office of
             Investigations
Cleveland, Ohio, VAMC Supervisor Charged for Selling Counterfeit Goods and Copyrighted Works
A Cleveland, OH, VAMC supervisor was charged in a criminal information with trafficking in counterfeit
goods and infringement of copyrighted works. An OIG investigation revealed that the defendant solicited his
employees to purchase bootlegged DVDs and counterfeit replicas of brand name purses on VA property during
official duty hours. The total value of the counterfeit items seized from the defendant was $16,061.

Sixteen Veterans Charged with Travel Benefit Fraud
Sixteen Veterans were charged with theft of Government property and false statements. A VA OIG, VA Police
Service, and HUD OIG investigation revealed that the defendants filed fraudulent travel vouchers at the
Cleveland, OH, VAMC in order obtain travel benefits they were not entitled to receive. The loss to VA is over
$242,000.

Veteran Sentenced for Submitting False Travel Benefit Claims and Threats
A Veteran was sentenced to
30 months’ incarceration
and ordered to pay $5,867 in
restitution after pleading guilty
to false statements and threats
against a Government official.
An OIG investigation revealed
that between November 2008
and May 2011, the defendant
submitted 181 fraudulent claims
to the Hampton, VA, VAMC
for travel benefits totaling
$8,271. After the subject was
interviewed and benefits were
terminated, the Veteran made
threats to harm the case agent.

Veterans Indicted for Travel Benefit Fraud
Two Veterans were indicted for bribery, conspiracy to defraud the U.S. Government, and false claims.
Previously, five other Veterans and two Seattle, WA, VAMC travel clerks were charged in this case. An OIG
investigation revealed that the seven Veterans participated in a scheme with the VAMC travel clerks to submit
inflated and fictitious travel benefit vouchers. The VA employees processed the vouchers and then demanded
kickbacks from the Veterans. The loss to VA is estimated to be over $150,000.

Veteran Sentenced for Travel Benefit Fraud
A Veteran was sentenced to 6 months’ incarceration, 36 months’ probation, and ordered to pay $27,000 in
restitution to VA after pleading guilty to theft. An OIG investigation revealed that the defendant submitted
approximately 200 fraudulent claims for travel benefits.


Veterans Benefits Administration Investigations
VBA administers a number of financial benefits programs for eligible Veterans and certain family members,
including VA guaranteed home loans, education, insurance, and monetary benefits. Investigations routinely
concentrate on payments made to ineligible individuals. For example, a beneficiary may deliberately feign a


38   |                                                                         VA Office of Inspector General
                                                                               Issue 68 | April 1 –
 September 30, 2012
                                                                                       Office of
                                                                                                     Investigations
medical disability to defraud the VA compensation program. With respect to VA guaranteed home loans,
OIG conducts investigations of loan origination fraud, equity skimming, and criminal conduct related to
management of foreclosed loans or properties. VA appoints fiduciaries for Veterans in receipt of VA benefits who
are deemed incompetent and for minor children who are receiving VA benefits. OIG investigates allegations of
fraud committed by these fiduciaries.

OIG’s Information Technology and Data Analysis Division, in coordination with the Office of Investigations,
conducts an ongoing proactive Death Match project to identify deceased beneficiaries whose benefits continue
because VA was not notified of the death. When indicators of fraud are discovered, the matching results
are transmitted to OIG investigative field offices for appropriate action. Since the inception of the Death
Match project in 2000, OIG has identified 16,660 possible cases with over 3,092 investigative cases opened.
Investigations have resulted in the actual recovery of $64.8 million, with an additional $21.5 million in
anticipated recoveries. The 5-year projected cost savings to VA is estimated at $150 million. To date, there have
been 598 arrests on these cases with additional cases awaiting judicial action.

In the area of monetary benefits, OIG opened 286 investigations, made 77 arrests, and had a monetary impact
of over $6.1 million in fines, restitution, penalties, and civil judgments as well as more than $15.7 million in
savings, efficiencies, cost avoidance, and recoveries during this reporting period. Two-hundred sixty-three
of these investigations involved the fraudulent receipt of VA monetary benefits including deceased payee,
fiduciary fraud, identity theft, and beneficiaries fraudulently receiving these benefits. Various criminal charges
were filed against 60 defendants for these types of investigations. OIG obtained over $5.4 million in court
ordered payment of fines, restitution, and penalties and also achieved an additional $15.5 million in savings,
efficiencies, cost avoidance, and recoveries. The following
entries provide a representative sample of the type of VBA
investigations conducted during this reporting period.

Fiduciary and Wife Plead Guilty to Conspiracy and
Filing a False Tax Return in Theft of $2.3M from
Veterans
An attorney pled guilty to conspiracy and filing a false tax
return. The defendant, who served as a court appointed
guardian and Federal fiduciary for 54 Veterans, stole
approximately $2.3 million from the Veterans’ bank
accounts. The defendant also failed to report the stolen
funds to the Internal Revenue Service. The defendant’s
wife, who worked as his legal assistant, previously pled to
the same charges.

Fiduciary Sentenced for Exploitation of a Vulnerable
Adult and Forgery
The sister-in-law of a Veteran, who was also his fiduciary,
was sentenced to 7 years’ incarceration and ordered to pay
the Veteran $53,180 in restitution after pleading guilty to
exploitation of a vulnerable adult and forgery. An OIG
and local sheriff’s office investigation revealed that the


  Semiannual Report to Congress                                                                                 |    39
  Issue 68 | April 1 –
 September 30, 2012
Office of
             Investigations
defendant stole VA and Social Security benefits intended for the Veteran and used the stolen funds for personal
expenses.

Former Guardian Sentenced for Theft of Government Funds
A former VA approved guardian was sentenced to 27 months’ incarceration and ordered to pay $305,126 in
restitution ($197,678 to VA) after pleading guilty to theft of Government funds. A VA OIG, Social Security
Administration (SSA) OIG, and local sheriff’s investigation revealed that for 6 years the defendant embezzled
funds from two Veterans and concealed her activity by transferring funds between the two Veterans’ accounts
when filing required documentation.

Fiduciary Sentenced for Embezzlement
The daughter of a Veteran, who was also his fiduciary, was sentenced to 18 months’ incarceration, 2 years’
supervised release, and ordered to pay $244,673 in restitution for her role in the embezzlement of VA
compensation and Social Security benefits intended for her father. The defendant was previously charged in
a criminal information with misappropriation by a fiduciary and conversion of Social Security benefits. A
VA OIG and SSA OIG investigation revealed that the defendant became the Veteran’s fiduciary in 2005 and
embezzled from her father’s savings for over 3 years. After initially claiming that a VA field examiner told her
she could spend the money, she admitted to OIG agents that she fraudulently spent the money intended for the
Veteran.

Former VA Fiduciary Sentenced for Embezzling $242,000 in VA Benefits
A former VA fiduciary received a sentence of 6 months’ incarceration, 6 months’ home confinement, 3 years’
supervised release, and was ordered to pay $92,817 in restitution to her brother-in-law, a disabled Veteran. An
OIG investigation revealed that from October 2003 to April 2010, the defendant misused her position as her
brother-in-law’s fiduciary to embezzle approximately $242,000 in VA benefits. The defendant used the stolen
funds for unauthorized purposes, which included building an addition onto her house. The defendant falsified
annual accountings submitted to VA by misstating the amounts of money on deposit in the Veteran’s custodial
bank accounts.

Defendant Sentenced for Identity Theft Spanning 25 Years, $201,000 Restitution Ordered
A defendant was sentenced to 74 months’ incarceration, 48 months’ supervised release, and ordered to pay
$201,295 in restitution after pleading guilty to aggravated identity theft and theft of Government funds. A VA
OIG and SSA OIG investigation revealed that the defendant assumed the identity of an acquaintance and used
this identity for approximately 25 years. This included the defendant fraudulently enlisting in the U.S. Army
and subsequently obtaining VA and Social Security benefits using the false identity.

Loan Broker Sentenced for Fraud
A loan broker was sentenced to 63 months’ incarceration, 3 years’ supervised release, and ordered to pay
restitution after pleading guilty to wire fraud, aggravated identity theft, making false statements on a loan
application, and concealing assets in bankruptcy. A VA OIG and HUD OIG investigation determined that the
defendant fabricated VA certification letters that were subsequently used to establish the credit worthiness of
buyers for three different properties. These properties were subsequently listed as assets in bankruptcy filings.
The loss to three banks was $1,033,500.




40   |                                                                           VA Office of Inspector General
                                                                                 Issue 68 | April 1 –
 September 30, 2012
                                                                                   Office of
                                                                                                Investigations
Huntington, West Virginia, VARO Employee Indicted for Forging U.S. Department and Agency
Seals
A Huntington, WV, VARO employee was indicted for forging U.S. department and agency seals and applying
them onto approximately 2,800 counterfeit military certificates. An OIG, Naval Criminal Investigative Service
(NCIS), and Defense Criminal Investigative Service (DCIS) investigation revealed that from approximately
July 2008 to October 2010 the defendant operated an Internet website and e-Bay store that sold the counterfeit
military certificates bearing forged department and agency seals to the public. The investigation also revealed
that the defendant was conducting some of the business related to this scheme from his assigned VA computer.
The public fraud associated with this investigation has been determined to be approximately $50,000.

Puerto Rico Man Charged with Fraud, Used Fake Social Security Card to Obtain Over $650,000 in
VA Benefits
A Veteran was arrested for aggravated misappropriation, misrepresentation, fraud, and possession and transfer
of false documents. This investigation resulted in the securing of legal standing from the Commonwealth of
Puerto Rico’s Attorney General enabling OIG to become the first Federal law enforcement agency to have the
ability to present criminal cases directly to the Commonwealth Attorney for prosecution. The investigation
was initiated based on a referral from the St. Petersburg OIG Benefit Inspections Division, which identified
the suspected fraud during an audit of the San Juan, PR, VARO. The investigation revealed that the defendant
fraudulently received both VA compensation and pension benefits based upon multiple fraudulent enlistments in
the U.S. Army and a fraudulent Social Security card. The loss to VA is $652,508.

Veteran Sentenced for Compensation Fraud after Submitting Fraudulent DD-214s
After pleading guilty to making false statements, a Veteran was sentenced to 10 months’ incarceration, 3 years’
supervised release, and ordered to pay restitution to VA and the Navy in the amounts of $26,367 and $93,029,
respectively. An OIG and DCIS investigation revealed that the defendant submitted a fraudulent DD-214 to
VA and the Navy indicating that he had been awarded a Purple Heart and a Combat Infantry Badge and that
he served 6 years in the Army. The fraudulent DD-214 allowed the defendant to qualify for VA compensation
benefits for PTSD. He then used the fraudulent DD-214 to generate a second DD-214, which was used as the
basis to fraudulently receive a military retirement.

Veteran Arrested for Theft of Government Funds
A Veteran was indicted and subsequently arrested for theft of Government funds. A VA OIG, U.S. Postal
Service (USPS) OIG, and SSA OIG investigation revealed that the defendant, who was in receipt of VA individual
unemployability benefits as well as other Federal disability benefits, reported to VA that he was unemployed and
had no income. The investigation determined that the defendant was employed as a bishop of a church and was
the owner and operator of a daycare center. The total Government loss is approximately $900,000, with a loss to
VA of approximately $221,500.

Veteran Sentenced for Theft of Government Funds
A Veteran was sentenced to 48 months’ incarceration, 3 years’ supervised release, and ordered to pay $668,647
in restitution, to include $252,051 to VA. A VA OIG, IRS Criminal Investigation Division, SSA OIG, and
Department of Education OIG investigation resulted in the defendant and his wife being convicted at trial
of multiple charges of tax fraud, VA compensation fraud, Education fraud, and Social Security fraud. The
defendant fraudulently received VA individual unemployability benefits since 1986.




Semiannual Report to Congress                                                                               |     41
Issue 68 | April 1 –
 September 30, 2012
Office of
             Investigations
Remarried Husband of Deceased Veteran Sentenced for Theft of VA Benefits
The remarried husband of a deceased Veteran was sentenced to 366 days’ incarceration, 24 months’ supervised
release, a $10,000 fine, ordered to pay VA restitution of $185,458 (already paid), and to refrain from handling
monetary or business affairs for any business or organization. The defendant had previously pled guilty to
conversion of Government funds. An OIG investigation revealed that on three separate occasions the defendant
falsely certified to VA that he had not remarried in order to continue to receive Dependency and Indemnity
Compensation (DIC) benefits.

Veteran Sentenced for Fraudulent PTSD Claim
A Veteran pled guilty to health care fraud and was sentenced to 24 months’ incarceration and ordered to pay
$144,885 in restitution to VA, which included $123,520 paid to the Veteran for a fraudulent PTSD claim and
additional funds paid to his daughter for education benefits that were not allowed by his subsequent 20 percent
service-connected rating. An OIG investigation determined that the defendant fraudulently claimed to have
PTSD and loss of the use of his extremities in order to receive additional VA benefits.

Veteran Charged with Making False Statements
A Veteran was charged with making false statements after a VA OIG and Department of Transportation OIG
investigation revealed that while the defendant was receiving VA compensation benefits for chronic obstructive
pulmonary disease (COPD), he had reported to the Federal Aviation Administration (FAA) that he was not
diagnosed with a lung disease, had no other illness or disability, did not visit a health professional in the last
3 years, and did not receive medical disability benefits. The defendant’s FAA license has been suspended and his
VA compensation benefits for COPD were terminated. The loss to VA is $51,237.

Veteran Pleads Guilty to Theft of Government Funds after Making False Claims
A Veteran pled guilty to the theft of Government funds after an OIG investigation revealed that he submitted
a false claim for PTSD to VA claiming that he was wounded during a mortar attack in Beirut, Lebanon. The
defendant provided VA with a fraudulently obtained Purple Heart certificate to support his claim of having a
combat-related injury. A review of the defendant’s military records revealed that he was never deployed to a
combat area. The defendant admitted that he purchased the Purple Heart certificate from an Internet vendor.
The loss to VA is $24,488.

Veteran Arrested for Compensation Fraud
A Veteran was indicted and subsequently arrested for mail fraud, theft, false statements, and using a fictitious
name or address. The defendant, who was receiving VA benefits for individual unemployability, reported to
VA on multiple occasions that he was unemployed. An OIG and U.S. Postal Inspection Service investigation
revealed that the defendant falsely claimed to have developed a drug that provided a cure for various ailments
including human immunodeficiency virus and cancer. In return for selling the rights of his product to a
California-based pharmaceutical company, the defendant received $150,000 and several hundred shares in
the company. The defendant received additional income by selling his shares to other Veterans and receiving
consulting fees from the pharmaceutical company.

Widow Arrested for Grand Theft
The widow of a deceased active duty service member was arrested for grand theft. An OIG, NCIS, and local
police investigation determined that the defendant failed to notify VA of her remarriages since the death of her
third husband in 2005. The defendant further instructed her most recent husband to keep their marriage a
secret so she would not lose her VA benefits. The defendant is also charged with stealing over $5 million from
her former employer, former mother-in-law, and DoD. The loss to VA is $73,449.


42   |                                                                           VA Office of Inspector General
                                                                                 Issue 68 | April 1 –
 September 30, 2012
                                                                                   Office of
                                                                                                 Investigations
Veteran Indicted for VA Compensation Fraud
A Veteran was indicted for theft of Government funds. The defendant had been rated to receive compensation at
the 100 percent rate for PTSD based on her fraudulent reporting to VA that she was housebound and unable to
function in society. An OIG investigation revealed that during this time the defendant attended classes, earned
degrees in Education, and since 2006 was employed as an elementary school teacher. The loss to VA is $205,402.

Veteran and Spouse Indicted for Fraud
A Veteran and his spouse were indicted for conspiracy, false statements, theft of Government funds, and SSA
fraud. A VA OIG, SSA OIG, Federal Bureau of Investigation (FBI), and U.S. Air Force investigation revealed that
the defendants conspired to fraudulently obtain public money from VA and SSA by providing false statements
and documents, which reflected that the Veteran had participated in Special Operations combat duty in Vietnam
and Iran while a member of the U.S. Air Force. The loss to VA is approximately $330,000.

Veteran Charged with Mail Theft and Aggravated Identity Theft
A Veteran was charged with mail theft and aggravated identity theft after an OIG investigation revealed that
she assumed the identities of six other Veterans in order to receive $18,000 in advanced education payments
under the Post-9/11 GI Bill. When interviewed, the defendant confessed that while on active duty she obtained
a personnel roster that contained personal identifiers of service members. After the defendant was discharged,
she used the list to assume the identities of the Veterans in order to request advance education payments online.
The defendant had the checks, in the names of the other Veterans, mailed to her address and then created false
powers of attorney in order to negotiate the checks.

Veteran Sentenced for Attempting to Defraud VA
A Veteran was sentenced to 5 years’ probation after pleading guilty to possession of a false document with intent
to defraud the United States. An OIG investigation revealed that the defendant attempted to defraud a VA
Educational Assistance Program. During the course of the investigation, the Veteran presented an altered DD­
214 to an OIG agent posing as a VA benefits officer.

Veteran’s Girlfriend Sentenced for Fraud
The girlfriend of a Veteran was sentenced to 5 years’ probation and ordered to pay VA $167,317 in restitution
after conspiring to structure a business in her name in order to conceal the Veteran’s income from VA. An OIG
investigation revealed that the Veteran and his girlfriend operated a business for over 8 years while the Veteran
received VA pension benefits and co-pay exempt VA health care. The investigation further revealed that the
Veteran was also selling his VA-prescribed morphine tablets. Drug charges are pending against the Veteran.

Son of Deceased VA Beneficiary Sentenced for Theft of VA Benefits
The son of a deceased VA beneficiary was sentenced to 6 months’ confinement in a half-way house, 36 months’
probation, and ordered to pay $46,000 in restitution after pleading guilty to theft of public money. An OIG
investigation revealed that the defendant stole VA funds from his deceased mother’s bank account after his
mother’s death in April 2003.

Son of Deceased VA Beneficiary Sentenced for Theft
The son of a deceased VA beneficiary was sentenced to 90 days’ incarceration, 3 years’ probation, and ordered to
pay $103,866 in restitution after pleading guilty to theft of Government funds. An OIG investigation revealed
that the defendant stole $103,866 in VA funds that were issued after his father’s death in February 2003.




Semiannual Report to Congress                                                                               |   43
Issue 68 | April 1 –
 September 30, 2012
Office of
             Investigations
Granddaughter of Deceased Beneficiary Arrested for Theft
The granddaughter of a deceased VA beneficiary was indicted and subsequently arrested for theft, wire fraud,
and Social Security fraud. A VA OIG, OPM OIG, SSA OIG, HUD OIG, and U.S. Secret Service investigation
revealed that the defendant fraudulently received, forged, and negotiated VA and OPM benefit checks issued
after her grandmother’s death in April 1986 until June 2007. In addition, the defendant failed to disclose her
fraudulently obtained VA and OPM benefit income to the SSA and HUD from which she was also obtaining
benefits. The total Government loss is approximately $222,641.

Friend of Deceased Veteran Sentenced for Stealing VA Funds
The friend of a deceased Veteran was sentenced to 12 months’ incarceration, 3 years’ probation, and ordered
to pay $177,824 in restitution after an investigation conducted by OIG and FBI revealed that the defendant
attempted to hide withdrawals from the deceased Veteran’s bank account by transferring funds through two
PayPal accounts into the defendant’s bank account.

Girlfriend of Deceased Beneficiary Sentenced for Theft of VA Funds
The girlfriend of a deceased VA beneficiary was sentenced to 10 months’ incarceration, 36 months’ probation,
and ordered to pay $56,000 in restitution after pleading guilty to making false statements. An OIG investigation
revealed that the defendant obtained, forged, and negotiated VA checks intended for a Veteran after his death in
October 2006 by submitting forged employment questionnaires to VA.

Defendant Sentenced for Theft of Government Funds
A defendant was sentenced to 35 months’ incarceration, 3 years’ supervised release, and ordered to pay $79,799
in restitution to the Government, including $18,360 to VA. The defendant previously pled guilty to a criminal
information charging her with felony theft and theft of Government funds. An OIG, SSA OIG, and local police
investigation determined that the defendant received benefits as part of several fraudulent schemes involving VA,
SSA, Department of the Treasury, and the Missouri Department of Social Services. The defendant admitted to
stealing funds from a deceased VA beneficiary who died in August 2008.


Other Investigations
OIG investigates allegations of bribery and kickbacks, bid rigging and antitrust violations, false claims submitted
by contractors, and other fraud relating to VA procurement activities. In the area of procurement practices,
OIG opened 20 cases, made 10 arrests, and obtained nearly $739.8 million in fines, restitution, penalties, and
civil judgments. The monetary impact includes $733,612,600 in recoveries resulting from an investigative case
brought against GlaxoSmithKline under the qui tam provisions of the False Claims Act, P.L. 111-148.

OIG also investigates theft of IT equipment or data, network intrusions, and child pornography. In the area of
information management crimes, OIG opened five cases, made two arrests, and achieved $45,258 in savings,
efficiencies, cost avoidance, and recoveries.

Contractor Sentenced for Service-Disabled Veteran-Owned Small Business Fraud
A VA contractor was sentenced to 41 months’ incarceration, 36 months’ supervised release, and ordered to pay
a $30,000 fine and a $600 special assessment. The sentence was based on the defendant’s conviction, following
a 5 day trial, to major frauds against the Government, making false statements to a Federal law enforcement
officer, and witness tampering. A VA OIG, Small Business Administration (SBA) OIG, and U.S. Army Criminal
Investigation Command (CID) investigation determined that from June 2007 to June 2010 the defendant falsely



44   |                                                                           VA Office of Inspector General
                                                                                Issue 68 | April 1 –
 September 30, 2012
                                                                                    Office of
                                                                                                 Investigations
claimed that he was both a Veteran and/or a disabled Veteran in connection with VA or U.S. Army construction
contracts that were set-aside for either Veterans or disabled Veterans and valued at approximately $16 million.

VA Contractor Charged with Conspiracy to Commit Wire Fraud
A VA contractor was charged in a criminal information with conspiracy to commit wire fraud and is subject
to forfeiture of his assets in an amount not greater than $38,000. A VA OIG, General Services Administration
OIG, SBA OIG, DOL OIG, and U.S. Army CID investigation revealed that the defendant falsely represented to
various Government agencies that the company was owned and managed by a minority and service-disabled
Veteran in order to get Federal government contract awards set aside for disadvantaged minority and service-
disabled Veteran-owned and operated businesses.

Federal Contractor Sentenced for SDVOSB Fraud
A Federal contractor was sentenced as a corporation to 3 years’ probation and a $5,000 fine after pleading guilty
to wire fraud relating to a $218,241 Historically Underutilized Business Zone contract. An OIG investigation,
conducted with eight other agencies, revealed that the contractor had been part of a fraudulent scheme that
involved an additional $21,511,002 in SDVOSB contracts.

Federal Contractor Sentenced for Fraud
A Federal contractor was sentenced as a corporation to 3 years’ probation and a $65,000 fine after pleading guilty
to wire fraud relating to a $274,283 Historically Underutilized Business Zone (HUBZone) contract and making
false statements relating to the Federal Surplus Property Program. An OIG investigation, conducted with eight
other agencies, revealed that the contractor had been a part of a fraudulent scheme which involved $21,511,002
in SDVOSB contracts, $1,657,231 in HUBZone contracts, $613,915 in minority 8(a) contracts, and $1,200,000 in
fraudulently secured Federal surplus property.

VA Contractor Charged with Conspiracy to Commit Wire Fraud
Authorities filed a criminal information against a VA contractor, charging him with conspiracy to commit wire
fraud. If convicted, the contractor is also subject to a criminal forfeiture of up to $400,000 of his assets. OIG
took part in a multiagency investigation that revealed the defendant submitted statements to SBA and other
Government agencies falsely representing that the business was owned and managed by a service-disabled,
minority Veteran in order to qualify for contracts set aside for such Veteran-owned and operated businesses.

Veteran Sentenced for Sale of Counterfeit Agency Seals
A Veteran was sentenced to 36 months’ incarceration, 36 months’ supervised release, and ordered to pay $43,780
in restitution to over 600 victims for possession and sale of counterfeit U.S. agency seals and impersonating
a Federal officer or employee. The defendant was also ordered to abandon all property previously seized by
OIG during the execution of a Federal search warrant. A multi-agency investigation, led by OIG, revealed that
the defendant was operating an internet printing business that sold counterfeit military awards and training
certificates from all military service branches, as well as law enforcement awards and training certificates.

Former West Los Angeles, California, VAMC Employee Convicted of Possession of Child
Pornography
A former West Los Angeles, CA, VAMC employee was found guilty at trial of possession of child pornography,
which was found in his residence located on the grounds of the West Los Angeles VAMC. The defendant is
currently incarcerated after having previously pled guilty to the sexual abuse of his daughter.




Semiannual Report to Congress                                                                               |   45
Issue 68 | April 1 –
 September 30, 2012
Office of
             Investigations
Former Northport, New York, VAMC Employee Arrested for Child Pornography
A former Northport, NY, VAMC employee was arrested after being indicted for making a false statement
and accessing child pornography with intent to view. An OIG and local police investigation revealed that the
defendant was viewing child pornography on his VA computer and lied to investigators about his activity. The
defendant was arrested without incident following an appointment with his probation officer relating to a
previous conviction for molesting a family member who was a minor.

Veteran Pleads Guilty to Possession of Child Pornography at Phoenix, Arizona, VAMC
A Veteran pled guilty to possession of child pornography after an OIG investigation revealed that he was viewing
child pornography on his personal computer at the Phoenix, AZ, VAMC. A search warrant and subsequent
forensic examination of the defendant’s laptop and related memory card devices identified approximately 110
digital images and 77 digital videos depicting child pornography. The defendant remains in custody pending
sentencing.

Physician Sentenced for Possession of Child Pornography and Health Care Fraud
A physician who owned a medical services company was sentenced to 72 months’ incarceration after pleading
guilty to possession of child pornography and health care fraud. A VA OIG, OPM OIG, FBI, Health and Human
Services OIG, and DCIS investigation revealed that the defendant defrauded VA and other Federally funded
insurance programs by submitting false claims and fraudulent invoices for the remote monitoring of nerve
conduction studies. The investigation revealed that the physician was paying untrained, non-medical personnel
to monitor the procedures and impersonate him on internet chat logs to make it appear as though he was
present. During the course of the investigation, agents executed search warrants and seized several computers.
Forensic analysis of the defendant’s computer revealed that he was spending most of his time viewing child
pornography while he was allegedly monitoring nerve conduction studies. The loss to VA is $64,759. A global
settlement is currently being negotiated.

Defendant Pleads Guilty to False Statements
A defendant pled guilty to making a false statement relating to a credit application. A VA OIG and HUD
OIG investigation revealed that the defendant purchased homes under false pretenses and then sold them to
individuals who were unaware of the existing mortgages. The loss to the Government is over $400,000, with
approximately $48,000 in losses to VA.

U.S. Postmaster Pleads Guilty to Theft of Mail Containing Controlled Substances
A U.S. Postmaster pled guilty to theft of mail after a VA OIG and USPS OIG investigation revealed that
he intercepted 14 packages containing controlled substances being shipped from the Murfreesboro, TN,
Consolidated Mail Outpatient Pharmacy to Veterans in Louisiana. A search incident to arrest disclosed a satchel
in the defendant’s locker containing additional VA narcotic bottles.

USPS Contract Employee Arrested for Theft of VA Drugs
A USPS contract truck driver was indicted and subsequently arrested for theft of mail. A VA OIG and USPS
investigation revealed that during a 6 month period the defendant stole approximately 9,600 pills of VA
controlled medication and more than 3,000 prescription pills from a non-VA hospital located in Asheville, NC.
The defendant admitted to stealing the drugs for his own use and to sell.




46   |                                                                        VA Office of Inspector General
                                                                              Issue 68 | April 1 –
 September 30, 2012
                                                                                   Office of
                                                                                                 Investigations
Former USPS Employee Pleads Guilty to Possession of a Controlled Substance by Fraud and Theft of
Mail
A former USPS employee pled guilty to possession of a controlled substance by fraud and theft of mail. During
a VA OIG and USPS OIG investigation, the defendant was found in the parking lot of a USPS processing plant
with opened VA packages containing controlled substances. The VA had reports of lost and missing controlled
medications processed through the same plant for a number of years.

Subject Arrested for Theft of VA Gravesite Markers
An OIG and State police investigation resulted in the arrest of a subject who stole bronze VA gravesite markers
from his employer and then sold them to a scrap yard. The defendant was employed by a local funeral home and
was not given permission by his employer to dispose of the markers. The markers were returned to the funeral
home and properly placed at the appropriate Veteran gravesites in time for Memorial Day.


Administrative Investigations
OIG’s Administrative Investigations Division independently reviews allegations and conducts administrative
investigations generally concerning high-ranking senior officials and other high profile matters of interest to
the Congress and the Department. During this reporting period, OIG opened 7 and closed 14 administrative
investigations. The Division investigated 35 allegations, 25 of which were substantiated. This work resulted
in the issuance of 5 reports containing 67 recommendations for administrative or corrective action, including
one joint administrative investigation conducted in cooperation with OIG’s Office of Audits and Evaluations
concerning wasteful expenditures related to two 2011 HRA conferences held in Orlando, FL. The summary for
this report can be found under the Joint Reviews and Settlements section.

The Administrative Investigations Division issues advisory memoranda when an allegation has been
substantiated and VA needs to take some action, but where the violation does not rise to the level of a formal
recommendation. The Division also issues administrative memoranda in cases where one or more of the
allegations were not substantiated. During this reporting period, the Administrative Investigations Division
also issued 6 advisory memos with 10 suggestions for corrective action and 6 administrative memos. OIG also
obtained $19,080 in dollar recoveries.

Senior VHA Official Engaged in Improper Contracting Activities and Was Not Candid with
Investigators, Health Administration Center, Denver, Colorado
An administrative investigation found that a VHA Senior Official engaged in improper contracting activities
when she instructed her subordinates to issue sole-source task orders to one specific contractor and in a conflict
of interest when she failed to maintain an arm’s-length relationship with two VA contractors. She also violated
VA policy when she sent VA contract proprietary information to her personal home computer and when she
e-mailed a VA OIG draft audit report to one of the contractors about 1 month prior to her program office
awarding them a task order that was consistent with the audit report. Further, she did not testify freely and
honestly concerning her relationship to contractors and her involvement in the decision to award and administer
the task orders. The investigation also disclosed that a VHA Senior Contracting Officer did not comply with
Federal Acquisition Regulations pertaining to orders placed against Federal Supply Schedule contracts.




Semiannual Report to Congress                                                                               |    47
Issue 68 | April 1 –
 September 30, 2012
Office of
              Investigations
VAMC Senior Official Failed to Promptly Report Possible Felony to OIG and Interfered with OIG
Investigation
An administrative investigation found that a VAMC Senior Official failed to ensure that information about
a possible criminal matter involving a felony was promptly referred to the OIG Office of Investigations. In
addition, the Senior Official interfered with the OIG investigation when he asked a subordinate to provide him
key information about events that he reasonably knew OIG would ask him about during his interview, and he
did not testify freely and honestly in connection with the OIG investigation.

Falsification of Employment Record, Failure to Follow Policy, and Misuse of Position Substantiated
in VALU
An administrative investigation found that a VA Learning University (VALU) Senior Official falsified an
Optional Form 306 (OF306) as part of his VA employment when he failed to disclose pertinent information,
including a proposed removal and subsequent mutual agreement associated with his former Federal
employment. In addition, VA management officials failed to follow VA policy when they did not conduct
pre-employment checks on the Senior Official prior to appointing him to a senior leader position; the Senior
Official failed to follow requirements related to official travel; and he misused his position when he forwarded a
fraternity brother’s resume to a VA contractor doing business within VALU.

Investigation Finds Office of Research and Development Locality Pay and Travel Claims Improper
An Office of Research and Development (ORD) employee lived and worked outside of Washington, DC, yet
received the higher Washington, DC, locality pay, resulting in $19,080 of improper pay. An ORD senior official
was aware for 2 years of the improper pay and did not take timely action. In addition, ORD employees failed to
follow Federal travel regulations concerning travel claims.


Assaults and Threats Made Against VA Employees
During this reporting period, OIG initiated 28 criminal investigations resulting from assaults and threats made
against VA facilities and employees. Twenty-one defendants were charged with related charges as a result of the
investigations. OIG investigative work resulted in the following:
     •	   A Veteran was sentenced to 5 years’ probation and ordered to write a letter of apology to the victim after
          having previously pled guilty to assaulting a VA police officer at the Seattle, WA, VAMC. An OIG and
          VA Police Service investigation revealed that the defendant checked into the emergency room (ER) and
          informed an ER nurse that he was having suicidal thoughts to include “suicide by cop.” When a VA
          police officer attempted to conduct a security screening, the defendant failed to comply with the officer’s
          instructions and assaulted the officer. During the struggle, the defendant was able to obtain the officer’s
          baton and attempted to take his weapon until subdued by the officer and other responders. The assault
          resulted in injuries to the officer.
     •	   A Veteran pled guilty to forcibly touching a VA nurse. An OIG, VA Police Service, and local police
          investigation revealed that the defendant sexually assaulted a VA RN during an appointment at the
          Rochester, NY, CBOC. When interviewed, the defendant admitted to placing the nurse’s hand on his
          genitals while the nurse was performing a blood draw at the phlebotomy clinic.
     •	   A Veteran pled guilty to assaulting the Reno, NV, VAMC Police Chief. The defendant, while intoxicated,
          became disruptive in the medical center waiting area, made threats toward his primary care physician,
          and intimidated staff and patients. The chief arrived on scene, identified himself to the defendant, and
          attempted to calm the situation. The defendant subsequently struck the chief in the face causing injuries.


48   |                                                                             VA Office of Inspector General
                                                                                   Issue 68 | April 1 –
 September 30, 2012
                                                                                     Office of
                                                                                                   Investigations
     •	   As a result of an OIG and VA Police Service investigation, a Veteran was sentenced to time served and
          2 years’ supervised release, ordered to participate in a substance abuse and MH treatment program, and
          banned from seeking treatment at the White River Junction, VT, VAMC. The defendant previously pled
          guilty to felony assault with a dangerous weapon. The investigation revealed that while in the VAMC ER,
          the defendant locked the door, took a scalpel from a hospital cart, and used the scalpel to gain control of
          a nurse by holding it to her throat. VA Police Service officers were able to subdue the defendant, and the
          nurse sustained no injuries.
     •	   Authorities indicted the grandson of a Veteran for assaulting a Jackson, MS, VAMC police officer.
          An OIG investigation revealed that the defendant grazed the VA police officer with his vehicle as he
          attempted to flee the scene while the officer was in the process of issuing him a traffic citation for
          a moving violation. Subsequent to grazing the officer, the defendant continued his attempt to flee,
          accelerating at a high rate of speed and steering towards the officer, who had repositioned himself in an
          attempt to stop the defendant. The officer was able to move out of the way and avoid serious injury. The
          defendant fled the medical center but returned after a few hours and was arrested by OIG and VA Police
          Service for felony assault on a Federal officer.
     •	   A Veteran pled guilty to assault on a Federal employee after an OIG investigation revealed that he
          physically assaulted and attempted to sexually assault a female VA social worker at the Phoenix, AZ,
          VAMC. The Veteran removed his clothing while in the employee’s office and used physical force to
          prevent the employee from leaving the office. The defendant remains in custody pending sentencing.
     •	   A VA employee was indicted for making terroristic threats. An OIG investigation revealed that
          the defendant told several staff members at a private medical center that he intended to kill his VA
          supervisors and the acting Assistant Director at the Atlanta, GA, VAMC if he did not receive a favorable
          decision regarding his pending Equal Employment Opportunity complaint. The defendant threatened
          to shoot and kill the supervisors during the medical center’s weekly staff meeting and to kill the acting
          Assistant Director in his office. The defendant also stated that he would kill anyone else, including VA
          Police Officers, if they attempted to stop him.
     •	   A Veteran was sentenced to 15 months’ incarceration, 1 year of supervised release, to include mandatory
          “no victim” contact during the entire time, after having previously been convicted of threatening two VA
          employees. An OIG investigation revealed that the defendant made a series of threatening phone calls to
          two VA employees at their residences.
     •	   A Veteran was sentenced to 18 months’ incarceration, 36 months’ supervised probation, and ordered
          to attend MH treatment programs after pleading guilty to influencing, impeding, or retaliating against
          a Federal official. An OIG investigation determined that the defendant telephoned the National Call
          Center in Muskogee, OK, angry about a benefits issue, and threatened VA employees working at the
          Columbia, SC, VARO. The defendant threatened to wait outside the facility and “bash in the face” of
          whoever was stealing his money and kill them. The defendant stated he was willing to go to jail for his
          actions.
     •	   A Veteran was arrested and subsequently indicted for intentionally intimidating and impeding a Federal
          employee engaged in his official duties. An OIG and VA Police Service investigation revealed that
          the defendant threatened to return to the Spokane, WA, VAMC with a firearm after being denied an
          unscheduled refill of his narcotics. This was the third such incident in the past 2 years involving the
          defendant referencing firearms in an effort to intimidate VA staff. The defendant’s criminal history
          included a previous arrest and conviction for bringing an assault rifle and two handguns onto the
          medical center property in 2005.

Semiannual Report to Congress                                                                                  |    49
Issue 68 | April 1 –
 September 30, 2012
Office of
              Investigations

Fugitive Felons Arrested with OIG Assistance
OIG continues to identify and apprehend fugitive Veterans and VA employees as a direct result of the OIG
Fugitive Felon Program. To date, 47.2 million felony warrants have been received from the National Crime
Information Center and participating states resulting in 60,658 investigative leads being referred to law
enforcement agencies. Over 2,272 fugitives have been apprehended as a direct result of these leads. Since
the inception of the OIG Fugitive Felon Program in 2002, OIG has identified $942.2 million in estimated
overpayments with an estimated cost avoidance of $1.08 billion. During this reporting period, OIG opened
32 and closed 34 fugitive felon investigations. Investigative work resulted in the arrest of 29 fugitive felons,
including 4 VA employees. Based on the information provided by OIG, at least four additional arrests were
made by other law enforcement agencies. Apprehensions included the following:
     •	   A Veteran was arrested without incident at the Orange City, FL, VA Outpatient Clinic by local police
          with the assistance of OIG. The defendant was wanted by the Albany, OR, Police Department on a felony
          warrant for luring a minor, furnishing sexually explicit material to a child, private indecency, online
          sexual corruption of a child, and sexual abuse.
     •	   OIG assisted a U.S. Marshals Service Fugitive Apprehension Task Force with locating and apprehending
          a Veteran at the Little Rock, AR, VAMC. The Veteran was wanted for Failure to Appear for Felony
          Sexual Assault in the Second Degree.
     •	   OIG and VA Police Service arrested a Bonham, TX, VAMC employee for a probation violation stemming
          from an assault by strangulation charge.
     •	   A Bonham, TX, VAMC domiciliary resident was arrested by the local police with the assistance of OIG
          and VA Police Service. The Veteran was wanted on an outstanding warrant for felon in possession of a
          weapon.




50   |                                                                            VA Office of Inspector General
                                                                                  Issue 68 | April 1 –
 September 30, 2012
             Office of
                            Management and Administration
The Office of Management and Administration provides comprehensive support services that promote
organizational effectiveness and efficiency through reliable and timely management and administrative support,
and through products and services that promote the overall mission and goals of OIG.


Operations Division
The Operations Division conducts follow-up reporting and tracking of OIG report recommendations; provides
strategic, operational, and performance planning; prepares and publishes OIG-wide reports, such as the
Semiannual Report to Congress; develops OIG policies and procedures; and electronically distributes all
OIG oversight reports. The Operations Division also promotes organizational effectiveness and efficiency by
managing all OIG contracting and providing reliable, timely human resources management, and related support
services.


Information Technology and Data Analysis Division
IT staff promote organizational effectiveness and efficiency by ensuring the accessibility, usability, and security
of information assets; developing, maintaining, and enhancing the enterprise database application; facilitating
reliable, secure, responsive, and cost-effective access to VA databases and e-mail by all authorized employees;
providing internet document management and control; and providing support to all OIG components.

Data Analysis staff provide automated data processing technical support of OIG and other Federal and
governmental agencies requiring information from VA files. Data Analysis Division products facilitate the
identification of fraud-related activities and support OIG comprehensive initiatives that result in solutions
beneficial to VA.


Administrative and Financial Operations Division
The Administrative and Financial Operations Division promotes OIG organizational effectiveness and efficiency
by providing reliable and timely management and administrative support services such as employee travel, credit
card purchases, and property management.


Budget Division
The Budget Division promotes organizational effectiveness by providing a full complement of budgetary
formulation and execution services to management and organizational components, including formulation
of submissions and operating plans; monitoring allocations, expenditures, and reserves; conducting financial
analyses; and developing internal budget policies.


Hotline Division
The Hotline Division is the focal point for contacts made to OIG, operating a toll-free telephone service 5 days
a week, Monday through Friday, from 9:00 AM to 4:00 PM Eastern Time. OIG receives phone calls, letters, and
e-mails from employees, Veterans, the general public, Congress, the Government Accountability Office, and
other Federal agencies reporting issues of criminal activity, waste, abuse, and mismanagement. During this
reporting period, the Hotline received 13,406 contacts, 693 of which became OIG cases. An additional 448 of


Semiannual Report to Congress                                                                                   |     51
Issue 68 | April 1 – September 30, 2012
Office of
     Management and Administration
the Hotline contacts became OIG non-case referrals. The Hotline makes non-case referrals to the appropriate
VA organization if the allegation does not rise to the level of a case but appears to warrant VA action.

The Hotline also closed 554 cases during this reporting period, substantiating allegations 44 percent of the time.
During FY 2012, external Hotline cases resulted in 550 administrative sanctions and corrective actions and
$6.8 million in monetary benefits. The following cases were initiated as a direct result of Hotline contacts.

Review of Allegations Results in Security Improvements at Puget Sound HCS
The VA Office of Security and Law Enforcement reviewed hotline allegations concerning the Police Service
at the VA Puget Sound HCS, Seattle, WA. Office of Security and Law Enforcement agents substantiated
problems related to radio equipment, facility alarms, law enforcement information systems, police procedures,
and staffing. As a result, they made numerous recommendations to improve the security of Veterans, family
members, and staff on System campuses.

VBA Delays Reviewing Initial Post-9/11 GI Bill School Transactions
A complainant reported that during FY 2012, VBA suspended retroactive Post-9/11 GI Bill school compliance
surveys for the 2009-2010 academic year, which was the first year VBA began making payments to students and
schools under the new program. At that time, VBA was using a software system that required claims examiners
to perform extensive manual actions, such as transferring or calculating data, which increased the risk that
processing errors would occur. For example, a VBA survey at a Colorado university found school errors in
819 (62 percent) of the 1,319 students’ records reviewed. The complaint alleged that suspending the reviews
would result in undetected overpayments or underpayments. VBA’s response indicated that the scope of its
surveys was reduced in FY 2012 to focus on for-profit schools, but that review of 2009-2010 enrollments would
resume in FY 2013.

VA Ends Leases for Unused Information Technology Centers
As a result of a Hotline contact, the Office of Information and Technology (OIT) terminated two leases
originated in FY 2010 for unused data storage centers in Pennsylvania and Colorado. OIT planned to store
electronic medical records in both locations as part of its National Data Center Consolidation Program.
However, in FY 2011, VA elected to shift planned data storage to DoD facilities in Missouri and Georgia as part
of the VA-DoD joint Integrated Electronic Health Record initiative. The inconsistent data storage strategies
pursued by OIT resulted in VA paying $3.7 million for the unused centers.

Inadequate Advanced Planning Threatens VISN 18 Patient Care Procurements
The VA Southwest Health Care Network, Mesa, AZ, concluded that during FY 2011, many contracts affecting
the continuity of patient care had expired or would have expired without urgent interventions. Network officials
said this occurred because program offices did not submit their requirements on a timely basis or submitted
inadequately supported requests for limiting competition. To address these problems, the VISN provided
additional training to responsible program officials.

VARO Reduces Compensation for Incarcerated Veteran Following Hotline Tip
The results of a Seattle, WA, VARO review found that a service-connected Veteran continued to receive full
compensation payments during his incarceration. As a result of the improper payments, the VARO took action
to reduce the Veteran’s compensation, which resulted in a cost savings of $51,000 over a 3-year period.




52   |                                                                          VA Office of Inspector General
                                                                                Issue 68 | April 1 –
 September 30, 2012
                                                                  Office of
                                                                       Management and Administration
Hotline Complainants Help End Improper Payments to Ineligible Beneficiaries
A review conducted by the Philadelphia, PA, VARO and Insurance Center found that a claimant concealed a
common-law marriage in effect since 1999 in order to improperly continue receiving DIC benefits awarded
based on a previous marriage to a Veteran. The case resulted in savings of $229,911, including the avoidance of
5 years of additional benefits the claimant would have received had the complainant not disclosed the
impropriety. In a similar case, a review conducted by the St. Paul, MN, VARO found that another claimant, who
remarried in 2003, continued to receive DIC benefits improperly because the claimant failed to notify VA of the
remarriage. The case resulted in a savings of $181,456 over a 5-year period.

VHA Employee Caught Moonlighting During Official VA Tour of Duty
A review conducted by the VA Central California HCS, Fresno, CA, found that between January 2009 and
March 2012, an employee misused official time to perform remunerated teaching duties for a non-VA employer.
The HCS estimated that the misused official time was valued at $17,802. As a corrective action, the HCS
reported the employee retroactively used 384 hours of annual leave.




Semiannual Report to Congress                                                                            |   53
Issue 68 | April 1 –
 September 30, 2012
                                  Office of
                                          Contract Review
The Office of Contract Review operates under a reimbursable agreement with VA’s Office of Acquisition,
Logistics and Construction (OALC) to provide preaward, postaward, and other requested reviews of vendors’
proposals and contracts. In addition, OIG provides advisory services to OALC contracting activities. OIG
completed 48 reviews in this reporting period. The tables that follow provide an overview of OIG performance
during this reporting period.


Preaward Reviews
Preaward reviews provide information to assist VA contracting officers in negotiating fair and reasonable
contract prices and ensuring price reasonableness during the term of the contract. Thirty-one preaward reviews
identified approximately $123.8 million in potential cost savings during this reporting period. In addition to
Federal Supply Schedule proposals, preaward reviews during this reporting period included eight health care
provider proposals—accounting for approximately $18.1 million of the identified potential savings.

                   Period                   Preaward Reports Issued              Potential Cost Savings
     October 1, 2011 – March 31, 2012                 35                             $910,967,770
     April 1 – September 30, 2012                     31                             $123,847,453
     FY Total                                         66                            $1,034,815,223


Postaward Reviews
Postaward reviews ensure vendors’ compliance with contract terms and conditions, including compliance with
the Veterans Health Care Act of 1992, P.L. 102-585, for pharmaceutical products. Postaward reviews resulted
in VA recovering contract overcharges totaling over $11.7 million, including approximately $1.8 million related
to Veterans Health Care Act compliance with pricing requirements, recalculation of Federal ceiling prices,
and appropriate classification of pharmaceutical products. Postaward reviews continue to play a critical
role in the success of VA’s voluntary disclosure process. Of the 14 postaward reviews performed, 5 involved
voluntary disclosures. In all five reviews, OIG identified additional funds due. OIG recovered 100 percent of
recommended recoveries for postaward contract reviews.

                   Period                   Postaward Reports Issued                Dollar Recoveries
     October 1, 2011 – March 31, 2012                 13                               $3,136,820
     April 1 – September 30, 2012                     14                              $11,755,791
     FY Total                                         27                              $14,892,611




54    |                                                                        VA Office of Inspector General
                                                                               Issue 68 | April 1 – September 30, 2012
                                                                                   Office of
                                                                                              Contract Review
Claim Reviews
OIG provides assistance to contracting officers when contractors have filed claims against VA. The objective
of these reviews is to validate the basis of the claim and to determine that the claimed amount is supported by
accounting and other financial records. During this period OIG reviewed three claims and determined that
approximately $5.7 million of claimed costs were unsupported and should be disallowed.

                 Period                       Claim Reports Issued                Potential Cost Savings
   October 1, 2011 – March 31, 2012                    2                                $397,810
   April 1 – September 30, 2012                        3                               $5,696,079
   FY Total                                            5                               $6,093,889

VA Overpaid for Space and Services at Cleveland Facility, Increased Security Risks Also Noted
VA Management inappropriately used VA’s Enhanced Use Lease (EUL) authority to procure office space,
parking, and domiciliary services at the Louis Stokes VAMC. The space and services procured through the
EUL with Veterans Development, LLC, significantly exceeded any in-kind consideration for the Brecksville
campus. By using VA’s EUL authority, VA Management was able to circumvent the normal rules and processes
for procuring space and services, including health care services. This eliminated competition and caused VA to
overpay for space and services and caused an increased risk in security. VA Management largely disagreed with
our findings; however, our review of their response found it to be unsupported and unresponsive to our concerns
and findings.

IG Recommends 15 Steps To Improve Pricing Accuracy, Reduce Open Market Purchases in
Pharmaceutical Prime Vendor Contract
OIG conducted a review of open market purchases and to a limited extent contract purchases under VA’s
Pharmaceutical Prime Vendor contract with McKesson Corporation (McKesson). The review determined that
open market purchases were overstated due to inconsistencies in McKesson’s ordering system, many of which
were due to delays by VA in updating prices. Ultimately price adjustments were made over time to reflect correct
contract prices through McKesson’s credit and rebill process and internal pricing reviews conducted by VHA’s
Pharmacy Benefits Management. In general, VA open market purchases are increasing due to the growing
number of product shortages and allocation issues, problems that are not unique to the VA. In addition, the
lack of training and the use of known workarounds by VA staff using McKesson’s purchasing system led to
open market purchases over contract purchases. OIG made 15 recommendations to VHA and the Office of
Acquisition, Logistics, and Construction to improve pricing accuracies under the Pharmaceutical Prime Vendor
contract and to minimize open market purchases.

VA Cancels Five Set-Aside Contracts for Claims Re-Pricing After IG Finds Improper Subcontracting
to Large Business
OIG determined that Enterprise Technology Solutions, LLC (ETS) was not in compliance with the contract
provisions limiting subcontracting. OIG found that ETS, a SDVOSB concern owned by a former VA employee,
subcontracted the re-pricing requirements to Health Net, a large business for all five of its contracts. All five
contracts were awarded as SDVOSB set-asides. The USH and the Chief Procurement and Logistics Officer
agreed with our recommendation to terminate ETS’s five contracts and to conduct an assessment to determine
the value, if any, of re-pricing claims from non-VA providers. VA also concurred with our recommendation that
VA ensure requirements are written to ensure former VA employees are not given an unfair advantage and that
competition is achieved to the maximum extent practicable.

Semiannual Report to Congress                                                                               |     55
Issue 68 | April 1 – September 30, 2012
                      Other
                               Significant OIG Activities
Congressional Testimony
Assistant Inspectors General Tell Senate Veterans’ Affairs Committee That Veterans Are Not
Receiving Timely MH Evaluations and Treatment, Better Performance Metrics Needed
Linda A. Halliday, Assistant Inspector General (AIG) for Audits and Evaluations, and John D. Daigh, Jr., M.D.,
AIG for Healthcare Inspections, testified before the Committee on Veterans’ Affairs, United States Senate, on
the results of a recent OIG report, Veterans Health Administration – Review of Veterans’ Access to Mental Health
Care. OIG found that VA’s performance metrics are not a reliable measurement of Veterans’ access to MH care.
VHA did not provide first-time patients with timely MH evaluations and existing patients often waited more
than 14 days past their desired date of care for their treatment appointment. As a result, performance measures
used to report patient’s access to MH care do not depict the true picture of a patient’s waiting times to see a
MH provider. While no measure will be complete, meaningful analysis and decision-making requires reliable
data. Ms. Halliday was accompanied by Mr. Larry Reinkemeyer, Director of OIG’s Kansas City Office of Audits
and Evaluations. Dr. Daigh was accompanied by Michael Shepherd, M.D., Senior Physician in OIG’s Office of
Healthcare Inspections.

House Veterans’ Affairs Committee Hears from AIGs on Findings That Veterans Are Not Receiving
Timely Mental Health Evaluations and Treatment
Ms. Halliday and Dr. Daigh testified before the Committee on Veterans’ Affairs, United States House of
Representatives on the results of a recent OIG report, Veterans Health Administration – Review of Veterans’
Access to Mental Health Care. OIG found that the VA’s performance metrics are not a reliable measurement
of Veterans’ access to MH care. Ms. Halliday was accompanied by Mr. Larry Reinkemeyer and Dr. Daigh was
accompanied by Michael Shepherd, M.D.

AIGs Testify on VA’s Prosthetics Clinical and Purchasing Practices Before the House Veterans’
Affairs Subcommittee on Health
Ms. Halliday and Dr. Daigh testified before the Subcommittee on Health, Committee on Veterans’ Affairs,
United States House of Representatives on three OIG reports dealing with prosthetics and the delivery of care,
and contracting and supply issues, Healthcare Inspection – Prosthetic Limb Care in VA Facilities; Veterans
Health Administration – Audit of the Management and Acquisition of Prosthetic Limbs; and Veterans Health
Administration – Audit of Prosthetics Supply Inventory Management. On the clinical side, OIG found that VA
prosthetics staff were appropriately certified and that Veterans with amputations adjusted to life with their
artificial limbs as well as those in the civilian population. The study also found that Veterans with amputations
are significant users of VA health care services. OIG found that VA needs to improve contract management
and inventory management practices. Ms. Halliday was accompanied by Mr. Nick Dahl, Director of OIG’s
Bedford Office of Audits and Evaluations, and Mr. Kent Wrathall, Director of OIG’s Atlanta Office of Audits
and Evaluations. Dr. Daigh was accompanied by Robert Yang, M.D., Physician in OIG’s Office of Healthcare
Inspections.

VA Prosthetics Contracting Practices Are Subject of House Veterans’ Affairs Subcommittee on
Oversight and Investigations Hearing
Ms. Halliday testified before the Subcommittee on Oversight and Investigations, Committee on Veterans’
Affairs, United States House of Representatives, on contracting and inventory issues facing VA’s Prosthetics
program, focusing on two OIG reports, Veterans Health Administration – Audit of the Management and


56   |                                                                          VA Office of Inspector General
                                                                                Issue 68 | April 1 –
 September 30, 2012
                                                                           Other
                                                                                  Significant OIG Activities
Acquisition of Prosthetic Limbs, and Veterans Health Administration – Audit of Prosthetics Supply Inventory
Management. Our reports found that better management and oversight of contracts could save VA over
$35 million and avoid disruptions to patients. Ms. Halliday was accompanied by Mr. Dahl and Mr. Wrathall.

OIG Updates House Veteran Affairs’ Committee on Reviews of VA’s Prime Pharmaceutical Vendor
Contract
Ms. Halliday and Maureen Regan, Counselor to the Inspector General, testified before the Committee on
Veterans’ Affairs, United States House of Representatives, on the results of a recent OIG report, Review of the
Controls for the Pharmaceutical Prime Vendor Fast Pay System, and provided an update on ongoing work to
review alleged contract violations. OIG found that VA implemented controls to provide timely and accurate
payments for pharmaceutical items processed through VA’s Fast Pay system and complied with applicable
laws, regulations, and policies; however, quicker corrections of pricing differences is needed. OIG’s review of
open market purchases found that the open market purchases were significantly less than originally believed.
OIG found that the PPV was doing a good job of adjusting prices through credits and rebillings to ensure that
contract items are purchased at contract prices when VA provides data. Ms. Halliday was accompanied by
Mr. Gary Abe, Director of OIG’s Seattle Office of Audits and Evaluations. Ms. Regan was accompanied by Mr.
Michael Grivnovics, Director of OIG’s Federal Supply Schedule Division.

Accuracy and Timeliness Continue to Challenge VBA in Processing Disability Claims for Veterans,
AIG Tells House Committee on Veterans’ Affairs
Ms. Halliday testified before the Committee on Veterans’ Affairs, United States House of Representatives,
on OIG reports related to VBA’s operations. These included a series of inspections of VAROs and OIG’s
reports on Veterans Benefits Administration - Audit of 100 Percent Disability Evaluations; Audit of VA Regional
Offices’ Appeals Management Processes; and Audit of VA’s Internal Controls Over the Use of Disability Benefits
Questionnaires. OIG’s inspections and audit work have consistently shown that VAROs do not always comply
with VBA’s national policy and struggle with implementing effective workload management plans and clear
and consistent guidance to accomplish their benefits delivery mission. While VBA has made some incremental
progress through its own initiatives and in response to OIG’s prior report recommendations, more work remains
to be done. Ms. Halliday was accompanied by Mr. Reinkemeyer, Mr. Dahl, and Mr. Brent Arronte, Director of
OIG’s Bay Pines Benefits Inspections Division.

AIG for Investigations Testifies on VA’s Veteran-Owned Small Business and SDVOSB Programs
James J. O’Neill, AIG for Investigations, testified before the Subcommittee on Oversight and Investigations
and the Subcommittee on Economic Opportunities, Committee on Veterans’ Affairs, United States House
of Representatives, on OIG’s investigative work related to VA’s Veteran-Owned Small Business and SDVOSB
programs. Mr. O’Neill discussed the current case load of OIG investigations involving the SDVOSB program,
suspension and debarment actions that will exclude wrongdoers from receiving future contract awards, and
significant prosecutions resulting from OIG investigations, including one where the defendant forfeited
$1.5 million and a 2011 Jaguar Series XKR Model XK, was sentenced to serve 3 years’ probation, and ordered to
pay $1.55 million in restitution and a $60,000 fine. He concluded that by bringing criminals to justice, economic
opportunities for legitimate service-disabled Veterans should increase.

Statement by the Office of Inspector General on VA Fee Basis Program
OIG provided a statement for the record for a hearing before the Subcommittee on Health, Committee on
Veterans’ Affairs, United States House of Representatives, on OIG’s work related to VA’s purchase of health care
services from non-VA providers. Our statement focused on the seven reports that OIG issued in the last 3 years


Semiannual Report to Congress                                                                               |     57
Issue 68 | April 1 –
 September 30, 2012
Other
         Significant OIG Activities
on this topic that identified weaknesses and inefficiencies. OIG reported that VA had not established effective
policies and procedures to oversee and monitor services provided by non-VA providers to ensure they are
necessary, timely, high quality, and properly contracted and billed.


American Recovery and Reinvestment Act Oversight Activities
Enacted in February 2009, the American Recovery and Reinvestment Act of 2009 (ARRA) requires OIG to
conduct oversight of the VA projects, programs, grants, and initiatives that received a total of $1.4 billion in
funding under the Act. OIG’s program of oversight includes audits, evaluations, investigation, fraud awareness
and prevention training, and other monitoring activities covering the major VA programs that received ARRA
funding. The VA programs and the amounts of their ARRA funding include:
     •	   $1.0 billion for VHA medical facility nonrecurring maintenance (NRM) and energy projects.
     •	   $150.0 million for VHA Grants to States for extended care facilities.
     •	   $50.0 million for NCA headstone, marker, gravesite, and monument repairs; NRM, energy, and road
          repair projects; and equipment upgrades.
     •	   $150 million for VBA claims processing hiring initiative and support of Veterans economic recovery
          payments.
     •	   $45 million for OIT support of VBA implementation of the new Post-9/11 GI Bill education assistance
          programs for Veterans.

Additionally, the Act provided for an estimated $700 million for the one-time $250 economic recovery payments
to Veterans and their survivors or dependents.

As of September 30, 2012, OIG has expended $2.5 million (the entire $1.0 million OIG received under ARRA
and $1.5 million from regular appropriations) in conducting its comprehensive program of ARRA oversight.
OIG’s ARRA-related accomplishments and activities completed to date include:
     •	   Issued seven final audit and evaluation reports and one interim advisory report on VA management of
          ARRA program activities.
     •	   Conducted 598 fraud awareness training and outreach sessions across the country attended by over
          17,200 VA and other officials responsible for managing or overseeing ARRA programs and projects.
     •	   Opened 449 and closed 293 criminal investigations, including 82 convictions, 143 referrals for monetary
          reclamation, and $71,000 in recoveries related to ARRA-funded programs and projects.
     •	   Received 64 Hotline complaints of potential fraud or waste related to ARRA programs or projects.
     •	   Maintains the OIG Recovery Act Web Site, http://www.va.gov/oig/recovery, which provides access to the
          VA OIG Hotline and information on OIG ARRA reports, activities, plans, and fraud prevention training
          materials.

Under ARRA, an employee of any non-Federal employer receiving covered ARRA funds may not be discharged,
demoted, or otherwise discriminated against as a reprisal for disclosing information that the employee
reasonably believes is evidence of: 1) gross mismanagement of an agency contract or grant relating to covered
funds; 2) a gross waste of covered funds; 3) a substantial and specific danger to public health or safety related
to the implementation or use of covered funds; 4) an abuse of authority related to the implementation or use
of covered funds, or 5) a violation of law, rule, or regulation related to an agency contract or grant, awarded or


58   |                                                                            VA Office of Inspector General
                                                                                  Issue 68 | April 1 –
 September 30, 2012
                                                                            Other
                                                                                  Significant OIG Activities
issued relating to covered funds. Pursuant to the reporting requirements under this provision, OIG conducted
no investigations such as those described above. Consequently, OIG did not request or receive an extension
beyond the 180-day period for such investigations.


Peer and Qualitative Assessment Reviews
The Restoring American Financial Stability Act of 2010, P.L. 111-203, requires VA OIG to report the results of any
peer review conducted of VA OIG’s audit operation by another OIG during the reporting period or to identify
the date of the last peer review conducted by another OIG, in addition to any outstanding recommendations
that have not been fully implemented. No peer reviews were conducted on VA OIG by another OIG during this
reporting period. The last peer review was conducted by the U.S. Department of Agriculture OIG on December
23, 2009, and contained no recommendations. The next peer review of VA OIG will be initiated in October 2012
by the DOL OIG.

The Act also requires VA OIG to report the results of any peer review it conducted of another OIG’s audit
operation during the reporting period, including any outstanding recommendations that have not been fully
implemented from any peer review conducted during or prior to the reporting period. VA OIG completed a peer
review of the SSA OIG and issued the final report on August 16, 2012, which contained no recommendations.

Additionally, OIG reports that no Council of the Inspectors General on Integrity and Efficiency (CIGIE)
Qualitative Assessment Review (QAR) was conducted by another OIG during this reporting period. The last
CIGIE QAR conducted on VA OIG’s investigative operation was completed by the Department of Education
OIG in 2009. The report contained no recommendations. VA OIG conducted a CIGIE QAR of the SBA OIG’s
investigative operation and issued the final report on December 21, 2011, which contained no recommendations.


Government Contractor Audit Findings
The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each IG appointed under
the Inspector General Act of 1978 to submit an appendix on final, completed contract audit reports issued to the
contracting activity that contain significant audit findings—unsupported, questioned, or disallowed costs in an
amount in excess of $10 million, or other significant findings—as part of the Semiannual Report to Congress.
During this reporting period, OIG issued no contract review reports under this requirement.


IG Act Reporting Requirements Not Elsewhere Reported
Reviews of Legislative, Regulatory, and Administrative Proposals
OIG is required to review existing and proposed legislation and regulations and to make recommendations
concerning the impact of such legislation or regulations on the economy, efficiency, or the prevention and
detection of fraud and abuse in the administration of programs and operations administered or financed by VA.
During this reporting period, OIG reviewed 359 proposals and made 31 comments.

Refusals to Provide Information or Assistance
The Inspector General Act of 1978, as amended, authorizes OIG to have access to all VA records, documents, or
other materials related to VA programs and operations. The Act also authorizes OIG to request information
or assistance from any Federal, State, or local government agency or unit as necessary in order to carry out the
duties and responsibilities prescribed to OIG in the Act. OIG is required to provide a summary of instances

Semiannual Report to Congress                                                                                |     59
Issue 68 | April 1 –
 September 30, 2012
Other
         Significant OIG Activities
when such information or assistance is refused. OIG reports no such instances occurring during this reporting
period.


Employee Recognition
2012 CIGIE Award Recipients
CIGIE selected four VA OIG projects as recipients of the 2012 CIGIE “Awards for Excellence.” This award
recognizes the most significant achievements of the IG community over the past year. VA OIG staff continue
to distinguish themselves as leaders in the IG community, exemplified by their outstanding work and positive
impact on VA programs and on the lives of America’s Veterans. Selected VA OIG projects include:
     •	   Mark Lazarowitz, Special Agent, Northeast Field Office, Newark, New Jersey, is recognized for his work
          as lead OIG agent on a multiagency investigation of Syntheses, Inc., and Norian Corporation for illegally
          marketing Norian XR, a bone cement drug for treatment of spine fractures commonly suffered by the
          elderly that was not approved by the FDA. The 6-year investigation determined that Syntheses employees
          trained spine surgeons to use the drug to treat vertical compression fractures of the spine, then deceived
          them into unknowingly participating in unauthorized clinical trials for the company. Three patients
          died on the operating table after spine surgeons used Norian XR. As a result of the investigative team’s
          efforts, the company paid $23.8 million in criminal and civil fines and forfeitures and four corporate
          executives were incarcerated following guilty pleas. It is one of a few cases in which company executives
          have been sentenced to a term of imprisonment for violation of The Food, Drug, and Cosmetic Act.
     •	   Brent Arronte, Director, Benefits Inspection Division, Bay Pines, Florida, is recognized for his
          outstanding leadership in establishing a new congressionally-mandated inspections capability of VBA
          regional office operations. As the first Director of the Benefits Inspection Division, he developed
          inspection processes and guidelines, identified high risk protocol areas for review, and hired and trained
          a cadre of highly qualified staff. His office’s high-impact reports have influenced changes in VBA
          policy and disability claims processing practices and resulted in wide-ranging improvements in VARO
          operations. Congress’ recognition of the value and success of the Bay Pines office led to the creation of
          a second benefits inspections office in San Diego, CA, which he was instrumental in standing up. His
          staff’s inspection reports have sparked considerable media interest and prompted congressional briefings
          and hearings on VBA claims processing and service delivery challenges.
     •	    The VHA Office of Rural Health Audit Team is recognized for a report that had a major impact on
           rural Veterans’ access to readjustment services, primary care, specialty care, MH care, and long term
           care. The audit found that VHA’s Office of Rural Health did not adequately manage the use of funds for
           non-VA provided care and the selection process for rural health funded projects, and did not monitor
           project obligations and performance measures. As a result, VHA lacked assurance that $273.3 million
           of the $533 million in funding for FYs 2009 and 2010 improved access and quality of care for rural
           Veterans. The team’s recommendations to strengthen the management of rural health care funding were
           supported by congressional appropriations committees, which held back funding for FY 2012 until the
           audit team verified that the Office of Rural Health had implemented all of the audit’s recommendations.
           The team’s report led to sweeping changes in the review and funding prioritization of rural health
           initiatives and ensured that funds were aligned with strategic program goals. Team members include
           Gary Abe, Maria Afamasaga, Kevin Day, Lee Giesbrecht, Marisa Harvey, Barry Johnson, Issa Ndiaye,
           Thomas Phillips, and Melinda Toom.



60   |                                                                            VA Office of Inspector General
                                                                                  Issue 68 | April 1 –
 September 30, 2012
                                                                              Other
                                                                                    Significant OIG Activities
     •	   The Homeless Grant and Per Diem Program Audit Team is recognized for identifying serious risks
          in VA’s largest program providing services to homeless Veterans. During the team’s visit to a Chicago
          facility, they discovered that VA had been placing female homeless Veterans—many with histories of
          sexual trauma—for over a decade in a facility that was designed for a male-only population. Following
          this discovery, VA immediately removed the women from this facility, evaluated facilities nationwide,
          and implemented controls to prevent reoccurrence. The audit, which included onsite visits to
          26 facilities, uncovered other instances of risk to Veterans’ safety, security, and privacy, to include
          instances where Veterans’ medications were not securely stored and special dietary needs were not
          adequately addressed. The team’s report led VA to strengthen grant application and evaluation processes,
          update inspection checklists, and establish new procedures to ensure homeless facilities have the
          capability to deliver services. The audit results were highlighted at a Senate Veterans’ Affairs Committee
          hearing in March 2012. Team members include Gary Abe, Maria Afamasaga, Kevin Day, Sophia Demco,
          Chris Enders, Todd Groothuis, Marisa Harvey, Thomas Phillips, Ronald Stucky, Steven Toom, and Nelvy
          Viguera Butler.

OIG Employees Currently Serving on or Returning From Active Military Duty
We extend our thanks to the OIG employees listed below who are currently serving on active military duty.
     •	   Wess Dumas, a Special Agent in the Little Rock, AR, Office of Investigations, was activated by the Army
          National Guard and is stationed at Camp Shelby, MS.
     •	   Peter Moore, a Special Agent in the Dallas, TX, Office of Investigations, was activated by the Army
          Reserves and is stationed at Ft. Belvoir, VA.
     •	   Yaree Parker, an IT Specialist in Bay Pines, FL, is stationed at MacDill Air Force Base, Tampa, FL.
     •	   Ken Sardegna, an Auditor at OIG Headquarters, was deployed by the U.S. Army in June 2007 and is
          currently stationed in Washington, DC.




Semiannual Report to Congress                                                                                   |   61
Issue 68 | April 1 –
 September 30, 2012
                       Appendix A
                                           List of Reports Issued
                             Table 1: List of Reports Issued by Type
                   Office of Audits and Evaluations | Audits, Evaluations, and Reviews
                                                                        Dollar Value of Funds
     Issue Date
                                                                    Recommended                   Questioned
     and Report                        Title                                         Agreed to by
                                                                    for Better Use                  Costs
      Number                                                                        Management
                                                                        by OIG
4/6/2012          VA’s Federal Information Security Management
11-00320-138      Act Assessment for FY 2011
4/19/2012         Audit of VA’s Duty Station Assignments                                               $1,355,355
11-04081-142
5/17/2012         Review of VA’s Controls for the Pharmaceutical
12-01008-185      Prime Vendor Fast Pay System
5/23/2012         Review of VA’s Alleged Circumvention of
12-00089-182      Security Requirements for System Certifications
                  and Apple Mobile Devices
5/30/2012         Audit of VA Regional Offices’ Appeals
10-03166-75       Management Processes
6/20/2012         Audit of NCA’s Appropriated Operations and
11-03060-193      Maintenance Funds Oversight
8/2/2012          Audit of VA’s ADVANCE and the Corporate               $2,500,000     $2,500,000
11-02433-220      Senior Executive Management Office Human
                  Capital Programs
8/7/2012          Review of Alleged Mismanagement of The
12-00319-240      Villages Outpatient Clinic, Marion County,
                  Florida
8/9/2012          VBA’s Claims Folder Storage at the VA Regional
12-00244-241      Office Winston-Salem, North Carolina

8/30/2012    Audit of VHA’s Medical Care Collections Fund            $500,000,000 $500,000,000
12-00333-254 Billing of VA-Provided Care

9/30/2012         Review of Alleged Delays in VA Contractor
12-00165-277      Background Investigations
9/30/2012         Audit of VA’s Savings Reported Under OMB’s
11-03217-293      Acquisition Savings Initiative
                  See Joint Reviews for additional report.
                                                                      $502,500,000 $502,500,000        $1,355,355





62     |                                                                      VA Office of Inspector General
                                                                              Issue 68 | April 1 – September 30, 2012
                                                                                    Appendix A
                                                                                        List of Reports Issued
                                                   Joint Reviews
                                                                         Dollar Value of Funds
  Issue Date
                                                                    Recommended                    Questioned
  and Report                              Title                                       Agreed to by
                                                                    for Better Use                   Costs
   Number                                                                             Management
                                                                        by OIG
4/23/2012          Review of Veterans’ Access to Mental Health
12-00900-168       Care
9/30/2012          Administrative Investigation of the FY 2011                                       $762,198
12-03698-291       Human Resources Conferences in Orlando,
                   Florida
                                                                                                     $762,198

                              Office of Audits and Evaluations | Benefits Inspections
Issue Date       Number                                                 Title
5/10/2012      12-00247-175      VA Regional Office, Oakland, California
5/10/2012      12-00245-176      VA Regional Office, Los Angeles, California
5/10/2012      12-00242-177      VA Regional Office, San Diego, California
7/10/2012      12-00243-219      VA Regional Office, Lincoln, Nebraska
7/17/2012      12-00246-226      VA Regional Office Phoenix, AZ
7/26/2012      12-00240-236      VA Regional Office Little Rock, Arkansas
8/29/2012      12-00248-250      VA Regional Office, Sioux Falls, South Dakota
9/5/2012       12-00249-266      VA Regional Office Wichita, Kansas
9/13/2012      12-00244-276      VA Regional Office Winston-Salem, North Carolina
9/27/2012      12-00241-296      VA Regional Office Cleveland, Ohio

                Office of Healthcare Inspections | Combined Assessment Program Reviews
Issue Date       Number                                                Title
4/3/2012       11-04569-141      VA Puget Sound Health Care System, Seattle, Washington
4/10/2012      11-04568-148      VA Eastern Kansas Health Care System, Topeka, Kansas
4/17/2012      12-00370-156      South Texas Veterans Health Care System, San Antonio, Texas
4/18/2012      12-00371-157      William Jennings Bryan Dorn VA Medical Center, Columbia, South Carolina
4/20/2012      12-00368-161      Phoenix VA Health Care System, Phoenix, Arizona
4/23/2012      11-04566-163      James J. Peters VA Medical Center, Bronx, New York
4/27/2012      12-00708-171      Providence VA Medical Center, Providence, Rhode Island
5/21/2012      11-04567-179      Clement J. Zablocki VA Medical Center, Milwaukee, Wisconsin
5/30/2012      12-00883-189      Beckley VA Medical Center, Beckley, West Virginia
6/12/2012      12-00884-197      Bay Pines VA Healthcare System, Bay Pines, Florida
6/14/2012      12-00885-200      Alexandria VA Health Care System, Pineville, Louisiana
6/19/2012      12-00881-203      New Mexico VA Health Care System, Albuquerque, New Mexico
6/22/2012      12-00886-204      VA Nebraska-Western Iowa Health Care System, Omaha, Nebraska

Semiannual Report to Congress                                                                              |   63
Issue 68 | April 1 – September 30, 2012
Appendix A
     List of Reports Issued
               Office of Healthcare Inspections | Combined Assessment Program Reviews
Issue Date      Number	                                            Title
7/6/2012      12-00709-211   Washington, DC, VA Medical Center, Washington, DC
7/16/2012     12-00373-221   VA Sierra Nevada Health Care System, Reno, Nevada
7/27/2012     12-00882-232   Martinsburg VA Medical Center, Martinsburg, West Virginia
8/1/2012      12-01336-235   Bath VA Medical Center, Bath, New York
8/6/2012      12-01876-239   St. Cloud VA Health Care System, St. Cloud, Minnesota
8/13/2012     12-01874-245   VA North Texas Health Care System, Dallas, Texas
8/14/2012     12-01875-249   Jonathan M. Wainwright Memorial VA Medical Center, Walla Walla, Washington
9/4/2012      12-01334-261   Erie VA Medical Center, Erie, Pennsylvania
9/5/2012      12-01337-267   Tomah VA Medical Center, Tomah, Wisconsin
9/6/2012      12-02191-274   Ralph H. Johnson VA Medical Center, Charleston, South Carolina
9/18/2012     12-02190-281   Veterans Health Care System of the Ozarks, Fayetteville, Arkansas
9/20/2012     12-02187-282   VA Boston Healthcare System, Boston, Massachusetts
9/27/2012     12-02185-288   Tennessee Valley Healthcare System, Nashville, Tennessee

             Office of Healthcare Inspections | Community Based Outpatient Clinic Reviews
Issue Date      Number	                                            Title
5/1/2012      11-03655-170   Virginia Beach (Norfolk-Virginia Beach), VA; Bellevue, KY; Hamilton, OH
5/31/2012     11-03655-178   Fort Pierce and Sebring, FL; Dyersburg, TN; Smithville, MS
6/18/2012     11-03655-198   Yale, MI; La Crosse, Wausau, and Wisconsin Rapids, WI
6/28/2012     11-03655-210   Fort Dodge and Hutchinson, KS; O'Fallon (St. Charles), MO; Emporia, KS
7/3/2012      11-03655-213   Mission, Pierre, and Rapid City, SD
7/3/2012      11-03655-214   Fort Smith, AR; Lafayette, LA; Denton and Tyler, TX
7/6/2012      11-03655-215   Pine Plains (Eastern Dutchess) and Port Jervis, NY; Allentown and Tobyhanna, PA
8/2/2012      12-00572-237   La Grande and Klamath Falls, OR; Bellevue (King County) and Mount Vernon,
                             WA; North Bend, OR
8/23/2012     12-00574-238   Homestead and Key West, FL; Hopkinsville, KY; McMinnville, TN
8/27/2012     12-00575-255   Payson and Show Low, AZ; Long Beach (Cabrillo) and Laguna Hills, CA
8/28/2012     12-00573-242   Mattoon and Springfield, IL; Lawrence, KS; St. Joseph, MO
9/7/2012      12-00577-273   Wilmington, NC; Columbus, GA; Goose Creek, SC; and Savannah, GA
9/14/2012     12-00576-264   Chippewa Valley and Hayward, WI; St. James (South Central) and Montevideo,
                             MN
9/14/2012 12-00579-268       Flint, MI; Toledo, OH; Appleton and Union Grove, WI

                     Office of Healthcare Inspections | National Healthcare Review
Issue Date  Number	                                         Title
4/20/2012 12-00956-159	 Combined Assessment Program Summary Report: Evaluation of Registered Nurse
                        Competency Processes in Veterans Health Administration Facilities



64   |                                                                       VA Office of Inspector General
                                                                             Issue 68 | April 1 – September 30, 2012
                                                                              Appendix A
                                                                                  List of Reports Issued
                         Office of Healthcare Inspections | National Healthcare Review
Issue Date  Number	                                              Title
5/4/2012 11-03428-173	 Healthcare Inspection: Homeless Incidence and Risk Factors for Becoming
                        Homeless in Veterans
5/17/2012 11-00104-186	 Combined Assessment Program Summary Report: Evaluation of Quality
                        Management in Veterans Health Administration Facilities, Fiscal Year 2011
5/22/2012 12-01531-187	 Combined Assessment Program Summary Report: Enteral Nutrition Safety in
                        Veterans Health Administration Facilities
6/14/2012 11-00215-194	 Combined Assessment Program Summary Report: Management of Workplace
                        Violence in Veterans Health Administration Facilities
6/27/2012 11-03671-207	 Healthcare Inspection: Liver Transplant Denial, Veterans Health Administration
8/16/2012 11-01406-247	 Healthcare Inspection: Evaluation of Community Based Outpatient Clinics Fiscal
                        Year 2011
                        See Joint Reviews for additional report.

                      Office of Healthcare Inspections | Hotline Healthcare Inspections
Issue Date  Number	                                            Title
4/4/2012 12-00602-147	 Alleged Quality of Care and Administrative Issues, Sheridan VA Medical Center,
                        Sheridan, Wyoming
4/5/2012 10-03346-152	 Follow-Up Evaluation of Dental Instrument Reprocessing Deficiencies, St. Louis
                        VA Medical Center, St. Louis, Missouri
4/12/2012 12-01515-151	 Oversight Review of Ophthalmology Adverse Drug Events, VA Greater Los
                        Angeles Healthcare System, Los Angeles, California
4/18/2012 11-04156-160	 Suicide of a Veteran Enrolled in VA Supported Housing, Bay Pines VA Healthcare
                        System, Bay Pines, Florida
4/18/2012 11-04461-162	 Delay in Hearing Aid Repairs, VA Medical Center, Atlanta, Georgia
4/23/2012 11-03068-165	 Quality of Mental Health Care, VA Eastern Colorado Health Care System, Denver,
                        Colorado
5/14/2012 12-00206-180	 Oversight Review of Quality of Care and Other Issues at the Grand Junction VA
                        Medical Center, Grand Junction, Colorado
5/14/2012 12-00918-181	 Alleged Telemetry Unit Deficiencies, VA New York Harbor Healthcare System,
                        New York, NY
5/24/2012 12-01077-188	 Alleged Quality of Care and Communication Issues, Northport VA Medical Center,
                        Northport, NY
5/29/2012 12-00496-191	 Clinical Privileges and Airway Management, Marion VA Medical Center, Marion,
                        Illinois
5/29/2012 11-04130-192	 Oversight Review, Unauthorized Practice of Medicine at a VA Medical Center
5/31/2012 12-00675-190	 Quality of Care, Communication, and Infection Control Issues, William Jennings
                        Bryan Dorn VA Medical Center, Columbia, South Carolina
6/11/2012 11-02314-196	 Hemodialysis Nursing Care Issues at the John Cochran Division of the St. Louis VA
                        Medical Center, St. Louis, Missouri


Semiannual Report to Congress                                                                       |    65
Issue 68 | April 1 – September 30, 2012
Appendix A
     List of Reports Issued
                  Office of Healthcare Inspections | Hotline Healthcare Inspections
Issue Date  Number	                                              Title
6/13/2012 11-02756-201	 Quality of Care and Patient Safety Issues, Martinsburg VA Medical Center,
                        Martinsburg, West Virginia
6/22/2012 12-01287-208	 Alleged Poor Surgical Care and Mismanagement of Adverse Events, VA Medical
                        Center, West Palm Beach, Florida
6/22/2012 11-03896-209	 Alleged Quality of Care and Responsiveness Issues, VA Caribbean Healthcare
                        System, San Juan, Puerto Rico
7/16/2012 12-01475-222	 Patient Safety on a Critical Care Unit, Malcom Randall VA Medical Center,
                        Gainesville, FL
7/16/2012 12-01431-223	 Supervision of Nurse Anesthetists in the Anesthesia Section, Dayton VA Medical
                        Center, Dayton, OH
7/17/2012 12-00002-199	 Misdiagnosis and Alleged Lapses in Courtesy, Fayetteville VA Medical Center,
                        Fayetteville, NC
7/19/2012 12-01760-230	 Service Delivery and Follow-up After a Patient’s Suicide Attempt, Minneapolis VA
                        Health Care System, Minneapolis, Minnesota
8/10/2012 12-01543-243	 Issues Related to Ultraviolet Germicidal Irradiation Light Exposure in an
                        Operating Room, Lebanon VA Medical Center, Lebanon, PA
8/10/2012 12-02274-244	 Review of a Patient’s Medication Management, Lincoln Community Based
                        Outpatient Clinic, Lincoln, Nebraska
8/15/2012 12-02618-252	 Alleged Inadequate Airway Management, Jack C. Montgomery VA Medical Center,
                        Muskogee, OK
8/15/2012 11-04090-253	 Emergency Department Delays – Memphis VA Medical Center, Memphis, TN
8/21/2012 12-01872-258	 Management of Chronic Opioid Therapy at a VA Maine Healthcare System
                        Community Based Outpatient Clinic, Calais, ME
8/22/2012 12-01906-259	 Access and Coordination of Care at Harlingen Community Based Outpatient
                        Clinic, VA Texas Valley Coastal Bend Health Care System, Harlingen, TX
8/29/2012 12-02263-269	 Review of Quality of Care, Management, and Operations, Iowa City VA Health
                        Care System, Iowa City, Iowa
8/30/2012 12-01342-263	 Dental Service Infection Control and Leadership Issues, James J. Peters VA Medical
                        Center Bronx, New York
9/11/2012 12-02957-272	 Alleged Staffing and Quality of Care Issues, VA Black Hills Health Care System,
                        Hot Springs, SD
9/12/2012 10-03346-270	 Effectiveness of Actions to Correct Dental Instrument Reprocessing Deficiencies,
                        St. Louis VA Medical Center, St. Louis, Missouri
9/12/2012 12-00835-271	 Quality of Care Provided by a Nurse, John Cochran Division, St. Louis VA Medical
                        Center, St. Louis, Missouri
9/17/2012 12-02516-280	 Alleged Patient Safety, Medication Management, and Environment of Care
                        Deficiencies in the Intensive Care Unit, Hampton VA Medical Center, Hampton,
                        VA
9/25/2012 12-01731-284	 Consultation Mismanagement and Care Delays, Spokane VA Medical Center,
                        Spokane, WA


66   |                                                                     VA Office of Inspector General
                                                                           Issue 68 | April 1 – September 30, 2012
                                                                                  Appendix A
                                                                                        List of Reports Issued
                      Office of Healthcare Inspections | Hotline Healthcare Inspections
Issue Date  Number	                                           Title
9/24/2012 12-00823-285 Patient Equipment and Medication Safety in the Surgical Intensive Care Unit,
                       Michael E. DeBakey VA Medical Center, Houston, Texas
9/26/2012 12-00828-287 Consultant Responses, Nurse Staffing, Deep Dives, and Communication, VA Illiana
                       Health Care System, Danville, Illinois

                             Office of Investigations | Administrative Investigations
Issue Date  Number	                                              Title
4/11/2012 11-03720-153	 Failure to Properly Report a Felony to OIG, Interference with an OIG Investigation,
                        and Lack of Candor, Lebanon VA Medical Center, Lebanon, Pennsylvania
4/12/2012 10-02328-154	 Administrative Investigation, Improper Contracts, Conflict of Interest, Failure
                        to Follow Policy, and Lack of Candor, Health Administration Center, Denver,
                        Colorado
6/19/2012 11-04049-205 Falsification of Employment Record, Travel Irregularities, and Misuse of Position,
                        VA Learning University, VA Central Office
6/28/2012 11-03461-217 Improper Locality Pay and Failure to Follow Federal Travel Regulations,
                        Technology Transfer Program, VA Central Office
                        See Joint Reviews for additional report.

                                   Office of Contract Review | Preaward Reviews
                                                                                             Savings and Cost
Issue Date        Number	                                Title
                                                                                                Avoidance
4/10/2012     12-00261-155
                       Review of FSS Proposal Submitted Under a Solicitation
4/10/2012     12-01405-158
                       Review of FSS Proposal Submitted Under a Solicitation                        $4,232,620
4/11/2012     12-01714-146
                       Review of Proposal Submitted Under a Solicitation                            $2,063,278
4/12/2012     12-01488-130
                       Review of Proposal Submitted for Neurosurgical Services                       $965,418
4/16/2012     12-00797-164
                       Review of FSS Proposal Submitted Under a Solicitation
4/18/2012     12-00976-166
                       Review of FSS Proposal Submitted Under a Solicitation
5/1/2012      11-04470-174
                       Review of a Contract Extension Under a FSS Contract                           $268,906
5/9/2012      12-01088-183
                       Review of FSS Proposal Submitted Under a Solicitation                       $24,329,925
6/11/2012     12-02069-202
                       Review of FSS Proposal Submitted Under a Solicitation                       $24,102,180
6/19/2012     12-02077-206
                       Review of Proposal Submitted Under a Solicitation                            $1,004,450
6/22/2012     12-02020-212
                       Review of FSS Proposal Submitted Under a Solicitation                       $15,497,774
6/26/2012     12-02097-216
                       Review of FSS Proposal Submitted Under a Solicitation
7/6/2012      12-02630-224
                       Review of FSS Proposal Submitted Under a Solicitation
7/9/2012      12-01984-225
                       Review of Contract Extension Proposal Submitted Under a                     $22,359,239
                       FSS Contract
7/12/2012 12-02156-229 Review of Proposal for a Change Order Request Submitted                      $1,827,362
                       Under a Contract


Semiannual Report to Congress                                                                            |   67
Issue 68 | April 1 – September 30, 2012
Appendix A
     List of Reports Issued
                              Office of Contract Review | Preaward Reviews
                                                                                           Savings and Cost
Issue Date     Number                                 Title
                                                                                              Avoidance
7/13/2012    12-02411-228   Review of Proposal Submitted Under a Solicitation                       $340,052
7/13/2012    12-02019-231   Review of Proposal Submitted Under a Solicitation                       $535,958
7/18/2012    12-02267-233   Review of FSS Proposal Extension                                      $3,307,570
8/12/2012    12-02142-248   Review of FSS Proposal Submitted Under a Solicitation                    $94,421
8/20/2012    12-01791-262   Review of a Contract Extension Proposal Under a FSS                   $7,281,400
                            Contract
8/23/2012 12-02322-260      Review of Proposal Submitted Under a Solicitation                       $2,921,341
8/23/2012 12-03305-265      Review of Proposal Submitted Under a Solicitation                       $1,418,040
8/31/2012 12-02261-251      Review of Proposal for a Change Order Request Submitted                 $1,517,689
                            Under a Contract
9/5/2012     12-01989-279   Review of FSS Proposal Submitted Under a Solicitation
9/7/2012     12-02837-278   Review of Proposal Submitted Under a Solicitation                       $8,916,010
9/12/2012    12-03332-283   Review of FSS Proposal Submitted Under a Solicitation
9/20/2012    12-03960-289   Review of FSS Proposal Submitted Under a Solicitation                     $863,820
9/26/2012    12-01720-300   Review of Subcontractor Proposal Submitted Under a
                            Solicitation
9/27/2012 12-01723-295      Review of Subcontractor Proposal Submitted Under a
                            Solicitation
9/27/2012 12-01722-301      Review of Proposal Submitted Under a Solicitation
9/27/2012 12-01724-302      Review of Subcontractor Proposal Submitted Under a
                            Solicitation
                                                                                                 $123,847,453

                              Office of Contract Review | Postaward Reviews
Issue Date  Number                                Title                                    Dollar Recoveries
4/18/2012 12-00937-167 Review of Compliance with Public Law 102-585 Section 603                    $1,245,059
                       Under a Federal Supply Schedule Contract
4/23/2012 12-02424-169 Review of Compliance with Public Law 102-585 Section 603                       $134,752
                       under a Federal Supply Schedule Contract
4/25/2012 05-02463-172 Review of Proposed Settlements Submitted Under Federal                       $5,374,072
                       Supply Schedule Contracts
5/31/2012 09-02480-195 Review of Voluntary Disclosure and Refund Offers Under a                     $4,216,694
                       Federal Supply Schedule Contract
6/27/2012 10-00372-218 Review of Compliance with Public Law 102-585 Section 603                       $364,539
                       Under Federal Supply Schedule Contracts
7/9/2012 12-01422-227 Review of Compliance with Public Law 102-585 Section 603                           $2,178
                       Under Federal Supply Schedule Contracts



68   |                                                                     VA Office of Inspector General
                                                                           Issue 68 | April 1 – September 30, 2012
                                                                                   Appendix A
                                                                                      List of Reports Issued
                                   Office of Contract Review | Postaward Reviews
Issue Date  Number	                                  Title                         Dollar Recoveries
7/18/2012 12-01420-234	 Review of Late Addition of Covered Drugs Under Federal
                        Supply Schedule Contracts
8/15/2012 12-03229-256	 Review of Compliance with Industrial Funding Fee Reporting           $130,255
                        Under a Contract
8/20/2012 12-01235-132	 Review of Enterprise Technology Solutions, LLC Compliance
                        with Service-Disabled Veteran-Owned Small Business
                        Program Subcontracting Limitations
8/22/2012 12-03127-257	 Review of Compliance with Public Law 102-585 Section 603              $54,656
                        Under a Contract
9/19/2012 11-00418-286	 Review of Voluntary Disclosure and Refund Offer Under a             $227,234
                        Federal Supply Schedule Contract
9/25/2012 12-04194-299	 Review of Compliance with Public Law 102-585 Section 603               $6,352
                        Under a Contract
9/27/2012 12-00375-290	 Review of the Enhanced Use Lease between the Department
                        of Veterans Affairs and Veterans Development, LLC
9/28/2012 12-01012-298	 Review of Open Market Purchases under VA’s Pharmaceutical
                        Prime Vendor Contract Number V797P-1020 Awarded to
                        McKesson Corporation
                                                                                          $11,755,791

                                      Office of Contract Review | Claim Reviews
                                                                                            Savings and Cost
Issue Date        Number	                                  Title
                                                                                               Avoidance
5/10/2012 12-01755-184 Review of a Construction Claim                                                $222,780
8/2/2012 12-00531-246 Review of a Payment Claim Under a VA Contract Number                         $2,451,970
9/25/2012 12-02437-297 Review of a Claim Submitted Under a VA Contract                             $3,021,329
                                                                                                    $5,696,079

                               Total Potential Monetary Benefits of Reports Issued
                                                                   Questioned  Savings and          Dollar
                     Report Type                         BUOF
                                                                     Costs    Cost Avoidance      Recoveries
Audits, Evaluations and Reviews                       $502,500,000 $1,355,355
Joint Reviews                                                        $762,198
Preaward Reviews                                                                $123,847,453
Postaward Reviews                                                                                 $11,755,791
                                                                                     $5,696,079
                                                      $502,500,000   $2,117,553    $129,543,532   $11,755,791




Semiannual Report to Congress                                                                            |   69
Issue 68 | April 1 – September 30, 2012
Appendix A
     List of Reports Issued

            Table 2: Resolution Status of Reports with Questioned Costs
                                                                                               Dollar Value
                           Resolution Status                                Number
                                                                                               (In Millions)
 No management decision made by commencement of reporting period                       0                     $0
 Issued during reporting period                                                        2             $2,117,553
 Total inventory this period                                                           2             $2,117,553
 Management decisions made during the reporting period
   Disallowed costs (agreed to by management)                                          2             $2,117,553
   Allowed costs (not agreed to by management)                                         0                     $0
 Total management decisions this reporting period                                      2             $2,117,553
 Total carried over to next period                                                     0                     $0

         Table 3: Resolution Status of Reports with Recommended Funds
                     To Be Put To Better Use By Management
                                                                                               Dollar Value
                           Resolution Status                                Number
                                                                                               (In Millions)
 No management decision made by commencement of reporting period                       0                    $0
 Issued during reporting period                                                        2          $502,500,000
 Total inventory this period                                                           2          $502,500,000
 Management decisions made during the reporting period
   Disallowed costs (agreed to by management)                                          2          $502,500,000
   Allowed costs (not agreed to by management)                                         0                    $0
 Total management decisions this reporting period                                      2          $502,500,000
 Total carried over to next period                                                     0                    $0

OIG reports that there were no significant revised management decisions made during the reporting period, nor
any significant management decisions with which the Inspector General is in disagreement.




70   |                                                                       VA Office of Inspector General
                                                                             Issue 68 | April 1 – September 30, 2012
  Appendix B
     Unimplemented Reports and Recommendations

Table 1 identifies the number of open OIG reports and recommendations with results sorted by action office. 

As of September 30, 2012, there are 177 total open reports and 1,140 total open recommendations. However, 

13 reports and 16 recommendations are double or triple counted in Table 1 because they have actions at more 

than one office. Table 2 identifies the 33 reports and 93 recommendations that, as of September 30, 2012, remain 

open for more than 1 year.


                            Table 1: Number of Unimplemented OIG 

                            Reports and Recommendations by Office



                                                Reports Open More




                                                                                        Total Reports Open
                                                                    Reports Open Less




                                                                                                             Recommendations



                                                                                                                               Recommendations




                                                                                                                                                 Recommendations
                                                                                                             Open More Than



                                                                                                                               Open Less Than
                                                Than 1 Year



                                                                    Than 1 Year




                                                                                                             1 Year



                                                                                                                               1 Year



                                                                                                                                                 Open
                                                                                                                                                 Total
Veterans Health Administration                       15                124              139                       39               883               922
Veterans Benefits Administration                     4                 13               17                        11               36                47
Office of Management                                 0                  3                3                         0               13                13
Office of Information and Technology                 8                  2               10                        22               33                55
Office of Operations, Security, and                  3                  2                5                        12                3                15
Preparedness
Office of Acquisitions, Logistics, and                5                   4                  9                    10                16                26
Construction
Office of Human Resources and                         1                   4                  5                     3                21                24
Administration
Office of Small and Disadvantaged Business            1                   0                  1                     1                 0                 1
Utilization
Office of General Counsel                            0                  3                3                        0                54                54
Total                                                37                155              192                       98              1,059             1,157




Semiannual Report to Congress                                                                                                                           |    71
Issue 68 | April 1 – September 30, 2012
Appendix B
     Unimplemented Reports and Recommendations

                       Table 2: Unimplemented OIG Reports and

                       Recommendations More Than 1 Year Old

                                                                                                   Monetary
     Issue                                                                  Responsible
               Number                           Title                                           Impact of Open
     Date                                                                  Organization(s)
                                                                                               Recommendations
 07/11/06    06-02238-163     Review of Issues Related to the Loss of            OSP                None
                             VA Information Involving the Identity of
                                      Millions of Veterans
 Recommendation d: We recommend that the Secretary ensure that all position descriptions are evaluated and
 have proper sensitivity level designations, that there is consistency nationwide for positions that are similar
 in nature or have similar access to VA protected information and automated systems, and that all required
 background checks are completed in a timely manner.
 07/30/09    08-00921-181         Audit of VA Electronic Contract               OALC                    None
                                       Management System
 Recommendation 7: We recommend the Executive Director, Office of Acquisition, Logistics, and Construction
 coordinate with the Assistant Secretary for Management and the Assistant Secretary for Information and
 Technology to determine the feasibility of integrating eCMS with the IFCAP or FMS systems in order to
 eliminate or minimize duplicate data entry and streamline the procurement process.
 08/18/09    09-01123-195       Administrative Investigation Misuse              OIT                    None
                                of Position, Abuse of Authority, and
                              Prohibited Personnel Practices Office of
                              Information & Technology Washington,
                                                DC
 Recommendation 5: We recommend that the Assistant Secretary for Information and Technology confer
 with the Office of Human Resources to determine the appropriate corrective action concerning _______’s
 appointment, to include her appointment at a rate above the minimum, and take such corrective action.
 08/18/09    09-01123-196     Administrative Investigation Nepotism,             OIT                    None
                              Abuse of Authority, Misuse of Position, 

                                Improper Hiring, and Improperly 

                             Administered Awards, OI&T, Washington, 

                                               DC

 Recommendation 6: We recommend that the Assistant Secretary for Information and Technology confer with
 the Office of HR to determine the appropriate corrective action concerning _______’s appointment, to include
 her appointment at a rate above the minimum, and take such action.

 Recommendation 10: We recommend that the Assistant Secretary for Information and Technology confer
 with the Office of HR to determine the appropriate corrective action concerning _______’s improper VA
 appointment, and take such action.




72    |                                                                          VA Office of Inspector General
                                                                                 Issue 68 | April 1 – September 30, 2012
                                                       Appendix B
                                                           Unimplemented Reports and Recommendations

                                                                                                    Monetary
   Issue                                                                      Responsible
                  Number                           Title                                         Impact of Open
   Date                                                                      Organization(s)
                                                                                                Recommendations
  Recommendation 13: We recommend that the Assistant Secretary for Information and Technology confer
  with the Office of HR to determine the appropriate corrective action concerning _______’s improper VA
  appointment, to include her appointment at a rate above the minimum, and take such action.

  Recommendation 26: We recommend that the Assistant Secretary for Information and Technology confer with
  the Office of HR to determine the appropriate corrective action concerning the improper FCIP appointments,
  failure to provide 2-year formal training programs, and subsequent conversions to career-conditional status of
  _______, and take such action.

  Recommendation 27: We recommend that the Assistant Secretary for Information and Technology confer with
  the Office of HR to determine whether OI&T managers made additional improper FCIP appointments, failed
  to provide a 2-year formal training program, and subsequently converted employees to career-conditional
  status, and take appropriate corrective action.

  Recommendation 29: We recommend that the Assistant Secretary for Information and Technology confer with
  the Office of HR to determine the appropriate corrective action concerning the improper DHA appointments of
  _______ and take such action.

  Recommendation 30: We recommend that the Assistant Secretary for Information and Technology confer with
  the Office of HR to identify any additional improper VA appointments made using DHA, and take appropriate
  corrective action.

  Recommendation 33: We recommend that the Assistant Secretary for Information and Technology ensure that
  a review of OI&T retention incentives is conducted to ensure that they are necessary and support the mission
  and program needs and that they fully comply with law, OPM regulations, and VA policy.

  * OIG disagrees with the Office of General Counsel’s (OGC’s) legal opinions finding that a violation of the
  nepotism statute did not occur and no legal basis exists for collecting funds from individual employees, but
  closed recommendations 1, 3, and 18-24 because OIT is planning no further action in light of OGC’s legal
  opinions. OIG stands by the recommendations, but will not waste any more resources in pursuit of corrective
  action.
 09/30/09      09-01239-232        Department of Veterans Affairs System           OIT                  None
                                     Development Life Cycle Process
  Recommendation 1: We recommend the Assistant Secretary for Information and Technology require OI&T
  develop and issue a directive that communicates, VA-wide, the mandatory requirements of VA’s SDLC process
  outlined in the existing Program Management Guide to ensure consistent management of VA’s IT investment
  portfolio.

  Recommendation 4: We recommend the Assistant Secretary for Information and Technology require OI&T
  establish and maintain a central data repository to store all program artifacts, including cumulative cost and
  schedule data.



Semiannual Report to Congress                                                                                      |   73
Issue 68 | April 1 – September 30, 2012
Appendix B
     Unimplemented Reports and Recommendations

                                                                                                  Monetary
     Issue                                                                 Responsible
               Number                           Title                                          Impact of Open
     Date                                                                 Organization(s)
                                                                                              Recommendations
 12/03/09    09-01849-39       Healthcare Inspection, VistA Outages             OIT                None
                               Affecting Patient Care Office of Risk
                               Management and Incident Response
                                       Falling Waters, WV
 Recommendation 3: We recommend that the Assistant Secretary for Information and Technology ensure that the
 Office for Information Protection and Risk Management performs and reports on risk management for essential
 medical IT systems.
 03/17/10    09-02135-107     Audit of VA's Efforts to Provide Timely           VHA                    None
                               Compensation and Pension Medical
                                          Examinations
 Recommendation 3: We recommend the Acting Under Secretary for Health establish procedures to measure
 productivity by identifying the number of full-time equivalents who conduct VHA compensation and pension
 medical examinations and establishing standard times to complete each type of compensation and pension
 medical examination.

 Recommendation 4: We recommend the Acting Under Secretary for Health utilize and monitor data on VHA
 workload, costs, and productivity to ensure sufficient and appropriate resources are dedicated to completing
 compensation and pension medical examination requests sent to VA medical facilities.
 05/03/10    09-02815-143      Review of Brachytherapy Treatment                VHA                    None
                                 of Prostate Cancer, Philadelphia,
                               Pennsylvania and Other VA Medical
                                              Centers
 Recommendation 3: VHA should review the controls that are in place to ensure that VA contracts for health care
 comply with applicable laws and regulations, and where necessary, make the required changes in organization
 and/or process to bring this contracting effort into compliance.
 05/13/10    09-01968-150     Audit of National Call Centers and the            VBA                    None
                             Inquiry Routing and Information System
 Recommendation 2: We recommend the Acting Under Secretary for Benefits establish a national performance
 target for blocked call rate.
 05/17/10    09-01958-155          Audit of Oversight of Patient                VHA                    None
                                    Transportation Contracts
 Recommendation 6: We recommend the Under Secretary for Health automate patient transportation billing
 information in order to maintain and retain data needed to efficiently perform invoice reconciliation.




74    |                                                                         VA Office of Inspector General
                                                                                Issue 68 | April 1 – September 30, 2012
                                                       Appendix B
                                                           Unimplemented Reports and Recommendations

                                                                                                     Monetary
   Issue                                                                      Responsible
                  Number                           Title                                          Impact of Open
   Date                                                                      Organization(s)
                                                                                                 Recommendations
 06/07/10      08-02969-165 Review of Federal Supply Schedule 621 I-­              OALC               None
                            Professional and Allied Healthcare Staffing
                                             Services
  Recommendation 1: We recommend that the Deputy Assistant Secretary for OAL direct the NAC [National
  Acquisition Center] to not award any 621 I contracts unless the Contracting Officer can determine that the
  prices offered are fair and reasonable.

  Recommendation 2: We recommend that the Deputy Assistant Secretary for OAL direct the NAC [National
  Acquisition Center] to eliminate national NTE [not-to-exceed] pricing as a pricing objective, and to establish
  pricing objectives under 621 I contracts that are consistent with the goals of the FSS Program (MFC pricing, or
  the best pricing to commercial customers purchasing under similar terms and conditions as the Government).

  Recommendation 3: We recommend that the Deputy Assistant Secretary for OAL direct the NAC to revise the
  621 I Solicitation’s CSP [Commercial Sales Practices] format to require disclosure of information relevant to
  Recommendation 2.

  Recommendation 4: We recommend that the Deputy Assistant Secretary for OAL direct the NAC to use price
  analysis methodologies that place significant reliance on the 621 I CSP disclosures, once revised.

  Recommendation 5: We recommend that the Deputy Assistant Secretary for OAL direct the NAC to cease using
  comparisons to existing FSS prices and/or national market surveys as methodologies for establishing price
  reasonableness.
09/17/10       10-00969-248         ARRA Oversight Advisory Report:                OALC                 None
                                   Review of Efforts to Meet Competition 

                                  Requirements and Monitor Recovery Act 

                                                  Awards

  Recommendation 2: We recommended the Executive Director of the OALC develop and issue a comprehensive
  policy that clearly defines the appropriate procedures for the proper completion of adequate contractor
  responsibility determinations and related justifications.
 09/30/10      10-01575-262         VA Has Opportunities to Strengthen           OIT/OSP                None
                                   Program Implementation of Homeland
                                      Security Presidential Directive 12
  Recommendation 1: We recommend the Assistant Secretary for Operations, Security, and Preparedness, in
  conjunction with the Assistant Secretary for Information and Technology, develop a plan to ensure the PIV
  [Personal Identity Verification] System interfaces with internal and external systems to electronically verify PIV
  credential applicant information.

  Recommendation 4: We recommend the Assistant Secretary for Operations, Security, and Preparedness, in
  conjunction with the Assistant Secretary for Information and Technology, ensure the PIV System is modified to
  provide effective monitoring of System users for unlawful, unauthorized, or inappropriate activities.


Semiannual Report to Congress                                                                                    |     75
Issue 68 | April 1 – September 30, 2012
Appendix B
     Unimplemented Reports and Recommendations
                                                                                                   Monetary
     Issue                                                                  Responsible
               Number                           Title                                           Impact of Open
     Date                                                                  Organization(s)
                                                                                               Recommendations
 Recommendation 5: We recommend the Assistant Secretary for Operations, Security, and Preparedness, in 

 conjunction with the Assistant Secretary for Information and Technology, ensure the required Privacy Impact 

 Assessment for the PIV System is prepared and approved annually.


 Recommendation 6: We recommend the Assistant Secretary for Operations, Security, and Preparedness, in 

 conjunction with the Assistant Secretary for Information and Technology, define the extent to which PIV 

 credentials will be required to access VA facilities and information systems and develop plans to test and 

 implement the infrastructure necessary to establish these controls.


 Recommendation 8: We recommend the Assistant Secretary for Operations, Security, and Preparedness finalize
 the VA Directive and VA Handbook defining the roles, responsibilities, and processes for implementation and
 ongoing operations of the HSPD-12 Program.

 Recommendation 10: We recommend the Assistant Secretary for Operations, Security, and Preparedness 

 implement a formal oversight process to monitor progress in achieving compliance with the requirements of 

 HSPD-12.

 01/20/11    10-01937-68      Review of Retention Incentive Payments             VHA                  $894,790

                              at VA Medical Center Providence, Rhode 

                                              Island

 Recommendation 3: We recommend the Under Secretary for Health establish a management certification that
 requires the Veterans Integrated Service Network 1 Director to review and certify the appropriateness of all
 retention incentives paid to senior managers and supervisors in medical facilities within Veterans Integrated
 Service Network 1.
 01/24/11    09-03359-71     Veterans Benefits Administration Audit of           VBA              $1,130,000,000
                                100 Percent Disability Evaluations
 Recommendation 7: We recommended the Acting Under Secretary for Benefits conduct a review of all temporary
 100 percent disability evaluations and ensure each evaluation has a future exam date entered in the Veterans’
 electronic records.
 02/18/11    09-03850-99      Veterans Benefits Administration - Audit            OIT               $35,000,000

                                  of the Veterans Service Network

 Recommendation 3: We recommend the Assistant Secretary, Office of Information and Technology, define the 

 level of effort and apply the resources required to complete data migration for all entitlement programs and 

 decommission the Benefits Delivery Network legacy system.

 03/30/11    10-00639-135     Veterans Benefits Administration Review            VBA                    None

                                  of Pension Management Centers

 Recommendation 1: We recommend the Acting Under Secretary for Benefits establish an operational plan to 

 ensure Pension Management Centers efficiently and effectively manage the workload to achieve timeliness 

 standards.




76    |                                                                          VA Office of Inspector General
                                                                                 Issue 68 | April 1 – September 30, 2012
                                                        Appendix B
                                                           Unimplemented Reports and Recommendations

                                                                                                    Monetary
   Issue                                                                      Responsible
                  Number                           Title                                         Impact of Open
   Date                                                                      Organization(s)
                                                                                                Recommendations
  Recommendation 2: We recommend the Acting Under Secretary for Benefits modify the Performance and
  Accountability Report to provide separate performance measures for significant Pension Management Center
  processing actions, such as original death pensions and Income Verification Matches.

  Recommendation 3: We recommend the Acting Under Secretary for Benefits establish specific performance goals
  for Income Verification Matches and implement controls to ensure timely processing to reduce overpayments,
  including exploring alternative measures such as assigning a dedicated claims processor or team to process
  Income Verification Matches.

  Recommendation 4: We recommend the Acting Under Secretary for Benefits explore opportunities to obtain
  Internal Revenue Service and Social Security Administration data quicker to ensure Income Verification
  Matches are processed timely to reduce overpayments.
 05/09/11      11-00027-162        Combined Assessment Program Review              VHA                  None
                                    of the Kansas City VA Medical Center,
                                              Kansas City, MO
  Recommendation 7: We recommended that annual bloodborne pathogens training and N95 respirator fit testing
  be completed and documented.
 07/21/11      09-00981-227         Review of VHA Sole-Source Contracts            VHA                  None
                                         with Affiliated Institutions
  Recommendation 4: We recommend the Under Secretary for Health develop and provide comprehensive
  standardized training on the requirements of VA Directive 1663 to non-procurement staff who have
  responsibilities relating to sole source contracting with affiliates.

  Recommendation 5: We recommend the Under Secretary for Health ensure VHA contracting staff adhere to all
  policy requirements contained in VA Directive 1663.

  Recommendation 6: We recommend the Under Secretary for Health develop a standard that accurately defines
  the expected hours and workload from one FTE [full-time equivalent] for each specialty that can be applied by
  the contracting staff to determine the number of FTE and hours to be procured under the contract.

  Recommendation 7: We recommend the Under Secretary for Health develop clear and well defined national
  standard SOWs [statements of work] for each specialty that can be tailored as needed to address specific
  procurement requirements if needed.

  Recommendation 8: We recommend the Under Secretary for Health develop and require the use of a
  standard pricing schedule for procedure based contracts that require the listing of all CPT [Current Procedure
  Terminology] codes with estimated quantities and proposed prices for each code.

  Recommendation 9: We recommend the Under Secretary for Health conduct an evaluation to determine the
  feasibility of using an administrator or intermediary to process billings for procedure based contracts performed
  at the affiliate similar to those used by Medicare administrators.


Semiannual Report to Congress                                                                                   |     77
Issue 68 | April 1 – September 30, 2012
Appendix B
     Unimplemented Reports and Recommendations
                                                                                                    Monetary
     Issue                                                                   Responsible
               Number                            Title                                           Impact of Open
     Date                                                                   Organization(s)
                                                                                                Recommendations
 Recommendation 10: We recommend the Under Secretary for Health develop a more robust process to ensure 

 compliance with conflict of interest laws and regulations and their applicability to all Title 38 employees who 

 have a relationship with affiliates.


 Recommendation 11: We recommend the Under Secretary for Health seek a legislative amendment to 38 U.S.C.
 § 8153 and § 7409 to authorize VA to enter into personal services contracts when the services are to be provided
 at a VA facility.
 07/25/11    10-02436-234     Audit of the Veteran-Owned and Service-         VHA/OALC/            $2,500,000,000
                              Disabled Veteran-Owned Small Business             OSDBU
                                              Programs
 Recommendation 1: We recommended the Deputy Under Secretary for Health develop and implement a review
 strategy for active, high-dollar VOSB and SDVOSB contracts to determine if Federal subcontracting performance
 requirements have been met, and if the requirements have not been met, to research and pursue remedies.

 Recommendation 3: We recommended the Executive Director of the Office of Acquisition, Logistics, and
 Construction coordinate with the Deputy Under Secretary for Health and the Executive Director of the Office
 of Small and Disadvantaged Business Utilization to develop and mandate training for contracting officers on
 VOSB and SDVOSB ownership and control requirements and the assessment of subcontracts and joint venture
 agreements for compliance with FAR, VAAR, and Federal regulations.

 Recommendation 4: We recommended the Executive Director of the Office of Small and Disadvantaged Business
 Utilization coordinate with the Executive Director of the Office of Acquisition, Logistics, and Construction and
 the Deputy Under Secretary for Health to monitor VOSB and SDVOSB contracts to ensure contracting officers
 have complied with applicable FAR and VAAR requirements; documented their review of subcontracting,
 partnering, and joint venture agreements; and properly used the Electronic Contract Management System.
 07/27/11    10-03516-229 Review of Alleged Unauthorized Access to                 OIT                   None

                                         VA Systems

 Recommendation 5: We recommend the Assistant Secretary for Information and Technology review contractor
 system security controls and practices to ensure compliance with VA’s information security requirements.
 08/29/11    10-03162-262        Audit of the Project Management                   OIT                   None

                               Accountability System Implementation

 Recommendation 1: We recommended the Assistant Secretary for Information and Technology develop a
 detailed plan of the steps needed to complete implementation of the Project Management Accountability System
 program, including milestones for deliverables, performance measures, and a methodology for tracking progress.

 Recommendation 4: We recommended the Assistant Secretary for Information and Technology modify the
 Project Management Accountability System Dashboard to maintain original baseline data and issue guidance to
 ensure project performance is measured against both the original and current baselines.




78    |                                                                            VA Office of Inspector General
                                                                                  Issue 68 | April 1 – September 30, 2012
                                                         Appendix B
                                                             Unimplemented Reports and Recommendations

                                                                                                        Monetary
   Issue                                                                         Responsible
                  Number                            Title                                            Impact of Open
   Date                                                                         Organization(s)
                                                                                                    Recommendations
  Recommendation 5: We recommended the Assistant Secretary for Information and Technology designate
  personnel and provide them with detailed written procedures to perform periodic independent reviews of the
  Project Management Accountability System Dashboard to ensure data reliability and completeness.

  Recommendation 6: We recommended the Assistant Secretary for Information and Technology designate
  personnel and provide them with detailed written instructions to perform Project Management Accountability
  System planning, outcome, and compliance reviews and track project budgets and costs.
 09/02/11      10-01744-265 Audit of National Contract Awards at VA’s                OALC                  None
                                   National Acquisition Center
  Recommendation 1: We recommend the Executive Director for the Office of Acquisition, Logistics, and
  Construction establishes controls to monitor the use of the Electronic Contract Management System.

  Recommendation 3: We recommend the Executive Director for the Office of Acquisition, Logistics, and
  Construction establishes controls to monitor and ensure the timely completion of the Electronic Contract
  Management System upgrade, including the National Acquisition Center’s Contract Management system
  functions to eliminate the duplication of effort in data entry.
 09/06/11      11-00334-267        Safety, Security, and Privacy Issues for           VHA                  None
                                 Female Veterans at a Chicago, IL Homeless
                                              Provider Facility
  Recommendation 4: We recommend the Under Secretary for Health relocate female homeless veterans found
  in male-only approved provider facilities or other inappropriate housing situations to ensure safe and secure
  housing appropriate for veterans.
 09/07/11      11-02869-272 Combined Assessment Program Summary                       VHA                  None
                             Report Management of Test Results in
                            Veterans Health Administration Facilities
  Recommendation 1: We recommended that the Under Secretary for Health, in conjunction with VISN and
  facility senior managers, ensures that facilities’ written policies are comprehensive and define the processes for
  monitoring the effectiveness of communicating critical results to practitioners and patients.

  Recommendation 2: We recommended that the Under Secretary for Health, in conjunction with VISN and
  facility senior managers, ensures that ordering practitioners notify patients of all critical results within the
  defined timeframes.

  Recommendation 3: We recommended that the Under Secretary for Health, in conjunction with VISN and
  facility senior managers, ensures that practitioners notify patients of normal results and that managers monitor
  compliance.




Semiannual Report to Congress                                                                                        |   79
Issue 68 | April 1 – September 30, 2012
Appendix B
     Unimplemented Reports and Recommendations

                                                                                                    Monetary
     Issue                                                                   Responsible
               Number                            Title                                           Impact of Open
     Date                                                                   Organization(s)
                                                                                                Recommendations
 09/13/11    11-03361-274 Combined Assessment Program Summary                    VHA                 None
                              Report – Evaluation of Infection
                           Prevention Practices in Veterans Health
                                  Administration Facilities
 Recommendation 2: We recommended that the Under Secretary for Health, in conjunction with VISN and
 facility senior managers, ensures that UVGI fixtures are turned on and functional.

 Recommendation 3: We recommended that the Under Secretary for Health, in conjunction with VISN and
 facility senior managers, ensures that negative pressure is monitored and within acceptable levels in occupied AII
 rooms and that results are documented.

 Recommendation 4: We recommended that the Under Secretary for Health, in conjunction with VISN and
 facility senior managers, ensures that employees with occupational exposure risk complete annual OSHA
 Bloodborne Pathogens Rule training and that compliance is monitored.

 Recommendation 5: We recommended that the Under Secretary for Health, in conjunction with VISN and
 facility senior managers, ensures that designated employees complete annual N95 respirator fit testing and that
 compliance is monitored.
 09/13/11    11-01610-278 Combined Assessment Program Review of                  VHA                     None
                           the Minneapolis VA Health Care System,
                                     Minneapolis, MN
 Recommendation 8: We recommended that processes be strengthened to ensure that all components of written
 AD [advance directive] notification are provided to patients and that AD notification and screening are
 documented in the medical record.
 09/13/11    11-01606-277 Combined Assessment Program Review of                  VHA                     None
                          the St. Louis VA Medical Center, St. Louis,
                                            MO
 Recommendation 4: We recommended that processes be strengthened to ensure that all components of written
 AD notification and screening are provided to patients and documented in the medical record.

 Recommendation 14: We recommended that annual N95 respirator fit testing be completed and that compliance
 be monitored.
 09/21/11    11-01997-289      Management of Patient Abuse Cases,                VHA                     None
                               Charlie Norwood VA Medical Center,
                                          Augusta, GA
 Recommendation 4: We recommended that the Medical Director ensure that the appropriate process is followed
 when SLB [State Licensing Board] reporting is indicated.




80    |                                                                           VA Office of Inspector General
                                                                                  Issue 68 | April 1 – September 30, 2012
                                                        Appendix B
                                                           Unimplemented Reports and Recommendations

                                                                                                      Monetary
   Issue                                                                       Responsible
                  Number                          Title                                            Impact of Open
   Date                                                                       Organization(s)
                                                                                                  Recommendations
 09/27/11      09-03154-271        Audit of Compensation Program Claims             VBA                None
                                                Brokering
  Recommendation 1: We recommended the Under Secretary for Benefits revise brokering policies and procedures
  to require Veterans Service Centers to include steps in their work plans that ensure prompt claims brokering
  using a bimonthly shipment schedule.

  Recommendation 3: We recommended the Under Secretary for Benefits revise policies and procedures to require
  area offices to broker claims to one resource center or Veterans Service Center for all claims-processing phases
  except establishment and to document any exceptions with evidence showing that the originating Veterans
  Service Center would take longer to process the claim.

  Recommendation 4: We recommended the Under Secretary for Benefits revise policies and procedures to require
  area offices to stop brokering claims to resource centers and Veterans Service Centers with accuracy rates that are
  significantly lower than originating Veterans Service Centers.

  Recommendation 6: We recommended the Under Secretary for Benefits revise claims brokering policies and
  procedures to require area offices to approve and document informal VARO brokering decisions.

  Recommendation 7: We recommended the Under Secretary for Benefits require area offices to assess compliance
  with revised claims brokering policies and procedures during annual VA Regional Office site visits.
 09/30/11      11-00308-294         Follow-Up Audit of VHA's Part-Time              VHA                  None
                                       Physician Time and Attendance
  Recommendation 1: We recommend the Under Secretary for Health reinstitute the requirement that all part-
  time physicians (including those on fixed schedules) who have duties other than clinical activities complete
  a written agreement detailing the approximate amount of time that will be spent on VHA clinical, research,
  education, and administrative activities.

  Recommendation 2: We recommend the Under Secretary for Health require VA medical center management to
  establish procedures to periodically monitor the activities of all part-time physicians to ensure consistency with
  written employment agreements.

  Recommendation 3: We recommend the Under Secretary for Health clarify procedures requiring staff to establish
  and use baseline levels to monitor part-time physicians’ activities for an entire pay period during the month.

  Recommendation 4: We recommend the Under Secretary for Health clarify procedures including documentation
  requirements to ensure semi-annual physical reviews are random and reviewers make visual verification when
  the part-time physician is at VA.

  Recommendation 5: We recommend the Under Secretary for Health require VA medical center management
  to establish oversight procedures to ensure staff follow the requirements in VA Handbook 5011/12 to maintain
  accurate schedules for part-time physicians.


Semiannual Report to Congress                                                                                     |    81
Issue 68 | April 1 – September 30, 2012
Appendix B
     Unimplemented Reports and Recommendations
                                                                                                  Monetary
     Issue                                                                 Responsible
               Number                          Title                                           Impact of Open
     Date                                                                 Organization(s)
                                                                                              Recommendations
 Recommendation 6: We recommend the Under Secretary for Health require VA medical center management
 to establish oversight procedures to ensure staff follow the requirements in VA Handbook 5011/12 to promptly
 record actual hours worked and leave taken by part-time physicians.
 09/30/11    10-03850-298     Audit of VHA’s Workers’ Compensation          VHA/HRA               $334,100,000
                                        Case Management
 Recommendation 1: We recommended the Under Secretary for Health establish Workers’ Compensation
 Program case file documentation standards so that specialists ensure all case files are complete.

 Recommendation 2: We recommended the Assistant Secretary for Human Resources and Administration
 coordinate with the Under Secretary for Health to develop and implement standard procedures for VA to
 question the validity of claims lacking adequate supporting evidence.

 Recommendation 3: We recommended the Under Secretary for Health establish clear reporting lines
 with delegated authority for overseeing and enforcing Workers’ Compensation Program policy (repeat
 recommendation from the 2004 VA OIG audit report.)

 Recommendation 4: We recommended the Under Secretary for Health establish a plan outlining the roles,
 responsibilities, procedures, and training needed for the Director of Safety, Health, and Environmental
 Compliance to accomplish Workers’ Compensation Program oversight and enforcement control.

 Recommendation 5: We recommended the Under Secretary for Health implement oversight mechanisms and
 documentation standards to ensure workers’ compensation staff maintains complete and up-to-date case files.

 Recommendation 7: We recommended the Under Secretary for Health ensure facility directors assign adequate
 staff to manage WCP [Workers’ Compensation Program] cases (repeat recommendation for the Department in
 the 2004 VA OIG audit report).

 Recommendation 8: We recommended the Assistant Secretary for Human Resources and Administration
 coordinate with the Under Secretary for Health to develop and implement fraud identification and referral
 procedures.

 Recommendation 9: We recommended the Assistant Secretary for Human Resources and Administration
 propose that the Department of Labor, Office of Workers’ Compensation Programs present for congressional
 consideration a legislative change requiring that at a pre-determined retirement age Workers’ Compensation
 Program claimants’ transition from agency chargeback rolls to more appropriate retirement programs.




82    |                                                                         VA Office of Inspector General
                                                                                Issue 68 | April 1 – September 30, 2012
                                                        Appendix B
                                                            Unimplemented Reports and Recommendations

                                                                                                     Monetary
   Issue                                                                      Responsible
                  Number                            Title                                         Impact of Open
   Date                                                                      Organization(s)
                                                                                                 Recommendations
 09/30/11      10-04037-295           Audit of VA’s Enrollment Centers’             OSP               None
                                     Implementation of Personal Identity
                                         Verification Requirements
  Recommendation 2: We recommended the Assistant Secretary for Operations, Security, and Preparedness
  direct VA Enrollment Centers to evaluate information supporting the eligibility of Personal Identity Verification
  credential holders and take action to deactivate Personal Identity Verification credentials of individuals who did
  not satisfy processing requirements.

  Recommendation 3: We recommended the Assistant Secretary for Operations, Security, and Preparedness
  implement Enrollment Center monitoring procedures, such as implementing operations plan maintenance and
  annual life-cycle walkthrough procedures in accordance with National Institute of Standards and Technology
  Special Publication 800-79-1.

  Recommendation 4: We recommended the Assistant Secretary for Operations, Security, and Preparedness
  develop and issue guidance to ensure Registrars screen all Personal Identity Verification credential applicants
  against the Terrorist Screening Database prior to issuing Personal Identity Verification credentials.

  Recommendation 6: We recommended the Assistant Secretary for Operations, Security, and Preparedness
  issue guidance to ensure Registrars authenticate the source and integrity of identity documents used during the
  Personal Identity Verification credential enrollment process through official Federal and State databases.

  Recommendation 7: We recommended the Assistant Secretary for Operations, Security, and Preparedness
  make appropriate changes to the Personal Identity Verification System to prevent Enrollment Center staff from
  performing more than one role in the Personal Identity Verification credential issuance process.
   Total                                                                                           $3,999,994,790




Semiannual Report to Congress                                                                                       |   83
Issue 68 | April 1 – September 30, 2012
         This page is intentionally blank.





84   |                                        VA Office of Inspector General
                                              Issue 68 | April 1 –
 September 30, 2012
On the Cover
Retired U.S. Army Command Sgt. Maj. Sterling R. Cale, 90-year-old Pearl Harbor survivor, takes a moment in
the shrine room of the USS Arizona Memorial to honor the 1,177 service members who lost their lives during
the attack on the USS Arizona on December 7, 1941. Cale, along with active duty military and civilian leaders,
gathered at the USS Arizona Memorial on May 27, 2012, for the USS Arizona Memorial 50th anniversary
commemoration ceremony in Honolulu, HI. The memorial was dedicated on Memorial Day in 1962. Since its
construction, the memorial has stood as a place to remember the tragedy and honor the dead. Photos by the
Department of Veterans Affairs and Stockvault.
                                                                                    VA OIG Semiannual Report to Congress
    Department of Veterans Affairs
         Office of Inspector General
                    Semiannual Report to Congress
                    Issue 68 | April 1 – September 30, 2012




 Help VA’s Secretary ensure the integrity of departmental operations by reporting
suspected criminal activity, misconduct, waste, abuse, mismanagement, and safety
  issues to the Inspector General Hotline. Callers can remain anonymous. For
              more information, visit: http://www.va.gov/oig/hotline.

                     Mail:	 VA Inspector General Hotline (53E)
                            P.O. Box 50410
                            Washington, DC 20091-0410
                   E-Mail: vaoighotline@va.gov
                Telephone:	 (800) 488-8244



                                                                                    Issue 68 | April 1 – September 30, 2012
                      Fax: (202) 565-7936

